No.
______________________________________________________

IN THE

Supreme Court of the United States Court
______________________________________________________

CENTRIPETAL NETWORKS, INC.,
v.
CISCO SYSTEMS, INC.,

Petitioner,

Respondent.

_____________________________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_____________________________
PETITION FOR A WRIT OF CERTIORARI
_____________________________
Paul J. Andre

Counsel of Record

Lisa Kobialka
James Hannah
Kramer Levin Naftalis
& Frankel LLP
990 Marsh Road
Menlo Park, CA 94025
(650) 752-1700
pandre@kramerlevin.com
lkobialka@kramerlevin.com
jhannah@kramerlevin.com

Counsel for Petitioner
August 9, 2021

i

QUESTION PRESENTED
The patent statute provides that “[a] person
shall be entitled to a patent unless . . . the invention
was . . . described in a printed publication . . . in this
country, more than one year prior to the date of the
application for patent in the United States.” 35 U.S.C.
§ 102(b) (pre-AIA). This provision has long been
interpreted by the courts to require that a document
that predates the patent application by over a year is
deemed a printed publication only if it is readily
available to interested members of the public through
generally available medium.
The question presented is:
Can a document qualify as a printed
publication if it is stored on a passwordprotected website, not accessible to the public,
and available only to customers who pay over
$25,000 dollars to purchase related software?

ii
PARTIES TO THE PROCEEDING
All parties to the proceeding are identified in
the caption.
RULE 29.6 STATEMENT
Petitioner
Centripetal
Networks,
Inc.
(“Centripetal”) is a privately held company that has
no parent corporation. No publicly held company
owns 10 percent or more of Centripetal’s stock.
RELATED PROCEEDINGS
Centripetal states that the below listed
proceedings are directly related to the case in this
Court within the meaning of Rule 14.1(b)(iii):


Centripetal Networks, Inc. v. Cisco
Systems, Inc., Nos. 2020-1635, 20201636, United States Court of Appeals for
the Federal Circuit. Judgment entered
March 10, 2021.



Centripetal Networks, Inc. v. Cisco
Systems, Inc., No. 2020-2057, United

States Court of Appeals for the Federal
Circuit. Judgment entered March 10,
2021.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED...........................................i
PARTIES TO THE PROCEEDING ........................... ii
RULE 29.6 STATEMENT .......................................... ii
RELATED PROCEEDINGS ...................................... ii
TABLE OF AUTHORITIES .......................................vi
PETITION FOR WRIT OF CERTIORARI ................. 1
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 2
JURISDICTION .......................................................... 2
PERTINENT STATUTORY PROVISION.................. 3
STATEMENT OF THE CASE .................................... 4
I.

Statutory Framework ....................................... 4

II.

Factual and Procedural History....................... 5
A.

Centripetal’s Patents Benefited
the Public By Disclosing New and
Useful Techniques to Prevent
Cyber Attacks. ................................... 5

B.

After Centripetal Sued Cisco for
Patent Infringement, Cisco
Challenged the Validity of
Centripetal’s Patents. ........................ 6

iv
C.

The Federal Circuit Affirmed the
PTAB’s Decisions. .............................. 7

REASONS FOR GRANTING THE PETITION ......... 7
I.

Requiring that Documents are Reasonably
Accessible to the Public to be Considered
Printed Publications Serves Congress’s
intent. ................................................................ 8

II.

The Federal Circuit’s Erroneous Decisions
Run Afoul of Decades of Precedent and the
Purpose of the Patent System. ....................... 13

CONCLUSION .......................................................... 15
APPENDIX
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, CASE NOS. 2020-1635, 20201636, FILED MARCH 10, 2021. ............................... 1a
APPENDIX B — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, CASE NO. 2020-2057, FILED
MARCH 10, 2021. .................................................... 26a
APPENDIX C - JUDGMENT OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
PATENT TRIAL AND APPEAL BOARD, IPR201801436, DATED JANUARY 23, 2020. ...................... 44a
APPENDIX D - JUDGMENT OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
PATENT TRIAL AND APPEAL BOARD, IPR201801437, DATED JANUARY 23, 2020. .................... 122a

v
APPENDIX E - JUDGMENT OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
PATENT TRIAL AND APPEAL BOARD, IPR201801760, DATED MAY 18, 2020 .............................. 160a
APPENDIX F – 35 U.S.C. § 102. .......................... 223a
EXHIBIT-1042 - SOURCEFIRE 3D IT PRO ........ SA1
EXHIBIT-1043 - SOURCEFIRE 3D IPS1000 ....... SA2

vi
TABLE OF AUTHORITIES
Page(s)
Cases

Acceleration Bay, LLC v. Activision
Blizzard Inc.,

908 F.3d 765 (Fed. Cir. 2018) ............................. 4

Bonito Boats, Inc. v. Thunder Craft Boats,

489 U.S. 141 (1989) ....................................... 8, 14

Bruckelmyer v. Ground Heaters, Inc.,

453 F.3d 1352 (Fed. Cir. 2006) ......................... 12

Butterworth v. United States ex rel, Hoe,

112 U.S. 50 (1884) ............................................. 13

Constant v. Advanced Micro-Devices, Inc.,

848 F.2d 1560 (Fed. Cir. 1988) ......................... 12

Cordis Corp. v. Boston Scientific Corp.,

561 F.3d 1319 (Fed. Cir. 2009) ......................... 10

In re Cronyn,

890 F.2d 1158 (Fed. Cir. 1989) ......................... 12

Deep Welding, Inc. v. Sciaky Bros., Inc.,

417 F.2d 1227 (7th Cir. 1969) ..................... 11, 12

Graham v. John Deere Co.,

383 U.S. 1 (1966) ................................................. 9

In re Hall,

781 F.2d 897 (Fed. Cir. 1986) ........................... 12

vii

I.C.E. Corp. v. Armco Steel Corp.,

250 F. Supp 738 (S.D. N.Y. Feb. 9, 1966) ... 10, 14

Kewanee Oil Co. v. Bicron Corp.,

416 U.S. 470 (1974) ....................................... 8, 14

In re Klopfenstein,

380 F.3d 1345 (Fed. Cir. 2004) ......................... 12

Oil States Energy Services v. Greene’s
Energy Group, LLC,

138 S. Ct. 1365 (2018) ......................................... 9

Pickering v. Holeman,

459 F.2d (9th Cir. 1972) .................................... 11

Popeil Brothers, Inc. v. Schick Electric, Inc.,

494 F.2d 162 (7th Cir. 1974) ............................. 11

In re Tenney,

45 C.C.P.A. 894 (1958) ................................ 10, 11

United States v. Dubilier Condenser Corp.,

289 U.S. 178 (1933) ............................. 8, 9, 11, 13

Statutes
28 U.S.C. § 1254(1) ................................................... 3
35 U.S.C. § 102 ..................................................... 3, 4
35 U.S.C. § 103 ......................................................... 4
America Invents Act ......................................... 10, 14
Patent Act ......................................................... 1, 8, 9

viii
Other Authorities
157 Cong. Rec S 1370 (daily ed. March 8,
2011) .................................................................. 10
157 Cong. Rec S 1497 (daily ed. March 9,
2011) .................................................................. 14
1 William C. Robinson, The Law of Patents
for Useful Inventions, §§ 325-327 (1890) ......... 10
U.S. CONST. art. 1, § 8, cl. 8 ............................. 2, 13

1
PETITION FOR WRIT OF CERTIORARI
Centripetal respectfully petitions for a writ of
certiorari to review two related judgments of the
United States Court of Appeals for the Federal Circuit
in this case.
INTRODUCTION
The United States does not have two separate
justice systems—one for the rich and one for the poor.
Yet recent Federal Circuit holdings have established
a de facto divide between the “haves” and “have nots.”
Large technology Goliaths are afforded preferential
patent jurisprudence based solely on their ability to
reach into their large coffers to pay for it. This
dynamic has arisen in this case in connection with the
Federal Circuit’s determination regarding when a
publication is publicly accessible.
Certainly a
publication which is under lock and key on a password
protected website and only made available if
individuals pay over $25,000 is not publicly accessible
under the Patent Act.
The Federal Circuit’s acceptance of this
secreted
document
as
a
printed
publication contravenes
decades
of
precedent
requiring that such documents be publicly
available, and undermines Congress’ intention that
the patent system promote public disclosure of
inventions and new technology. The framers of the
Constitution
recognized
the
importance
of
incentivizing both the development and disclosure of
inventions “to promote the Progress of Science and
useful Arts,” and the need to reward innovators for
disclosing technology they might otherwise retain as

2
trade secrets. U.S. CONST. art. 1, § 8, cl. 8. This
insight is embodied in the longstanding interpretation
of the patent statute as only permitting documents
that are reasonably accessible to interested members
of the public to be used as a “printed publication” to
potentially invalidate a patent. In contrast,
documents may not be used as printed publication
prior art if they are withheld from the public and do
not enrich the public domain.
This Court’s review is needed to resolve the
Federal Circuit’s inconsistent application of the
printed publication requirements and restore it to
its intended scope.
OPINIONS BELOW
The Final Written Decisions of the Patent Trial
and Appeal Board (“PTAB”) on appeal are unreported,
and are reprinted in the Appendix (“App.”) 44a-121a;
App. 122a-159a; and App. 160a-222a.
The Federal Circuit’s two decisions affirming
the PTAB’s Final Written Decisions (the “Decisions”)
are reported at 847 Fed. Appx. 869 and 847 Fed. Appx.
881, and respectively reprinted at App. 1a-25a and
App. 26a-43a. The Federal Circuit’s decision reported
at 847 Fed. Appx. 881 relied on the discussion
reported at 847 Fed. Appx. 869. See App. 39a.
JURISDICTION
The Federal Circuit rendered its Decisions on
March 10, 2021.
App. 1a-25a; App. 26a-43a.
Centripetal timely filed this appeal pursuant to Rule
13.1 and this Court’s July 19, 2021 Order extending

3
the deadline to file a petition for a writ of certiorari.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
PERTINENT STATUTORY PROVISION
part:

35 U.S.C. § 102 (pre-AIA) provides in relevant

Conditions for patentability; novelty and loss of right
to patent.
A person shall be entitled to a patent unless —
*****
(b) the invention was patented or described in a
printed publication in this or a foreign country or in
public use or on sale in this country, more than one
year prior to the date of the application for patent in
the United States.
App. 223a.

4
STATEMENT OF THE CASE
I.

Statutory Framework

The patent statute provides that “[a] person
shall be entitled to a patent unless” the claimed
invention is anticipated or rendered obvious by prior
art. 35 U.S.C. §§ 102(b), 103 (pre-AIA). Congress
identified various categories of relevant prior art. At
issue in this Petition is “printed publication” prior art.

Id.

For decades, the Federal Circuit, its
predecessor court, and the other circuit courts applied
a standard that a document only qualified as a printed
publication if it was reasonably accessible to
interested members of the public through generally
available medium that allows for wide public access.
See p. 10-12, infra.
In particular, the public accessibility aspect of
a printed publication has been “called the touch-stone
in determining whether a reference constitutes a
‘printed publication.’” Acceleration Bay, LLC v.
Activision Blizzard Inc., 908 F.3d 765, 772 (Fed. Cir.
2018). “A reference is considered publicly accessible if
it was ‘disseminated or otherwise made available to
the extent that persons interested and ordinarily
skilled in the subject matter or art, exercising
reasonable diligence, can locate it.’” Id. (citation
omitted).

5
II.

Factual and Procedural History
A. Centripetal’s Patents Benefited the Public
By Disclosing New and Useful Techniques
to Prevent Cyber Attacks.

Petitioner Centripetal is an innovative cybersecurity company that develops and sells the
RuleGate and CleanINTERNET suite of products and
services, which protect a network against a variety of
attacks. Centripetal spent over a decade inventing
and developing new techniques to protect computer
networks from a variety of hostile attacks, for which
it was awarded numerous patents, including United
States Patent Nos. 9,124,552 (the “’552 Patent), U.S.
Patent No. 9,160,713 (the “’713 Patent”), and U.S.
Patent No. 9,413,722 (the “’722 Patent”).
The ’552 and ’713 Patents disclose to the public
new and useful techniques for preventing “[a] category
of cyber attack known as exfiltrations” that had, prior
to the ’552 and ’713 Patents, been “difficult for
conventional cyber defense systems to prevent.” J.A.
140 at 1:15-18, J.A. 154 at 1:25-28.1 The ’722 Patent
discloses new and useful techniques for proactively
filtering network traffic on the basis of “network
threat intelligence,” which refers to information about
threats on the Internet. S.J.A. 159-160 at 1:20-26,
3:18-33.

Materials from the Joint Appendix filed in U.S. Court of
Appeals for the Federal Circuit (CAFC), Case No. 20-1635,
Docket 33, are cited herein as “J.A.” Materials from the Joint
Appendix filed in CAFC, Case No. 20-2057, Docket 21, are cited
herein as “S.J.A.”
1

6

B. After Centripetal Sued Cisco for Patent
Infringement, Cisco Challenged the
Validity of Centripetal’s Patents.
Centripetal sued Cisco for infringing
Centripetal’s patents, including the ’552, ’713, and
’722 Patents. Cisco filed multiple petitions for inter
partes review (“IPR”) of Centripetal’s patents. Cisco
asserted as printed publication prior art the user
guide for a Sourcefire software product (the
“Sourcefire Manual”). App. 7a; App. 27a. The PTAB
found the challenged claims from Centripetal’s
patents invalid in view of the Sourcefire Manual. See
generally, App. 66a-77a; App. 129a-136a; App. 172a182a.
Centripetal argued that the Sourcefire Manual
is not a printed publication (and, therefore, cannot be
used as prior art), because it was not available to the
public as the Sourcefire Manual was only made
available under lock and key on a password protected
support website and only to customers willing and
able to purchase the corresponding Sourcefire
software that cost over $25,000. See SA1-SA8.
The PTAB entered the Final Written Decisions
on the ’552, ’713, and ‘722 Patents, finding that the
Sourcefire Manual was a printed publication and that
the challenged claims of the patents were
See
unpatentable over the Sourcefire Manual.
generally, App. 66a-77a; App. 129a-136a; App. 172a182a.

7
C. The Federal Circuit Affirmed the PTAB’s
Decisions.
A Federal Circuit panel affirmed the PTAB’s
Final Written Decisions after Centripetal appealed.
The panel acknowledged that the makers of the
Sourcefire Manual kept it on a secure website that
was not available to the public. App. 15a; App. 33a;
App. 34a.
The panel focused on the Board’s finding that
customers obtained the Sourcefire Manual through
the purchase of the Sourcefire software, which cost at
least $25,000. App. 17a-20a; App. 39a. As a result, on
March 10, 2021, the Federal Circuit affirmed the
PTAB’s decisions that the Sourcefire Manual was
publicly accessible, and therefore qualified as printed
publication prior art. See App. 20a; App. 39a.
REASONS FOR GRANTING THE PETITION
This Court should grant this Petition in order
to resolve the Federal Circuit’s inconsistent
application of the requirement that printed
publication prior art be generally accessible by the
public. The general accessibility requirement serves
the important policy objective of promoting disclosure,
which is a basic tenet of the patent system. And the
Federal Circuit’s effective abrogation of that
requirement contravenes decades of precedent and is
inconsistent with the decisions of other panels within
the Federal Circuit and of its predecessor courts.

8
I.

Requiring that Documents are Reasonably
Accessible to the Public to be Considered
Printed Publications Serves Congress’s intent.

This Court in Kewanee Oil Co. v. Bicron Corp.,
416 U.S. 470 (1974) reviewed the purposes of the
patent system. 416 U.S. at 480-81. The Kewanee Oil
Court articulated that the patent system is designed
to: (1) foster and reward innovation; (2) promote
disclosure of inventions such to advance further
innovation for the public benefit; and (3) assure that
ideas already in the public domain remain there for
use of the public. Id.
The Federal Circuit’s Decisions therefore
undermines a basic policy underlying the Patent Act
by qualifying a document unavailable to the public as
printed publication prior art. Doing so controverts the
patent system’s goal of “bring[ing] new designs and
technologies into the public domain through
disclosure[,]” by allowing a document made available
to only a select few to be used to negate patent rights
granted based on inventors’ enrichment of the public
commons through disclosures in patent applications.
Bonito Boats, Inc. v. Thunder Craft Boats, Inc., 489
U.S. 141, 151 (1989).
The philosophical underpinnings for the patent
grant and the “printed publication” rule is seen in
Justice Roberts’ opinion in United States v. Dubilier
Condenser Corp., 289 U.S. 178 (1933):

An inventor deprives the public of
nothing which it enjoyed before his
discovery, but gives something of
value to the community by adding
to the sum of human knowledge. He

9
may keep his invention secret and
reap its fruits indefinitely. In
consideration of its disclosure and
the consequent benefit to the
community, the patent is granted.
An
exclusive
enjoyment
is
guaranteed
him
for seventeen
years, but, upon the expiration of
that period, the knowledge of the

invention inures to the people, who
are thus enabled without restriction
to practice it and profit by its use.

289 U.S. at 186-87 (emphasis added) (citations
omitted).
The “printed publication” rule follows logically
from the principle that the granting of a patent serves
to add to the sum of public knowledge and advance
innovation, not to remove existing knowledge from the
public domain. See, e.g., Graham v. John Deere Co.,
383 U.S. 1, 6 (1966); see also, e.g., Oil States Energy
Servs., LLC v. Greene’s Energy Grp., LLC, 138 S. Ct.
1365, 1374 (2018) (citing Graham, 138 U.S. at 6)).
This principle strikes a balance between the granting
of a patent and existing public knowledge, as a patent
confers upon the public only new and useful
discoveries and innovations that the public can use as
the building blocks for further advancements.
Accordingly, the “printed publication” rule ensures
that the public is not deprived of any existing
knowledge.
Since the first appearance of the term “printed
publication” in the Patent Act of 1836, it has been
understood that a printed publication must be

10
“intended and employed for the communication of
ideas to persons in general” and “actually published in
such a manner that any one who chooses may avail
himself of the information it contains.” 1 William C.
Robinson, The Law of Patents for Useful Inventions,
§§ 326-327 (1890); id. at § 325; see also I.C.E. Corp. v.
Armco Steel Corp., 250 F. Supp 738, 740-41 (S.D.N.Y.
1966). In other words, the accessibility of knowledge
is required for a document to qualify as a printed
publication. 1 William C. Robinson, The Law of
Patents for Useful Inventions, § 327 (1890).
With the enactment of the America Invents Act
(“AIA”) in 2011, Senator Kyl echoed the same
understanding when explaining that a document is
publicly accessible if “persons interested and
ordinarily skilled in the subject matter or art,
exercising reasonable diligence, can locate it and
recognize and comprehend therefrom the essentials of
the claimed invention . . . .” 157 Cong. Rec S 1370
(daily ed. March 8, 2011) (statement of Sen. Kyl)
(emphasis added) (citations omitted). As Senator Kyl
emphasized, the accessibility of a document depends
on whether interested members of the relevant public
could obtain the information if they wanted to. Id.
(citing Cordis Corp. v. Boston Scientific Corp., 561
F.3d 1319, 1333 (Fed. Cir. 2009)).
Consistent with this policy, for decades, the
courts have interpreted “printed publication” to
require availability to the interested public. In the
seminal case In re Tenney, 254 F.2d 619 (C.C.P.A.
1958), the United States Court of Customs and Patent
Appeals (“CCPA”) recognized the significance of the
patent grant and how the “printed publication” rule is

11
meant to foster, not hinder, advancements in
innovation. 254 F.2d at 623-24.
The Tenney court articulated that the
foundation of “printed publication” rule rests on the
contract between the public and the inventor, as the
public grants a patent in exchange for the access to
the knowledge offered by the inventor that otherwise
did not exist within the public domain. Id. at 624; see
also Pickering v. Holman, 459 F.2d 403, 407 (9th Cir.
1972) (citing Dubilier Condenser Corp., 289 U.S. at
186). In other words, “in consideration for the patent
grant, something must be given to the public which it
did not have before . . . . [i]f the public is already
possessed of that ‘something,’ or if it is accessible to
the public, there is failure. . . .” In re Tenney, 254 F.2d
at 624.
The CCPA’s precedent is predicated upon the
proposition that for “something” (e.g., knowledge
within a document) to be accessible to the public, and
therefore qualify as a publicly accessible printed
publication under the statute, it must have been made
publicly accessible through “a medium capable of
providing wide public access, . . . not commercial
exploitation.” Pickering, 459 F.2d at 407 (citing In re
Tenney, 254 F.2d at 626).
Similarly, the Seventh Circuit in Popeil
Brothers, Inc. v. Schick Electric, Inc., 494 F.2d 162
(7th Cir. 1974), articulated that to “constitute a
printed publication for purposes of the publication
bar, all that is required is that the document in
question be printed and disseminated as to provide
wide public access to it.” 494 F.2d at 166 (citations
omitted); see also Deep Welding, Inc. v. Sciaky Bros.,

12

Inc., 417 F.2d 1227, 1235 (7th Cir. 1969) (“a more

widely circulated printed item is clearly to be
preferred as a printed publication evidence prior art”).

Other panels within the Federal Circuit have
enforced the printed publication standard.
For
example, in Constant, the Federal Circuit explained
that “[a]ccessibility goes to the issue of whether
interested members of the relevant public could
obtain the information if they wanted to.” Constant v.
Advanced Micro-Devices, Inc., 848 F.2d 1560, 1569
(Fed. Cir. 1988) (emphasis added).
In a dissent, Judge Newman decried the
Federal Circuit’s erosion of the printed publication’s
availability requirement and highlighted its
departure from the “printed publication” precedent of
“reasonably accessible through generally available
media that serve to disseminate information.”
Bruckelmyer v. Ground Heaters, Inc., 453 F.3d 1352,
1355 (Fed. Cir. 2006) (Newman, J., dissenting) (citing
In re Klopfenstein, 380 F.3d 1345, 1348 (Fed. Cir.
2004) (for a document to qualify as a printed
publication it must be “sufficiently accessible to the
public interested in the art”); see also In re Cronyn,
890 F.2d 1158, 1160-61 (Fed. Cir. 1989) (a document
to qualify as a printed publication must be sufficiently
available to make it reasonably accessible to the
public); In re Hall, 781 F.2d 897, 899 (Fed. Cir. 1986)
(a document must be sufficiently accessible “at least
to the public interested in the art, so that such a one
by examining the reference could make the claimed
invention.”).

13
II.

The Federal Circuit’s Erroneous Decisions Run
Afoul of Decades of Precedent and the Purpose
of the Patent System.

As established above, various courts and panels
within the Federal Circuit have interpreted printed
publication as limited to documents reasonably
accessible through a medium that serves to
disseminate information.
The Federal Circuit’s
Decisions at issue affirming the Sourcefire Manual as
a printed publication is a split from this precedent.
The Sourcefire Manual was not publicly accessible
and a member of the public researching the then-state
of the art in cyber security would have no way to know
what it disclosed and no basis to spend $25,000 to
obtain a copy. See § IIB, supra. Thus, the Sourcefire
Manual is not a printed publication in the sense that
Congress intended.
Congress enacted the patent system to give
effect to the Constitution’s purpose to promote the
progress of science the useful arts for the benefit of the
public. See U.S. CONST. art. 1, § 8. The patent
system incentivizes inventors to publicly disclose
innovations that advantage the public—that is, add to
the sum of public knowledge—in exchange for the
granting of a patent. See Dubilier Condenser Corp.,
289 U.S. at 186. As it has long been recognized that
the public grants a patent to an inventor for new and
useful discoveries that the public did not previously
have knowledge of. See id.; see also Butterworth v.
United States ex rel. Hoe, 112 U.S. 50, 59 (1884).

14
The panel ignores the constitutional purpose of
the patent system. The Decisions here allow for an
entity to shield a document from interested members
of the relevant public given its high price point (which,
effectively keeps it as secret work), but still use the
document to defeat a patent. Importantly, Congress
enacted the AIA to rid the patent system of this
misconduct of withholding information from the
public domain, and yet using it as prior art to
invalidate patents. Cf. 157 Cong. Rec S 1497 (daily
ed. March 9, 2011) (Senator Leahy explaining that
part of the intent of the AIA was to rid the patent
system of “private uses or secret processes” which are
purposefully withheld from the public domain and
then unveiled to be used as patent defeating prior
art.); see also I.C.E. Corp., 250 F. Supp at 741
(explaining that the term “‘public work’ was replaced
by or merged into the term ‘printed publication’” and
by this judicial construction “the word ‘public’ in this
context has been construed to mean ‘not secret.’”).
The Federal Circuit’s Decisions thus turn the
Constitution’s purpose of the patent system on its
head, as they stifle the advancement of innovation and
encourage companies to withhold their inventions and
documents. See Kewanee Oil Co., 416 U.S. at 480-81.
This is the antithesis of the patent system and its
“ultimate goal . . . to bring new designs and
technologies into the public domain.” Bonito, 489 U.S.
at 151.
Thus, this case presents an ideal vessel for this
Court to reconfirm that “printed publications” that are
being asserted as prior art must be publicly accessible,
and ensure that the rule is applied consistent with

15
decades of precedent and the purposes of the patent
system.
CONCLUSION
For all the foregoing reasons, the Court should
grant the petition for writ of certiorari.

August 9, 2021

Respectfully submitted,
Paul J. Andre

Counsel of Record

Lisa Kobialka
James Hannah
Kramer Levin Naftalis
& Frankel LLP
990 Marsh Road
Menlo Park, CA 94025
(650) 752-1700
pandre@kramerlevin.com
lkobialka@kramerlevin.com
jhannah@kramerlevin.com

Attorneys for Petitioner
Centripetal Networks, Inc.

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE
FEDERAL CIRCUIT, CASE NOS. 2020-1635,
2020-1636, FILED MARCH 10, 2021
United States Court of Appeals
for the Federal Circuit
2020-1635, 2020-1636
CENTRIPETAL NETWORKS, INC.,
Appellant,
v.
CISCO SYSTEMS, INC.,
Appellee.
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201801436, IPR2018-01437.
March 10, 2021, Decided
James R. Hannah, Kramer Levin Naftalis & Frankel
LLP, Menlo Park, CA, for appellant. Also represented by
Paul J. A ndre; Jeffrey Price, New York, NY.
Patrick D. Mcpherson, Duane Morris LLP, Washington, DC, for appellee. Also represented by Christopher
Joseph T yson; M atthew Christopher Gaudet, Atlanta,
GA; Joseph Powers, Philadelphia, PA.

2a
Appendix A
Before MOORE, SCHALL, and TARANTO, Circuit
Judges.
Taranto, Circuit Judge.
Centripetal Networks, Inc. owns U.S. Patent Nos.
9,124,552 and 9,160,713, which address cybersecurity
techniques for filtering encrypted packets passing
between a secured and an unsecured network. In July
2018, Cisco Systems, Inc. filed petitions for inter partes
reviews of the ’552 and ’713 patents. For all claims of
both patents, Cisco asserted unpatentability under 35
U.S.C. § 103 for obviousness based on a user manual for
an earlier security system—a manual that Cisco asserted
was a prior-art “printed publication.” 35 U.S.C. § 311(b).
The Patent Trial and Appeal Board instituted both
requested inter partes reviews and, in its final written
decisions, agreed with Cisco about the printed-publication
status of the user manual and about unpatentability of
all claims. Cisco Systems, Inc. v. Centripetal Networks,
Inc., IPR2018-01436, 2020 WL 402817 (P.T.A.B. Jan. 23,
2020) (’552 Decision); Cisco Systems, Inc. v. Centripetal
Networks, Inc., IPR2018-01437, 2020 WL 402317 (P.T.A.B.
Jan. 23, 2020) (’713 Decision). We affirm.
I
A
The patents address aspects of the now-common
process of sending messages across networks, specifically
across the Internet, using protocols that split up a

3a
Appendix A
message’s content into packets for transmission. J.A. 6682
¶ 47; J.A. 6823. When packets arrive at their destination,
they are assembled to recreate the original message.
See J.A. 2064. Two common preexisting protocols, which
allow encryption of the transmitted data, are relevant
here: Hypertext Transfer Protocol Secure (HTTPS) and
Transport Layer Security (TLS). See ’552 patent, col. 7,
lines 53-60.
Because the ’713 patent issued from a continuation of
the application that issued as the ’552 patent, the patents
share a specification, and when citing that specification,
we will generally cite only the ’552 patent. The patents
are concerned with “filtering network data transfers” and
the passage of information between a secured network
(e.g., a private company’s network) and an unsecured
network (e.g., the larger Internet). ’552 patent, Abstract;
’713 patent, Abstract; see also ’552 patent, col. 1, lines 6264. The specification focuses, in particular, on preventing
a type of cyberattack known as an “exfiltration,” which
involves stealing information (extracting it without
authorization) as it exits a secure network, using “popular
network data transfer protocols” to disguise the theft “as
normal network behavior.” Id., col. 1, lines 15-23. Previous
cybersecurity systems, the patents say, inadequately
protected against such attacks because they tended to
interpret the exfiltration as ordinary network behavior
and did not account for vulnerabilities in the conventional
version of TLS, i.e., TLS version 1.0. Id., col. 1, lines 23-25;
id., col. 6, lines 40-47.

4a
Appendix A
The patents describe a solution in which packets
entering or exiting a secure network are first received at
a packet secure gateway, which may include “one or more
computing devices configured to receive packets.” Id.,
col. 3, lines 42-44. The gateway also receives a “dynamic
security policy” from a “security policy management
server,” id., col. 4, lines 53-55, which provides the
“packet filter” in the gateway with “one or more rules” to
determine where (to which “operators”) packets “having
specified information” should be sent, id., col. 5, lines
6-16. The specified information gathered from a packet
may include a “five-tuple,” which may comprise “one
or more values selected from”: the protocol type of the
packet, the Internet Protocol (IP) address of the source
of the packet, “one or more source port values,” the IP
address(es) of the destination(s) of the packet, and “one
or more destination ports.” Id., col. 5, lines 34-42. Based
on the information collected from the packet, the gateway
system “determines” which operator to direct the packet
to, id., col. 5, lines 9-16, and the operator then applies one
or more filtering rules to the packet to “allow” or “block”
the packet, see, e.g., id. col. 5, lines 62-67; id. col. 6, lines
11-16. For example, a rule may require that a packet use
“version 1.1 or 1.2 of the Transport Layer Security (TLS)
protocol” in order to be allowed to continue, because “the
popular TLS version 1.0 protocol has a known security
vulnerability that attackers may exploit to decrypt
HTTPS sessions.” Id., col. 6, lines 27-47.
Independent claim 1 of the ’552 patent recites:
1. A method, comprising:

5a
Appendix A
at a computing device comprising at least one
processor, a memory, and a communication
interface:
receiving, via the communication
interface, a plurality of hypertext
transfer protocol secure (HTTPS)
packets;
responsive to a determination by
the at least one processor that at
least a portion of the plurality of
HTTPS packets have packet-headerf ield values cor responding to a
packet filtering rule stored in the
memory, applying, by the at least
one processor, an operator specified
by the packetfiltering rule to the
at least a portion of the plurality of
HTTPS packets, wherein the operator
specifies one or more applicationheader-field-value criteria identifying
one or more transport layer security
(TLS)-version values for which packets
should be blocked from continuing
toward their respective destinations;
and
responsive to a determination by the
at least one processor that one or more
packets, of the at least a portion of

6a
Appendix A
the plurality of HTTPS packets, have
one or more application-header-field
values corresponding to one or more
TLS-version values of the one or more
TLS-version values for which packets
should be blocked from continuing
toward their respective destinations,
applying, by the at least one processor,
at least one packet-transformation
function specified by the operator to
the one or more packets to block each
packet of the one or more packets
from continuing toward its respective
destination.
Id., col. 11, lines 5-35. Claims 8 and 15 are the only other
independent claims in the ’552 patent. Claim 8 claims an
“apparatus” that performs the claim 1 method and claim
15 claims “non-transitory computer-readable media”
containing instructions that, when executed, perform
the claim 1 method. Id., col. 12, line 54 through col. 13,
line 15; id. col. 13, lines 39-67. No additional limitations
in the dependent claims of the ’552 patent are relevant to
Centripetal’s appeal.
Claim 1 of the ’713 patent recites:
1. A method comprising:
receiving, by a computing system provisioned
with a plurality of packet-filtering rules, a first
packet and a second packet;

7a
Appendix A
responsive to a determination by the computing
system that the first packet comprises data
corresponding to a transport layer security
(TLS)-version value for which one or more
packet-filtering rules of the plurality of packetfiltering rules indicate packets should be
forwarded toward their respective destinations,
forwarding, by the computing system, the first
packet toward its destination; and
responsive to a determination by the computing
system that the second packet comprises data
corresponding to a TLS-version value for which
the one or more packet-filtering rules indicate
packets should be blocked from continuing
toward their respective destinations, dropping,
by the computer system, the second packet.
’713 patent, col. 11, lines 8-25. Independent claims 8 and
15 of the ’713 patent are substantially similar to claim 1;
for present purposes, they are system and non-transitory
computer-readable media forms of method claim 1. See id.,
col. 12, lines 29-47; id., col. 13, lines 44-61.
B
In July 2018, Cisco filed petitions for inter partes
reviews of all claims (claims 1-21) of the ’552 patent and
all claims (claims 1-20) of the ’713 patent. Cisco argued
that the claimed inventions of all claims would have been
obvious to a relevant artisan in view of the User Guide for
the Sourcefire 3D System—a manual referred to in the
matters before us as “Sourcefire.”

8a
Appendix A
Sourcefire describes a system that monitors network
activity with packet-filtering devices called “3D-Sensors”
that record network activity and identify (and call
attention to) “intrusion events” based on an “intrusion
policy applied to a detection engine on the sensor that is
monitoring a specific network segment.” J.A. 1460, 1683.
In this system, packets traveling through the network pass
through three layers that decode them, J.A. 1683, 1685,
then pass through preprocessors that “normalize traffic
at the application layer and detect protocol anomalies,”
J.A. 1685, and finally arrive at a “rules engine” that
“inspects the packet headers” and “determine[s] whether
they trigger any of the shared object rules or standard
text rules,” J.A. 1685-86. At any of these steps, a packet
could cause the system “to generate an event, which is
an indication that the packet or its contents” may be a
security risk. J.A. 1687.
When packets arrive at Sourcefire’s rules engine,
the engine determines whether values in the packet
header trigger one or more “intrusion rules.” J.A.
1686, 1940, 2188. Intrusion rules may have two parts:
(1) the rule header, which includes the five-tuple values
(protocol, source and destination IP addresses, source and
destination ports), the rule’s action (e.g., drop, alert and
allow, ignore and allow), and direction indicators; and (2)
the rule options part, which contains, e.g., keywords and
their arguments and event messages. J.A. 2189; see also
J.A. 2188-96. Keywords in intrusion rules can be used
by the preprocessor (called the Secure Sockets Layer
(SSL) preprocessor) and by the rules engine to filter

9a
Appendix A
packets according to their encryption protocol version (for
example, their TLS version). J.A. 2252. Sourcefire permits
users to write their own custom intrusion rules, J.A.
2188-96, so a user could use a keyword like “ssl_version”
in an intrusion rule to cause the SSL preprocessor to
match the protocol version information contained in the
application headers of the packets against the protocol
of the assembled packets for an encrypted session (a
reassembled stream of messages known as a handshake),
J.A. 2254-55; see also J.A. 1918, 2024-28, 2127.
In its petitions for inter partes reviews, Cisco argued
that the claims of the ’552 and ’713 patents recite subject
matter that would have been obvious in view of Sourcefire
because Sourcefire describes a cybersecurity system that
can be configured to meet every limitation in the claims.
’552 Decision, 2020 WL 402817, at *8; ’713 Decision, 2020
WL 402317, at *6-7. Specifically, Cisco relied on Sourcefire
as disclosing, to a relevant artisan, the idea of writing
custom intrusion rules that would permit the Sourcefire
system to determine the TLS-version values of the packets
it received based on keywords and to use the rules engine
as an operator to apply packet-filtering rules based on
those determinations. ’552 Decision, 2020 WL 402817, at
*15-16; ’713 Decision, 2020 WL 402317, at *6-7.
After the Board instituted the requested inter partes
reviews, Centripetal argued that Sourcefire was not a
“printed publication” at the priority date for the patents
at issue, see 35 U.S.C. § 102(a)(1); 35 U.S.C. § 102(b) (2006),
as required for non-patent prior art in IPRs under 35
U.S.C. § 311(b). J.A. 434-38; see also ’713 Decision, 2020

10a
Appendix A
WL 402317, at *3.1 Centripetal contended that Sourcefire
(the document) was costly and was distributed only to
those who bought certain products from Sourcefire (the
company) and, therefore, the document was not publicly
accessible because a relevant artisan could not have
obtained it with reasonable diligence. J.A. 434-38.
In IPR-1436 (addressing the ’552 patent), Centripetal
did not dispute that Sourcefire teaches a processor,
memory, and communication interface; nor did it dispute
that Sourcefire teaches “receiving, via the communication
interface a plurality of [HTTPS] packets.” ’552 Decision,
2020 WL 402817, at *14-15. Centripetal argued, however,
that Sourcefire does not teach the “determination”
limitations of the claims, specifically the requirements of
(1) a “determination” that a plurality of HTTPS packets
“have packet-header-field values corresponding to a
packet-filtering rule” and (2) a “determination” that some
of those packets “have one or more application-headerfield values corresponding to one or more TLS-version
values.” See J.A. 456, 458. According to Centripetal,
Sourcefire teaches extracting version information from
a reassembled stream of packets (“handshake and key
exchange messages,” J.A. 2025), whereas the claims
require a determination of version information to be made
for individual packets. J.A. 461-62.
1. The version of 35 U.S.C. § 102 pre-dating the amendments
made in 2011 (effective March 16, 2013) applies in both of these
matters, given that the application that issued as the ’552 patent
was filed March 12, 2013, and the ’713 patent is the child of the ’552
patent. See ’552 Decision, 2020 WL 402817, at *4 n.1. The current
version of § 102 continues to use the phrase “printed publication.”

11a
Appendix A
Centripetal alleged an additional deficiency in
Sourcefire’s teaching of the claim limitations. It contended
that Sourcefire does not teach the claimed “operator,”
because the claims require that the operator specify both
“application-header-field-value criteria” and “a packet
transformation function,” and the Sourcefire system is
“not capable of designing a packet-filtering rule specifying
an operator that applies different packet transformation
functions based on different application-layer-packetheader criteria.” J.A. 471-73. Centripetal further argued
that Cisco had not shown that a relevant artisan would
have been motivated to modify the teachings of Sourcefire
to arrive at the claims. J.A. 481. And Centripetal advanced
what it urged were objective indicia of nonobviousness,
including praise for its product addressing TLS
vulnerabilities. J.A. 494-95.
In IPR-1437 (addressing the ’713 patent), Centripetal
made similar arguments. See J.A. 7394-99, 7403-06.
C
In IPR-1436, the Board first determined that Cisco
had met its burden to show that Sourcefire was a printed
publication. ’552 Decision, 2020 WL 402817, at *8-12.
Specifically, the Board found that Sourcefire, a user guide,
was publicly accessible in that it was available to purchasers
of Sourcefire 3D Systems and was, in fact, distributed on
CD-ROM to 586 system purchasers between April 2011
and March 2013, id. at *9-10; no confidentiality restrictions
prevented purchasers from reproducing and distributing

12a
Appendix A
the document “for non-commercial use,” id. at *10 (citing
J.A. 1429); and Sourcefire advertised its products and
their accompaniment by extensive documentation, id.
at *11; J.A. 4695-99. The Board rejected Centripetal’s
argument that the cost of obtaining Sourcefire (the
document) was prohibitive; the Board found that it could
be acquired by purchasing products that cost between
$1,385 and £25,000, that 586 customers actually acquired
it, and that Centripetal had not shown that an interested
relevant artisan was not reasonably able to obtain the
material. Id. at *12 & n.9.
After determining that Sourcefire qualified as prior
art, the Board addressed the disputed limitations in
claim 1 (and claims 8 and 15). Id. at *14-22. Regarding
the determination limitations, the Board explained that
nothing in the claims requires that each individual packet
be inspected or that TLS (or SSL) version information be
extracted from application-header-values of individual
packets, rather than a reassembled stream (handshake
message). Id. at *17. Reassembled streams of messages,
the Board continued, themselves consist of individual
packets, and a relevant artisan would have known that the
TLS-version information is always contained in the packet
header of the first packet in the message, as Centripetal
acknowledged. Id. at *18. Accordingly, the Board found
that a relevant artisan would have understood Sourcefire,
even in describing the extraction of version information
from the reassembled message, as teaching the claim
requirement of extraction from the first packet. Id. at
*18-19.

13a
Appendix A
Regarding the claimed “operator,” the Board adopted
Centripetal’s claim construction, construing the term to
refer to “a function specified by a packet-filtering rule that
specifies one or more application-header-field criteria and
a packet transformation to apply to the packet for each of
the application-header-field criteria.” Id. at *5-6. Applying
that construction, the Board found that Sourcefire’s
keyword and argument functions (in particular, ssl_
version keywords) permitted the system to (1) indicate
application-header-field-value criteria (e.g., the version
of TLS) and (2) apply a “packet transformation function,”
e.g., blocking the packets, as specified by the claims. Id.
at *19. The Board also rejected Centripetal’s argument
that Sourcefire could not teach an operator because the
“rule action” was specified in the “rule header,” so that
Sourcefire could apply only “one rule action” per rule (e.g.,
could only allow certain packets, rather than allow and
block some). Id. at *20. The Board found that Centripetal
had presented no evidence to support this argument and
that Cisco had shown support in Sourcefire for using
different ssl_version keywords to “allow,” “pass,” or “drop”
packets. Id.
Finally, the Board found that Cisco had met its
burden to show that a relevant artisan would have been
motivated to modify Sourcefire to meet the ’552 patent’s
claim limitations. Id. at *21-22. Citing the declaration
from Cisco’s expert (Dr. Staniford), the Board found that
the known vulnerabilities of early versions of protocols
like TLS, along with the ordinary creativity of a relevant
artisan, would be sufficient to motivate that artisan to
use Sourcefire to write rules blocking packets with a
vulnerability like that of TLS 1.0. Id. The Board also found

14a
Appendix A
that Centripetal’s objective indicia of nonobviousness—
particularly the praise for its RuleGATE product—were
not entitled to much weight, noting the lack of a persuasive
basis for finding the nexus of cited objective indicia to the
claims of the ’552 patent. Id. at *22-24. The Board then
addressed the additional limitations in the remaining
dependent claims and found obviousness as to those claims
as well. Id. at *24-26.
In IPR-1437, the Board’s finding and reasoning were
similar to those in IPR-1436. See ’713 Decision, 2020 WL
402317, at *3-13.
The Board issued its final written decisions as to both
IPR-1436 and IPR-1437 on January 23, 2020. Centripetal
timely appealed both decisions. We have jurisdiction under
28 U.S.C. § 1295(a)(4)(A) and 35 U.S.C. §§ 141(c), 319.
II
We review the Board’s final written decisions
under the Administrative Procedure Act, “hold[ing]
unlawful and set[ting] aside agency action, findings, and
conclusions found to be . . . arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law . . .
[or] unsupported by substantial evidence.” 5 U.S.C. § 706;
Dickinson v. Zurko, 527 U.S. 150, 164-65, 119 S. Ct. 1816,
144 L. Ed. 2d 143 (1999). We review the Board’s legal
conclusions de novo and factual findings for substantial
evidence. Nobel Biocare Services AG v. Instradent USA,
Inc., 903 F.3d 1365, 1374 (Fed. Cir. 2018). Whether a
reference qualifies as a “printed publication” is a legal
conclusion based on factual findings. Jazz Pharms., Inc.

15a
Appendix A
v. Amneal Pharms., LLC, 895 F.3d 1347, 1356 (Fed. Cir.
2018). “The underlying factual findings [in a printedpublication analysis] include whether a reference was
publicly accessible.” Nobel, 903 F.3d at 1375. Similarly,
the ultimate determination of whether a claimed invention
would have been obvious is a legal one reviewed de novo,
but underlying factual determinations are reviewed for
substantial-evidence support. PersonalWeb Techs., LLC
v. Apple, Inc., 917 F.3d 1376, 1381 (Fed. Cir. 2019).
On appeal, Centripetal argues that: (1) the Board erred
by concluding that Sourcefire is a printed publication, see
Centripetal Opening Br. 15-21; (2) Sourcefire does not
teach a “determination” that a packet includes a specified
TLS-version value, id. at 21-24; (3) Cisco did not show a
motivation to modify Sourcefire and the Board overlooked
important objective indicia of nonobviousness, id. at 24-31;
and (4) Sourcefire does not disclose the operator described
in the ’552 patent, id. at 31-34. 2 We reject these challenges.
A
Centripetal first contends that Sourcefire was not a
printed publication because it was available only to those
willing to pay $25,000 for the accompanying product and
was kept password-protected on Sourcefire’s website,
preventing access to the relevant public. Centripetal
Opening Br. 15-16. We reject this argument.
2. In making their respective arguments on appeal, the parties
do not distinguish between the Board’s decisions in IPR-1436 and
IPR-1437, except where relevant. Centripetal Opening Br. 3; Cisco
Response Br. 6 n.1. We consider the decisions together unless
otherwise noted.

16a
Appendix A
Whether a reference is a printed publication “involves
a case-by-case inquiry into the facts and circumstances
surrounding the reference’s disclosure to members of the
public.” In re Klopfenstein, 380 F.3d 1345, 1350 (Fed. Cir.
2004). “Because there are many ways in which a reference
may be disseminated to the interested public, public
accessibility has been called the touchstone in determining
whether a reference constitutes a printed publication.”
Blue Calypso, LLC v. Groupon, Inc., 815 F.3d 1331,
1348 (Fed. Cir. 2016) (cleaned up). For a reference to be
publicly accessible, it must be “‘disseminated or otherwise
made available to the extent that persons interested and
ordinarily skilled in the subject matter or art, exercising
reasonable diligence, can locate it.’” Acceleration Bay,
LLC v. Activision Blizzard Inc., 908 F.3d 765, 772 (Fed.
Cir. 2018) (quoting Jazz Pharms., 895 F.3d at 1355-56);
see also Kyocera Wireless Corp. v. Int’l Trade Comm’n,
545 F.3d 1340, 1350 (Fed. Cir. 2008). A reference need
not be catalogued or indexed to be a printed publication;
“a printed publication need not be easily searchable after
publication if it was sufficiently disseminated at the time
of its publication.” Suffolk Techs., LLC v. AOL Inc., 752
F.3d 1358, 1365 (Fed. Cir. 2014); see also In re Lister, 583
F.3d 1307, 1312 (Fed. Cir. 2009); Klopfenstein, 380 F.3d
at 1348. Limited distributions of a reference may suffice.
Samsung Elecs. Co. v. Infobridge Pte. Ltd., 929 F.3d 1363,
1374 (Fed. Cir. 2019). In determining whether interested
persons could have accessed the publication, we consider
factors such as the expertise of the target audience, the
avenues of distribution (e.g., at a trade show), the duration
of dissemination, and expectations of confidentiality or
restrictions on recipients’ sharing of the information.

17a
Appendix A
GoPro, Inc. v. Contour IP Holding LLC, 908 F.3d 690,
694-95 (Fed. Cir. 2018). 3
Here, the Board found, based on testimony from
a Sourcefire company employee, that each of the 586
customers who purchased a range of Sourcefire products
over a relevant two-year period received a CD-ROM
containing the user guide, which explicitly stated that
users were permitted to “use, print out, save on a retrieval
system, and otherwise copy and distribute” the reference
for noncommercial use. ’552 Decision; 2020 WL 402817,
3. See, e.g., GoPro, 908 F.3d at 694-95 (catalog distributed at a
trade show that was only open to “dealers” of action sports vehicles
and related accessories was a printed publication because there
were no restrictions on the catalog’s distribution, there were over
1,000 attendees, and there was no evidence that one interested in
the art of digital cameras could not have obtained the catalog with
reasonable diligence); Jazz Pharms., 895 F.3d at 1357-59 (Affordable
Care Act materials available on the FDA’s website and published
via constructive notice in the Federal Register were printed
publications because the materials were “widely disseminated to
persons of ordinary skill for a substantial time with no reasonable
expectation of confidentiality”); Klopfenstein, 380 F.3d at 1350
(slideshow displayed at a conference for three days was a printed
publication because the slide was displayed for a matter of days, the
attendees included interested persons of skill in the art, there was
no reasonable expectation that the slide would not be copied, and the
slide could be copied with relative simplicity); Massachusetts Inst.
of Tech. v. AB Fortia (MIT), 774 F.2d 1104, 1108-09 (Fed. Cir. 1985)
(paper orally presented at a conference and distributed to only six
persons who requested the paper was a printed publication, because
“between 50 and 500 persons interested and of ordinary skill in the
subject matter were told of the existence of the paper . . . and the
document itself was actually disseminated without restriction to at
least six persons”).

18a
Appendix A
at *9-10 (citing J.A. 1429); ’713 Decision, 2020 WL
402317, at *4 (same). Further, Centripetal presented no
evidence to the Board showing that—despite the CDROM distribution—an interested person using reasonable
diligence would not have been able to access Sourcefire
either by purchasing the product or by receiving a copy of
the user guide from another customer. See ’552 Decision,
2020 WL 402817, at *10. Substantial evidence, including
advertisements, reviews, and testimony from a Sourcefire
company employee, supports the Board’s finding that
those interested and of skill in the art actually purchased
Sourcefire. Id. at *11; see also J.A. 822. In sum, the large
number of Sourcefire product customers, the number
of years the product was available, the advertisements
targeting those interested and of skill in the art, and
the lack of confidentiality restrictions on copying or
distributing Sourcefire support a finding of public
accessibility. See GoPro, 908 F.3d at 694.
The Board properly rejected Centripetal’s argument
that In re Bayer, 568 F.2d 1357 (CCPA 1978), and
Medtronic, Inc. v. Barry, 891 F.3d 1368 (Fed. Cir. 2018),
require a different result. ’552 Decision, 2020 WL 402817,
at *11-12. In Bayer, we held that actual dissemination of a
student’s thesis to members of a graduate committee did
not render the thesis publicly accessible. 568 F.2d at 136162. We recently explained in Samsung that the student’s
thesis in Bayer was not publicly accessible because “the
only people who kn[e]w how to find it [were] the ones
who created it,” and thus it could not be obtained with
reasonable diligence by those interested and of skill in
the art. Samsung, 929 F.3d at 1371-72. Here, in contrast,

19a
Appendix A
Sourcefire was publicly advertised and obtained by at
least 586 customers.
In Medtronic, a video relating to spinal surgery was
distributed at three separate meetings (two for surgeons,
one for a private organization), and slides were distributed
at two of the meetings. 891 F.3d at 1379. After the Board
found lack of public accessibility of either the video or the
slides, without distinguishing between the open and the
closed meetings, or whether there was an expectation of
confidentiality, we vacated and remanded. Id. at 1382-83.
We instructed the Board to consider the “size and nature
of the meetings,” as well as whether an “expectation of
confidentiality” existed, noting that these are “important
considerations” in assessing public accessibility. Id. at
1382. In this case, the Board did exactly that. Far from
finding Sourcefire to be a printed publication merely
because the CD-ROMs were actually distributed to
customers, the Board considered the size and nature
of the group receiving the CD-ROMs and the absence
of confidentiality restrictions. ’552 Decision, 2020 WL
402817, at *10-12.
Contrary to Centripetal’s contention, the Board’s
conclusion regarding public accessibility is not undermined
by the fact that, unlike some of the cases, this case does
not involve “free distribution of academic documents
to conference and meeting attendees whose express
purpose for attending the conference was to hear lectures
regarding those same documents.” Centripetal Opening
Br. 18-19 (cleaned up). Public accessibility is not limited
to circumstances of free or academic distributions;

20a
Appendix A
“commercial distribution” can qualify. Garrett Corp.
v. United States, 422 F.2d 874, 877-78, 190 Ct. Cl. 858
(Ct. Cl. 1970) (distribution of 80 copies of a government
report, including 6 to commercial companies, constituted
a printed publication because the report was “unclassified
and unrestricted in its use”). The Board also reasonably
found that Centripetal had not shown the cost of
Sourcefire—which it found ranged from $1,385 to £25,000,
’552 Decision, 2020 WL 402817, at *12 n.9; see also J.A.
4695, 4700—to be prohibitive to those interested and
of skill in the art, given, e.g., the evidence that at least
586 customers, at least some of them relevant artisans,
purchased the product, ’552 Decision, 2020 WL 402817,
at *12; ’713 Decision, 2020 WL 402317, at *5.
On this record, we agree with the Board that
Sourcefire was publicly accessible and therefore qualifies
as a printed publication.
B
We reject Centripetal’s challenges to the Board’s
obviousness determination.
1
The Board found that Sourcefire teaches what is
required by the determination claims. Centripetal argues
otherwise by pointing to language in Sourcefire stating
that the preprocessor “collects and reassembles all the
packets” and inspects the stream as a “single, reassembled
entity” rather than as “individual packets.” J.A. 2064-65;

21a
Appendix A
see also Centripetal Opening Br. 22. This argument does
not undermine the Board’s finding.
As the Board reasoned, how Sourcefire obtains TLSversion values is irrelevant to the claims’ scope. ’552
Decision, 2020 WL 402817, at *17-18, ’713 Decision, 2020
WL 402317, at *8. The claims in the ’552 and ’713 patents
do not require that each individual packet is inspected
for the TLS-version value, but only that a determination
is made as to what that value is. See ’552 patent, col. 11,
lines 5-35 (claims require “a determination . . . that one
or more packets, of the at least a portion of the plurality
of HTTPS packets, have one or more application-headerfield-values corresponding to one or more TLS-version
values”); ’713 patent, col. 11, lines 8-25 (claims require
“a determination . . . that [a packet received first or a
packet received second] comprises data corresponding to
a transport layer security TLS-version value”).
Further, Centripetal’s expert, Dr. Orso, acknowledged
that the TLS-version value in a reassembled handshake
is virtually always identical to the value for the individual
packets associated with that handshake. J.A. 4647-48
(171:6-174:16). And substantial evidence established that
relevant artisans would have understood that the TLSversion value is found in the first packet of a message. J.A.
809-10; J.A. 4653. Thus, the Board reasonably found that
Sourcefire teaches determining this exact value because
the information it obtains from the handshake will be
identical to the first packet’s header. See J.A. 2252 (“The
SSL preprocessor extracts state and version information
from specific handshake fields. Two fields within the

22a
Appendix A
handshake indicate the version of SSL or TLS used to
encrypt the session and the stage of the handshake.”).
Substantial evidence thus supports the Board’s finding
that Sourcefire teaches the “determination” limitations
of the patent claims.
2
Centripetal argues that the Board erred by finding
a motivation to modify Sourcefire based on “common
sense,” Centripetal Opening Br. 24-27, and by not properly
considering objective indicia of nonobviousness that
negate any motivation a relevant artisan would have had
to modify Sourcefire, id. at 27-31.
Centripetal’s motivation argument substantially
overlaps with its arguments that Sourcefire does not teach
the “determination” limitations required by the claims.
Specifically, Centripetal argues that the Board found that
a relevant artisan would have been motivated to modify
Sourcefire to include the “missing” claim limitations—the
“determination” limitations—and that such a finding was
error because Sourcefire makes determinations from
a reassembled packet stream, and a relevant artisan
would not be motivated to modify that system to inspect
individual packets. Centripetal Opening Br. 24-27. But the
Board did not find that these limitations were “missing”;
it found that Sourcefire taught the “determination”
limitations because such limitations were not limited to
systems that inspect individual packets. See ’552 Decision,
2020 WL 402817, at *17-19; ’713 Decision, 2020 WL 402317,
at *8. And, as discussed above, nothing in either patent’s

23a
Appendix A
claims requires individual packets to be inspected in order
to determine their TLS-version value.
We also reject Centripetal’s argument that the
Board failed to properly weigh objective indicia of
nonobviousness (specifically, long-felt but unmet need,
industry praise, and commercial success/licensing).
“In order to accord substantial weight to secondary
considerations in an obviousness analysis, ‘the evidence
of secondary considerations must have a “nexus” to the
claims, i.e., there must be “a legally and factually sufficient
connection” between the evidence and the patented
invention.’” Fox Factory, Inc. v. SRAM, LLC, 944 F.3d
1366, 1373 (Fed. Cir. 2019) (quoting Henny Penny Corp.
v. Frymaster LLC, 938 F.3d 1324, 1332 (Fed. Cir. 2019)
(citing Demaco Corp. v. F. Von Langsdorff Licensing Ltd.,
851 F.2d 1387, 1392 (Fed. Cir. 1988)).
Here, Centripetal presented several articles praising
its RuleGATE product as evidence of industry praise
and long-felt but unmet need, including a paper (the
ESG paper), J.A. 6900-08, and a Gartner article, J.A.
6909-18. But the RuleGATE product contains far more
than what is claimed in the patent claims at issue here.
And as the Board found, nothing in those articles ties
the praise of RuleGATE, its alleged filling of an unmet
need, or its success to the limitations in the claims. See
’552 Decision, 2020 WL 402817, at *22-24; ’713 Decision,
2020 WL 402317, at *10-12; see also Polaris, 882 F.3d at
1072. Indeed, Centripetal’s expert did not even create
a claim-construction chart to map the products to each
limitation. J.A. 4615-16. On this record, we agree with the

24a
Appendix A
Board that the objective indicia of nonobviousness were
not entitled to substantial weight.
3
Finally, Centripetal challenges the Board’s finding
that Sourcefire teaches the operator required by the
’552 patent. Centripetal argues that Sourcefire relies on
“Snort rules” that include a “Rule Header” with a single
specified “rule action” that can be taken only “‘if the
packet data matches all the conditions specified in a rule.’”
Centripetal Opening Br. 32-33 (quoting J.A. 2188). For
that reason, Centripetal urges, Sourcefire cannot disclose
the required operator because its rules cannot “apply
different packet transformation functions for different
TLS-version values.” Id.
But the ’552 patent’s claims do not require that a rule
provide for more than one action. See, e.g., ’552 patent,
col. 11, lines 5-35. Moreover, even under Centripetal’s
construction of “operator,” the Board found, Sourcefire
teaches an operator that meets both criteria required
by that construction—that is, Sourcefire (1) determines
“application-header-field-value criteria” through its
keyword function (e.g., identifies the packets’ TLS-version
value) and (2) applies a “packet transformation function”
by using its Rule Action function to either block, alert, or
allow packets matching the application-header-field-value
criteria corresponding to the rule. ’552 Decision, 2020 WL
402817, at *19-21; J.A. 2189-92, 2196. The language of the
claims and of Sourcefire provide substantial evidence for
the Board’s finding that Sourcefire teaches the operator
in the ’552 patent’s claims.

25a
Appendix A
III
We have considered the remainder of Centripetal’s
arguments and find them to be unpersuasive.
For the foregoing reasons, the decisions of the Patent
Trial and Appeal Board in IPR-1436 and IPR-1437 are
affirmed.
AFFIRMED

26a
Appendix B — Appendix
opinionBof the UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, CASE NO. 2020-2057,
DATED MARCH 10, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-2057
CENTRIPETAL NETWORKS, INC.,
Appellant,
v.
CISCO SYSTEMS, INC.,
Appellee.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. IPR201801760.
March 10, 2021, Decided
PAUL J. ANDRE, Kramer Levin Naftalis & Frankel
LLP, Menlo Park, CA, for appellant. Also represented
by JAMES R. HANNAH; CRISTINA MARTINEZ,
JEFFREY PRICE, New York, NY.
PATRICK D. MCPHERSON, Duane Morris LLP,
Washington, DC, for appellee. Also represented by
PATRICK C. MULDOON, CHRISTOPHER JOSEPH

27a
Appendix B
T YSON; M ATTHEW CHRISTOPHER GAUDET,
Atlanta, GA; JOSEPH POWERS, Philadelphia, PA.
Before MOORE, SCHALL, and TARANTO, Circuit
Judges.
Centripetal Networks, Inc. owns U.S. Patent No.
9,413,722, which addresses “rule-based network-threat
detection.” ’722 patent, col. 1, lines 45-46. In September
2018, Cisco Systems, Inc. petitioned for an inter partes
review of all claims of the ’722 patent, alleging that the
claimed inventions in all claims (1-25) would have been
obvious to a relevant artisan under 35 U.S.C. § 103 in view
of a User Guide for the Sourcefire 3D System—a manual
the parties have called “Sourcefire.” That reference is also
before us in Centripetal Networks, Inc. v. Cisco Systems,
Inc., Fed. Cir. Nos. 20-1635, -1636, which involves other
Centripetal patents and which we decide today (20-1635
Decision). A common issue in this matter and in our
20-1635 Decision is whether Sourcefire was a “printed
publication[]” under 35 U.S.C. § 311(b). A distinct issue
here is whether Sourcefire teaches identifying “networkthreat indicators” as required by the ’722 patent’s claims.
The Patent Trial and Appeal Board instituted an inter
partes review, and in May 2020, it ruled that Sourcefire
was a printed publication and that the claimed inventions
in claims 1-7, 10-12, 14-21, 24, and 25 in the ’722 patent
would have been obvious to a relevant artisan in view of
Sourcefire. Cisco Systems, Inc. v. Centripetal Networks,
Inc., IPR2018-01760, 2020 WL 2549613 (P.T.A.B. May
18, 2020) (Board Decision). Centripetal appeals. We have
jurisdiction under 28 U.S.C. § 1295(a)(4). We affirm.

28a
Appendix B
I
A
Unauthorized requests for data and large volumes of
network traffic are two examples of what the ’722 patent
calls “network threats” to the Internet. See ’722 patent, col.
1, lines 16-19. Information about such threats, the patent
says, was traditionally compiled by an organization’s
network devices into “logs,” which were then reviewed
for “data corresponding to the network-threat indicators
provided by [network-threat] services.” Id., col. 1, lines
24-29. The patent asserts that because these logs were
“generated based on the traffic processed by the network
devices without regard to the network-threat indicators,”
reviewing them was “time consuming” and “exacerbated
by the continuously evolving nature of potential threats.”
Id., col. 1, lines 29-34.
The ’722 patent proposes an improvement in the form
of a “rule-based network-threat detection” system using
a “packet-filtering device” that receives data packets
traveling through the Internet and determines whether
each packet “corresponds to criteria specified by a packetfiltering rule.” Id., col. 1, lines 45-52. The criteria in each
rule may “correspond to one or more of the networkthreat indicators.” Id., col. 1, lines 52-53. Network-threat
indicators may include “network addresses, ports, fully
qualified domain names (FQDNs), uniform resource
locators (URLs), [and] uniform resource identifiers
(URIs)” that are “associated with . . . network threats,”
such as phishing malware. Id., col. 3, lines 18-33.

29a
Appendix B
Packet-filtering rules also specify an “operator,”
which is “configured to cause packet-filtering device 144
to either prevent packets corresponding to the criteria
from continuing toward their respective destinations (e.g.,
a BLOCK operator) or allow packets corresponding to the
criteria to continue toward their respective destinations
(e.g., an ALLOW operator).” Id., col. 5, lines 13-24. In
addition to allowing and blocking packets, the packetfiltering device “generate[s] a log entry comprising
information from the packet-filtering rule,” including
information about (1) whether the packets corresponded to
“one or more network-threat indicators” and (2) whether
the packet-filtering device allowed the packet to continue
or blocked it from reaching its destination. Id., col. 16,
lines 8-19. The packet-filtering device communicates
such information to a “user device,” id., col. 16, lines
22-24, which permits a user to alter the rules based on
the log information by “instruct[ing] the packet-filtering
device to reconfigure the operator” so that, for example,
the operator “prevent[s] future packets corresponding
to the criteria from continuing toward their respective
destinations,” id., col. 2, lines 1-10. See also id., Fig. 7
(depicting an example of the rules-based network-threat
detection system).
Claim 1 is representative and recites:
1. A method comprising:
receiving, by a packet-filtering device, a
plurality of packet-filtering rules configured
to cause the packet-filtering device to identify

30a
Appendix B
packets corresponding to at least one of a
plurality of network-threat indicators;
receiving, by the packet-filtering device, a
plurality of packets, wherein the plurality of
packets comprises a first packet and a second
packet;
responsive to a determination by the packetfiltering device that the first packet satisfies one
or more criteria, specified by a packet-filtering
rule of the plurality of packet-filtering rules,
that correspond to one or more network-threat
indicators of the plurality of network-threat
indicators:
applying, by the packet-filtering
device and to the first packet, an
operator specified by the packetfiltering rule and configured to cause
the packet-filtering device to allow
the first packet to continue toward a
destination of the first packet;
communicating, by the packet-filtering
device, information from the packetfiltering rule that identifies the one or
more network-threat indicators, and
data indicative that the first packet
was allowed to continue toward the
destination of the first packet;

31a
Appendix B
causing, by the packet-filtering device,
and in an interface, display of the
information in at least one portion of
the interface corresponding to the
packet-filtering rule and the one or
more network-threat indicators;
receiving, by the packet-filtering
device, an instruction generated
in response to a user invoking an
element in the at least one portion of
the interface corresponding to the
packet-filtering rule and the one or
more network-threat indicators; and
responsive to receiving the instruction:
mod i f y i ng, by the packet filtering device, at least one
operator specified by the packetfiltering rule to reconfigure
the packet-filtering device to
prevent packets corresponding
to the one or more criteria
from continuing toward their
respective destinations; and
responsive to a determination by
the packet-filtering device that
the second packet corresponds
to the one or more criteria:

32a
Appendix B
preventing, by the packetfiltering device, the second
packet from continuing
toward a destination of the
second packet;
communicating, by the
packet-filtering device, data
indicative that the second
packet was prevented from
cont i nu i ng t owa rd t he
destination of the second
packet; and
causing, by the packetf i lter ing dev ice and in
the interface, display of
the data indicative that
the second packet was
prevented from continuing
toward the destination of
the second packet.
Id., col. 17, line 16 through col. 18, line 2 (emphasis
added). Centripetal raises no arguments on appeal with
respect to limitations in the dependent claims. The only
claim limitation at issue on appeal is the “network-threat
indicator” limitation emphasized above. See Centripetal
Opening Br. 12-13; see also Cisco Response Br. 32 & n. 7.

33a
Appendix B
B
Cisco’s petition for an inter partes review relied on
Sourcefire, which is the user guide for the Sourcefire
company’s network security system. It was distributed
on a CD-ROM to all customers who purchased certain
Sourcefire products. Sourcefire customers, with a
password, could also access and download the User Guide
on the Sourcefire company’s website. J.A. 3161 ¶ 11.
According to Sourcefire (the document), the Sourcefire
system provides users with “real-time network intelligence
for real-time network defense” through the use of packetfiltering devices called “3D Sensors.” J.A. 1064-65.
Each sensor can run Sourcefire’s “Intrusion Prevention
System” (IPS) to detect and prevent potential threats
using a “rules-based detection engine” that permits
a user to develop custom “intrusion rules” in order to
“detect the attacks [the user] think[s] most likely to occur.”
J.A. 1065-66. Users can select, customize, and manage
intrusion rules across all the Sourcefire system’s sensors
via a centralized “Defense Center.” J.A. 1066; see also
J.A. 1297-98.
An intrusion rule includes a rule header that consists
of parameters and their associated “arguments,”
including 5-tuple rule criteria values (protocol, source and
destination Internet Protocol (IP) addresses, and source
and destination ports). J.A. 1796. The 5-tuple values,
Sourcefire explains, are useful for detecting “intrusion
event[s]” (potential security concerns generating a
response by the system), such as multiple failed log-in

34a
Appendix B
attempts to the network’s server from an unknown IP
address. J.A. 1471; see also J.A. 1793. Rule headers
also include “rule actions,” e.g., “drop,” “pass,” and
“alert,” which is the action taken by the rules engine if it
encounters packets that meet the criteria specified in the
rule header. J.A. 1797. “Drop” actions block packets from
continuing to their destinations, “pass” actions permit
the packets to continue without interruption, and “alert”
actions generate reports of “intrusion event[s]” while
typically allowing packets to continue. J.A. 1793, 1797.
Intrusion rules may also include a “rule options” part,
containing “keywords” and their associated “arguments.”
J.A. 1794-95, 1801. Users may add arguments that, for
example, apply the intrusion rule only to certain uniform
resource identifiers (URIs). J.A. 1795.
After the Board instituted the requested inter partes
review, Centripetal argued that Sourcefire was not
qualifying prior art under 35 U.S.C. § 311(b) because it
was not a “printed publication.” J.A. 387-94. In particular,
Centripetal contended that Sourcefire would not have
been publicly accessible to interested persons of skill in
the art because (1) the user manual is kept on a passwordprotected website and only available to Sourcefire
purchasers, J.A. 387-89, and (2) the Sourcefire product was
costly, with a purchase price of up to $25,000, J.A. 392-94.1
1. The priority date for the ’722 patent is in April 2015, so that
the “printed publication” language of 35 U.S.C. § 102(a)(2) applies
in this matter. See Board Decision, 2020 WL 2549613, at *1 n.1.
The parties accept that the standards governing that phrase are
the same, at least for present purposes, as the standards governing
the same phrase in 35 U.S.C. § 102(b) (2006), applicable in our 201635 Decision.

35a
Appendix B
As to what Sourcefire teaches, Centripetal disputed
Cisco’s contention that Sourcefire teaches the “networkthreat indicators” recited in the claims. See J.A. 416-30.
Specifically, Centripetal argued that rule headers do not
identify specific threats coming from, e.g., a certain IP
address “associated with a network threat.” J.A. 416-17,
424-26. Rather, Centripetal argued, the IP address in the
Sourcefire rule header is merely a “source IP address”
that permits packets associated with trusted networks
to pass without inspection, J.A. 416-17, and Sourcefire’s
rule header functions only to “restrict packet inspection”
and “reduce false positives” by identifying the packets
that are safe and allowing them to pass, rather than
identifying IP addresses associated with specific network
threats, J.A. 416-17, 424-26. Further, Centripetal argued,
the “rule options” function of Sourcefire does not teach
identifying network-threat indicators, because keywords
and their associated arguments identify suspicious content
associated with data packets, rather than data packets
with suspicious identifiers. J.A. 428-30.
Finally, Centripetal presented objective indicia of
non-obviousness. J.A. 442-48. Specifically, Centripetal
argued that the ’722 patent “satisfied a long-felt need in
the industry,” which was “how to operationalize threat
intelligence to proactively identify network threats.”
J.A. 443. It pointed to a paper entitled “Centripetal
Networks Threat Intelligence Gateway: Designed to
Enable Continuous Prevention Through Intelligenceled Enforcement” (the ESG paper), which praised
Centripetal’s products, including its Threat Intelligence
Gateway (RuleGATE) for “converting indicators to rules

36a
Appendix B
that drive actions,” and thereby “deliver[ing] more than
[was] possible with firewalls and IPS systems.” J.A. 44448 (citing J.A. 6688). Centripetal also presented a 2017
Gartner article that praised Centripetal as being “’unique
in its ability to instantly detect and prevent malicious
network connections based on millions of threat indicators
at 10-gigabit speeds.’” J.A. 448 (quoting J.A. 6695).
C
In its final written decision, the Board held claims
1-7, 10-12, 14-21, 24, and 25 of the ’722 patent to be
unpatentable for obviousness in view of Sourcefire. See
Board Decision, 2020 WL 2549613, at *23. 2 The Board
concluded that Cisco had shown Sourcefire to be a printed
publication at the relevant time. See id., 2020 WL 2549613,
at *5-8. The reasons are materially identical to those the
Board relied on in the separate final written decisions we
affirm in today’s 20-1635 Decision.
Next, the Board considered whether Sourcefire
teaches the claim limitation requiring “receiving, by a
packet-filtering device, a plurality of packet-filtering
rules configured to cause the packet-filtering device to
identify packets corresponding to at least one of a plurality
of network-threat indicators.” Board Decision, 2020
WL 2549613, at *8-12. It found that Sourcefire teaches
a “packet-filtering device” (the 3D Sensor with IPS),
which receives “packet-filtering rules” (intrusion rules)
2. The Board ruled that Cisco did not show unpatentability as
to claims 8, 9, 13, 22, and 23. Board Decision, 2020 WL 2549613, at
*23. Cisco has not appealed that ruling.

37a
Appendix B
that can specify “source and destination IP addresses,”
“source and destination ports,” and “keywords and
their parameters and arguments” to allow users to, e.g.,
“restrict packet inspection to the packets originating from
specific IP addresses.” Id. at *9 (internal quotation marks
omitted); see also J.A. 1794, 1798-99. Thus, the Board
determined that Sourcefire teaches packet-filtering rules
“’configured to cause the packet-filtering device to identify
packets corresponding to,’ for example, specific source
IP addresses.” Board Decision, 2020 WL 2549613, at *9.
The Board then rejected Centripetal’s argument that
Sourcefire does not teach the “network-threat indicators”
recited in the claims. Id. It construed “network-threat
indicator” to mean an “indicator that represents the
identity of a resource associated with a network threat.”
Id. at *3-4, *9. Noting that Sourcefire teaches using
intrusion rules to identify “exploits” and malicious
activity by examining packets, see J.A. 1793-94, the Board
found that a relevant artisan would have understood
that intrusion rules could be written to identify specific
network threats on the basis of the source IP address
being a suspicious one. Board Decision, 2020 WL 2549613,
at *9 (citing J.A. 980-81 ¶¶ 114-16). The Board “note[d]
that the Specification of the ’722 Patent itself identifies
‘network addresses’ associated with network threats as
examples of ‘network-threat indicators.’” Id. (citing ’722
patent, col. 3, lines 23-24).
Finally, the Board considered Centripetal’s objective
indicia of non-obviousness and found that the evidence
was not entitled to substantial weight. Id. at *17-19. The

38a
Appendix B
Board found that Centripetal had presented no evidence to
show that its RuleGATE product was coextensive with the
’722 patent’s claims. Id. at *18 (citing Fox Factory, Inc. v.
SRAM, LLC, 944 F.3d 1366, 1373 (Fed. Cir. 2019)). It also
found that Centripetal had not shown how the cited praise
for its products related to the claim limitations, rejecting
conclusory expert statements as unpersuasive. Id. at
*18-19. For those reasons, the Board concluded that the
objective-indicia evidence was not entitled to substantial
weight. Id. at *20.
II
We review the Board’s legal conclusions de novo and
factual findings for substantial evidence. Nobel Biocare
Services AG v. Instradent USA, Inc., 903 F.3d 1365,
1374 (Fed. Cir. 2018). Whether a reference qualifies as a
“printed publication” is a legal conclusion based on factual
findings. Jazz Pharms., Inc. v. Amneal Pharms., LLC,
895 F.3d 1347, 1356 (Fed. Cir. 2018). “The underlying
factual findings [in a printed-publication analysis] include
whether a reference was publicly accessible.” Nobel, 903
F.3d at 1375. Similarly, the ultimate determination of
whether a claimed invention would have been obvious
is a legal one reviewed de novo, but underlying factual
determinations are reviewed for substantial-evidence
support. PersonalWeb Techs., LLC v. Apple, Inc., 917 F.3d
1376, 1381 (Fed. Cir. 2019).
Centripetal argues that the Board (1) erred in
concluding that Sourcefire was a printed publication, see
Centripetal Opening Br. 19-26; (2) misapplied the claim

39a
Appendix B
construction it adopted for “network-threat indicator” in
analyzing whether Sourcefire teaches this limitation, id.
at 27-35; and (3) failed to give due weight to the objective
indicia of non-obviousness, id. at 35-42. We reject these
challenges to the Board’s obviousness determination.
A
Centripetal first argues that Sourcefire was not a
printed publication. Centripetal’s arguments and the
Board’s analysis are materially the same as those in 201635 Decision, where we upheld the Board’s determination
that Sourcefire was a printed publication. Centripetal
has made no argument here that warrants separate
discussion. We rely on our discussion in 20-1635 Decision
to affirm the Board’s ruling as to Sourcefire’s qualification
as a printed publication here. 3
B
Centripetal argues that the Board’s finding that
Sourcefire teaches filtering packets based on the
“network-threat indicators” required by the claims
was unsupported by substantial evidence. In advancing
this argument, Centripetal essentially contends that
Sourcefire does not teach using a source-identifier (like
3. In ou r 20-1635 Decision, we a ff i r med the Boa rd’s
determination that Sourcefire was publicly accessible, and therefore
a printed publication, as of the March 2013 priority date of the patents
at issue there. Here, the priority date is two years later. Centripetal
has not denied that public accessibility before March 2013 entails
public accessibility before April 2015.

40a
Appendix B
an IP address) to identify threats, but only to “restrict
inspection” of packets with benign IP addresses (i.e., to
generate “whitelists”). Centripetal Opening Br. 27.
The Board reasonably found otherwise. Board
Decision, 2020 WL 2549613, at *9-10. Sourcefire teaches
users how to write custom intrusion rules that “detect
specific exploits” and “target traffic that may attempt to
exploit known vulnerabilities,” J.A. 1794, by using rule
headers and keywords to filter packets based on 5-tuple
values, which include source identifiers, see J.A. 17961801. Although Sourcefire expressly identifies creating
whitelists as one potential intrusion rule, see J.A. 1798, the
Board had a sufficient basis for finding that Sourcefire’s
teaching was not limited to use of the source identifier
for that purpose. “Sourcefire indicates intrusion rules
are used to identify ‘exploits’ from attackers such that
3D Sensors employing those rules examine packets for
‘malicious activity.’” Board Decision, 2020 WL 2549613, at
*9 (quoting J.A. 1066, 1793). Sourcefire teaches rules that
“alert,” “pass,” or “drop.” J.A. 1793; see Board Decision,
2020 WL 2549613, at *8-9 (citing J.A. 1793; agreeing with
Cisco’s description of Sourcefire as teaching, among other
things, “passing or dropping,” with Cisco citing J.A. 1794801). And Cisco’s expert explained that Sourcefire teaches
the use of source IP addresses (among other information
in the rule header) as a network-threat indicator for
triggering of a rule to allow, drop, or alert. J.A. 980-81
¶¶ 114-16, cited in Board Decision, 2020 WL 2549613, at *9.
Nor did the Board “raise, address, and decide
unpatentability theories never presented by [Cisco]

41a
Appendix B
and not supported by record evidence,” as Centripetal
contends. In re Magnum Oil Tools Int’l Ltd., 829 F.3d
1364, 1381 (Fed. Cir. 2016). In its petition, Cisco argued
that Sourcefire teaches using its system to write packetfiltering rules that “identify packets including data
(e.g., 5-tuple, application layer data) corresponding to
characteristics associated with malicious activities,” J.A.
213, and that those rules can be triggered by “source or
destination IP addresses,” causing the system to “allow,
drop, [or] alert,” J.A. 214. We see no significant disparity
between Cisco’s argument in its petition and the relevant
part of the Board’s rationale.
Accordingly, we affirm the Board’s finding that a
relevant artisan would have understood Sourcefire to
teach the claim-required filtering packets on the basis of
network-threat identifiers as required by the challenged
claims.
C
Finally, Centripetal argues that the Board failed to
give due weight to evidence of a long-felt but unmet need
for proactively identifying network threats, Centripetal
Opening Br. 35-39, as well as industry praise for its
product, id. at 40-42. We disagree.
“In order to accord substantial weight to secondary
considerations in an obviousness analysis, ‘the evidence
of secondary considerations must have a “nexus” to the
claims, i.e., there must be “a legally and factually sufficient
connection” between the evidence and the patented

42a
Appendix B
invention.’” Fox Factory, 944 F.3d at 1373 (quoting Henny
Penny Corp. v. Frymaster LLC, 938 F.3d 1324, 1332 (Fed.
Cir. 2019) (citing Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988)).
With respect to long-felt but unmet need, Centripetal
focuses on the fact that the ESG paper discusses the
need for “cyber threat intelligence” and systems that
can use such intelligence on a large scale when detecting
network threats. J.A. 6684. Centripetal contends that
these issues are identified in the Background of the ’722
patent, see ’722 patent, col. 1, lines 24-33, and that the
ESG paper is thus evidence that the ’722 patent solved
longstanding problems in cybersecurity. It also points
to language in the ESG paper stating that Centripetal
achieved “customized threat intelligence” on a large scale
by “converting indicators to rules that drive actions across
a risk spectrum.” J.A. 6688.
The Board reasonably found the evidence not to
establish a nexus between the claimed features in the
challenged claims of the ’722 patent and the ESG Paper’s
description of the benefits provided by the RuleGATE
product. Here, Centripetal presented no non-conclusory
evidence tying the statements in the ESG Paper about
“driv[ing] actions across a risk spectrum” specifically to
the limitations in the claims. Board Decision, 2020 WL
2549613, at *18.
Centripetal also did not supply the needed nexus
for its cited industry praise. The Gartner article praises
Centripetal’s product as being “unique in its ability
to instantly detect and prevent malicious network

43a
Appendix B
connections based on millions of threat indicators in
10-gigabit speeds.” J.A. 6695. Centripetal also identifies a
designation by American Bankers as a “Top Ten FinTech
Compan[y] to Watch” praising RuleGATE for its scale
and for its ability to “compare[] incoming traffic against
millions of rules and policies informed by analytics on
known ‘bad guys.’” J.A. 6732, 6745-47. Centripetal’s
expert added a sentence, following his description of those
passages, stating that, “[a]s discussed directly above, the
salutary benefits of Centripetal’s [RuleGATE] product
discussed in the ESG Paper and the [Gartner] article are
made possible in large part by the ’722 Patent’s packetfiltering rules, which transform network-threat indicators
into actionable rules.” J.A. 6563 ¶ 123.
The Board reasonably found this evidence insufficient
to establish the required nexus. The documents
themselves do not meaningfully tie the benefits to the
claim limitations. And the assertion by Centripetal’s
expert is an unelaborated conclusion, which the Board
could and did reject as insufficient for that reason. Board
Decision, 2020 WL 2549613, at *19.
III
We have considered the remainder of Centripetal’s
arguments and find them unpersuasive. For the foregoing
reasons, the decision of the Patent Trial and Appeal Board
is affirmed.
AFFIRMED

44a
Appendix C of the united
Appendix c — judgment
states patent and trademark office,
patent trial and appeal board,
IPR2018-01436, dated january 23, 2020
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
IPR2018-01436
Patent 9,124,552 B2
CISCO SYSTEMS, INC.,
Petitioner,
v.
CENTRIPETAL NETWORKS, INC.,
Patent Owner.
Before BRIAN J. McNAMARA, STACEY G. WHITE,
and JOHN P. PINKERTON, Administrative Patent
Judges.
PINKERTON, Administrative Patent Judge.
JUDGMENT
Final Written Decision
Determining All Challenged Claims Unpatentable
Denying Petitioner’s Motion to Exclude
Denying Patent Owner’s Motion to Exclude
35 U.S.C. § 318(a)

45a
Appendix C
I. INTRODUCTION
Petitioner, Cisco Systems, Inc., filed a Petition for
inter partes review of claims 1–21 of U.S. Patent No.
9,124,552 B2 (Ex. 1001, “the ’552 patent”). Paper 1 (“Pet.”).
We instituted trial on claims 1–21 of the ’552 patent on
the asserted ground of unpatentability. (Paper 7, “Dec. on
Inst.”). After institution of trial, Patent Owner, Centripetal
Networks, Inc., filed a Patent Owner Response (Paper 18,
“PO Resp.”), Petitioner filed a Reply (Paper 25, “Reply”),
and Patent Owner filed a Sur-Reply (Paper 27, “SurReply”). Patent Owner also filed Objections to Evidence
in Petitioner’s Reply. Paper 26.
Petitioner filed a Motion to Exclude Patent Owner’s
Evidence (Paper 29), to which Patent Owner filed an
Opposition (Paper 33), and in support of which Petitioner
filed a Reply (Paper 34). In addition, Patent Owner filed
a Motion to Exclude (Paper 30), to which Petitioner filed
an Opposition (Paper 31), and in support of which Patent
Owner filed a Reply (Paper 35).
An oral hearing was held on December 2, 2019, and a
transcript of the hearing is included in the record. Paper
39 (“Tr.”).
We have authority under 35 U.S.C. § 6. This Final
Written Decision is issued pursuant to 35 U.S.C. § 318(a).
For the reasons discussed below, we determine that
Petitioner has proven by a preponderance of the evidence
that claims 1–21 of the ’552 patent are unpatentable. See 35
U.S.C. § 316(e) (“In an inter partes review instituted under

46a
Appendix C
this chapter, the petitioner shall have the burden of proving
a proposition of unpatentability by a preponderance of the
evidence.”).
A. 	Related Matters
Patent Owner has asserted the ’552 patent against
Petitioner in Centripetal Networks, Inc. v. Cisco Systems,
Inc., No. 2:18-cv-00094-MSD-LRL (E.D. Va.). Pet. 2–3;
Paper 4, 1.
B. 	The ’552 Patent
The ’552 patent, titled “Filtering Network Data
Transfers,” issued on September 1, 2015, from U.S.
Application No. 13/795,822, filed on March 12, 2013. Ex.
1001, codes (21), (22).
The ’552 patent generally discloses systems and
methods for “filtering network data transfers.” Ex.
1001, 1:47–48. In particular, the ’552 patent is directed
to filtering data packets transmitted between a secured
network and an unsecured network and describes “[a]
category of cyber attack known as exfiltrations (e.g.,
stealing sensitive data or credentials via the Internet)”
[that] has proven to be especially difficult for conventional
cyber defense systems to prevent.” Id. at 1:15–16; 62–66.
Figure 1 of the ’552 patent, which is reproduced below,
illustrates exemplary network environment 100 in which
the disclosure of the patent may be implemented. Id. at
3:12–14.

47a
Appendix C

As shown in Figure 1, network environment 100 depicts
four small clouds 102, 104, 106, and 108 representing
networks, with cloud 102, representing the public Internet.
Networks 104 and 106 are connected to network 102
through packet security gateway (PSG) 110 and 112,
respectively, and network 108 is connected directly to
network 102. Id. at 3:12–16, 63–64. The ’552 patent
explains that networks 104, 106, and 108 may be private
networks such as Local Area Networks (LANs) and WideArea Networks (WANs) operated by various companies or
organizations. Id. at 3:22–26. For example, networks 104
and 106 may be owned and operated by enterprise X and
form part of a protected or secured network associated
with security policy management server 114, which is
shown in Figure 1 connected directly to network 104.
Id. at 3:67–4:3. Network 108 may be owned and operated

48a
Appendix C
by cyber criminal organization Z, which may attempt to
steal sensitive data from enterprise X via network 102.
Id. at 3:27–41. The ’552 patent explains that to prevent
exfiltrations from its networks 104 and 106, enterprise
X may locate one or more Packet Security Gateways
(“PSGs”) at each boundary between networks 104 and
106 and network 102 (e.g., the Internet). For example, an
attempt may be made to transfer data from network 104
or 106 to network 108 affiliated with organization Z. Id.
at 4:3–14. Then, PSG 110 “may protect network 104 from
one or more cyber attacks (e.g., exfiltrations) mediated
by network 102 (e.g., the Internet),” and PSG 112 “may
protect network 106 from one or more cyber attacks (e.g.,
exfiltrations) mediated by network 102.” Id. at 4:14–19.
PSGs 110 and 112 may include one or more computing
devices configured to: receive a dynamic security policy
from security policy management server 114; receive
packets associated with networks 104, 106, and 108; and,
apply one or more rules or operators, including an identify
(e.g., allow) or null (e.g., block) operator, specified by the
security policy to the received packets. Id. at 3:42–46;
4:29–36.
Figure 3 of the ’552 patent, which is reproduced below,
illustrates an exemplary dynamic security policy including
7 rules. Id. at 5:28–30.

49a
Appendix C

Figure 3 is a table of 7 columns (with headings
labeled Rule #, IP Protocol, Source IP Address, Source
Port, Destination IP Address, Destination Port, and
Operator) and 8 rows, with the top row containing the
aforementioned headings and the other 6 rows listing rules
1–7, together with each rule’s specified criteria and one
or more operators under the appropriate headings. Id. at
5:28–42. Rule 5, for example, instructs the PSG that IP
packets with one or more TCP packets, originating from
a source IP address that begins with 140.210 (network
104), having any source port, destined for an IP address
that begins with 140.212 (network 106), and destined
for port 443 (e.g., associated with Hypertext Transfer
Protocol Secure (HTTPS) protocol) should have a specified
Transport Layer Security (TLS) protocol operator applied
to them. Id. at 6:1–9. Thus, Rule 5 allows web browsers

50a
Appendix C
attached to network 104 to conduct HTTPS sessions (e.g.,
secure web sessions) with any web servers attached to
network 106, but requires the field value in the headers
of application data contained in IP packets (TLS Record
Protocol packet headers) to specify version 1.1 or 1.2 of
the TLS protocol “because the popular TLS version 1.0
protocol has a known security vulnerability that attackers
may exploit to decrypt HTTPS sessions.” Id. at 6:37–47,
7:18–23, 7:55–60. The ’552 patent explains that the
application packets contained in the IP packets may be
TLS Record Protocol packets in which the header fields
may be unencrypted and “contain a value indicating the
TLS version.” Id. at 7:61–8:18.
The ’552 patent describes what “may be viewed as”
a two-stage filtering process performed at each PSG for
packets exiting a trusted or secured network towards an
external network to address exfiltrations. Id. at 8:19–31.
In the first stage, “[a] determination may be made that a
portion of the packets have packet header field values [e.g.,
the “5-tuple” of source/destination IP addresses, transport
protocol, and source/destination ports] corresponding
to a packet filtering rule.” Id. at 1:49–51. In the second
stage, “[a] further determination may be made that one
or more of the portion of the packets have one or more
application header field values corresponding to one or
more application header field criteria specified by the
operator.” Id. at 1:54–58. “Conceptually, the first stage
may determine if the network security policy allows any
communications between the resources identified in the
5-tuple rule; if so, the second stage may determine if the
policy allows the specific method or type of communication

51a
Appendix C
(e.g., file read/write, encrypted communication, etc.)
between the resources.” Id. at 8:25–31.
For example, Figure 4, which is reproduced below,
illustrates an exemplary method for protecting a secured
network.

52a
Appendix C
Figure 4 is a flow diagram of an exemplary method
of steps that may be performed at a PSG associated with
a security policy management server. Id. at 8:56–60.
Beginning at step 400, packets may be received from,
for example, network 104 that are destined for network
106. Id. at 8:63–66. At step 402, a determination may be
made as to whether a portion of the packets received from
network 104 have packet header field values (e.g., one or
more of one or more data section protocols, one or more
source IP addresses, one or more source ports, one or
more destination IP addresses, or one or more destination
ports) corresponding to a packet filtering rule, such as rule
5. Id. at 9:2–8. “At step 404, responsive to determining that
one or more of the portion of received packets have packet
header field values corresponding to the packet filtering
rule, an operator specified by the packet filtering rule
may be applied to the portion of the received packets. For
example, the REQUIRE TLS-1.1-1.2 operator specified
by rule 5 [] may be applied to the portion of the received
packets.” Id. at 9:8–16.
Next, “[a]t step 406, a determination may be made
as to whether one or more application header field values
of one or more of the portion of the received packets
correspond to one or more application header field
criteria specified by the operator,” such as “whether
one or more of the portion of the received packets have
application header field values corresponding to one or
more application header field criteria of the REQUIRE
TLS-1.1-1.2 operator specified by rule 5 [] (e.g., application
header field values corresponding to TLS version 1.1 or
1.2).” Id. at 9:17–26.

53a
Appendix C
“At step 408, responsive to determining that one or
more of the portion of received packets have application
header field values corresponding to one or more
application header field criteria specified by the operator,
a packet transformation function specified by the operator
may be applied to the one or more of the portion of the
received packets. For example, an ALLOW packet
transformation function specified by the REQUIRE TLS1.1-1.2 operator may be applied” to allow each of the one
or more of the portion of the received packets to continue
toward their respective destinations. Id. at 9:26–40. The
method may then return to step 400 and await receipt of
one or more additional packets. Id. at 9:40–43.
The ’552 patent claims are directed to implementing
the two-stage packet filtering process at the PSG.
Independent claim 1 is directed to the method; independent
claim 8 is a corresponding apparatus claim performing the
claim 1 steps; and independent claim 15 is a corresponding
claim for a computer-readable media having instructions
to perform the claim 1 steps. Id. at 11:5–35; 12:54–13:15;
14:39–67.
C. 	Illustrative Claim
Among the challenged claims of the ’552 patent,
claims 1, 8, and 15 are independent. Claim 1, which is
illustrative of the challenged claims, is reproduced below
(with paragraph numbering added as in the Petition):
1. A method, comprising:

54a
Appendix C
[i] at a computing device comprising at least
one processor, a memory, and a communication
interface:
[ii] receiving, via the communication
interface, a plurality of hypertext transfer
protocol secure (HTTPS) packets;
[iii] responsive to a determination by the
at least one processor that at least a portion of
the plurality of HTTPS packets have packetheader-field values corresponding to a packet
filtering rule stored in the memory,
[iv] applying, by the at least one processor,
an operator specified by the packet-filtering
rule to the at least a portion of the plurality of
HTTPS packets, wherein the operator specifies
one or more application-header-field-value
criteria identifying one or more transport layer
security (TLS)-version values for which packets
should be blocked from continuing toward their
respective destinations; and
[v] responsive to a determination by the at
least one processor that one or more packets, of
the at least a portion of the plurality of HTTPS
packets, have one or more application-headerfield values corresponding to one or more TLSversion values of the one or more TLS-version
values for which packets should be blocked from
continuing toward their respective destinations,

55a
Appendix C
[vi] applying, by the at least one processor,
at least one packet-transformation function
specified by the operator to the one or more
packets to block each packet of the one or more
packets from continuing toward its respective
destination.
Ex. 1001 at 11:5–35.
D. 	Evidence of Record
Petitioner relies upon the following reference:
Exhibit

Reference

Ex. 1004

User manual titled
“Sourcefire 3D System
User Guide” Version 4.10
(“Sourcefire”)

Publication
Date
April 2011

Petitioner also relies on the Declaration of Dr.
Stuart Staniford (Ex. 1003). Patent Owner relies on the
Declaration of Dr. Alessandro Orso (Ex. 2002).
E. Asserted Ground of Unpatentability
Petitioner challenges the patentability of claims 1–21
of the ’552 patent based on the following ground under 35
U.S.C. § 103(a),1 and we instituted trial based on this ground:
1. The Leahy-Smith America Invents Act (“AIA”), Pub.
L. No. 112-29, 125 Stat. 284, 287–88 (2011), amended 35 U.S.C.

56a
Appendix C
Claims
Challenged
1–21

Basis

Reference

35 U.S.C. § 103(a) Sourcefire in view of
knowledge, skill, and
creativity of a person
of ordinary skill in
the art (“POSA”)

F.	Person of Ordinary Skill in the Art
Petitioner asserts that a person of ordinary skill in the
art at the time of the alleged invention of the ’552 patent
would have had a working knowledge of packet switched
networking, firewalls, security policies, communication
protocols and layers, and the use of customized rules to
address cyber-attacks. Pet. 13 (citing Ex. 1003 ¶¶ 23, 60).
Petitioner also asserts that a person of ordinary skill
would have had a bachelor’s degree in computer science,
computer engineering, or an equivalent, and four years of
industry experience, and that the lack of work experience
can be remedied by additional education, and vice versa.
Id. Patent Owner’s declarant, Alessandro Orso, Ph.D.,
notes that the ’552 patent claims a priority date of March
12, 2013, and opines that a person of ordinary skill in
the art at the time of the invention of the ’552 patent
“would be someone with a bachelor’s degree in computer
science or related field, and either (1) two or more years
of industry experience and/or (2) an advanced degree in
§ 103. Because the ’552 patent was filed before the effective date
of the relevant amendment, March 16, 2013, the pre-AIA version
of § 103 applies.

57a
Appendix C
computer science or a related field.” Ex. 2002 ¶¶ 42–43. In
the Institution Decision, we adopted Petitioner’s proposed
description of the level of ordinary skill in the art. Dec. on
Inst. 16–17. We have reviewed the full record in this case
and based on our analysis, for purposes of this Decision,
adopt Petitioner’s description of the person of ordinary
skill. 2
II. DISCUSSION
A. 	Claim Construction
1.

Applicable Law

The Petition has been accorded a filing date of July
20, 2018. Paper 3. For petitions in an inter partes review
accorded a filing date before November 13, 2018, 3 we
interpret claim terms in an unexpired patent according
to their broadest reasonable construction in light of the
2. Although Dr. Orso’s description of a person of ordinary
skill is slightly different than Petitioner’s, we note that our decision
would be unchanged if we were to apply Dr. Orso’s proposal
instead.
3. Although the claim construction standard applied in an
inter partes review was recently changed to the federal court
claim construction standard used in a civil action under 35 U.S.C.
§ 282(b), that change does not apply to this proceeding because
the Petition was filed before November 13, 2018, the effective
filing date of the change. See Changes to the Claim Construction
Standard for Interpreting Claims in Trial Proceedings Before
the Patent Trial and Appeal Board, 83 Fed. Reg. 51340 (Oct. 11,
2018) (to be codified at 37 C.F.R. § 42).

58a
Appendix C
specification of the patent in which they appear. See 37
C.F.R. § 42.100(b); Cuozzo Speed Techs. LLC v. Lee, 136
S. Ct. 2131, 2144–46 (2016). “In claim construction, [our
reviewing] court gives primacy to the language of the
claims, followed by the specification. Additionally, the
prosecution history, while not literally within the patent
document, serves as intrinsic evidence for purposes of
claim construction.” Tempo Lighting, Inc. v. Tivoli, LLC,
742 F.3d 973, 977 (Fed. Cir. 2014). Otherwise, under the
broadest reasonable construction standard, claim terms
are presumed to have their ordinary and customary
meaning, as would be understood by one of ordinary skill
in the art in the context of the entire patent disclosure.
In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed.
Cir. 2007).
Only those terms in controversy need to be construed,
and then only to the extent necessary to resolve the
controversy. Nidec Motor Corp. v. Zhongshan Broad
Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(citing Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200
F.3d 795, 803 (Fed. Cir. 1999)).
2.

Analysis

Patent Owner asserts that we should find the
challenged claims patentable because Petitioner failed
to meet its burden to construe the claims, including the
term “operator,” pursuant to 37 C.F.R § 42.104(b)(3). PO
Resp. 18; see also Sur-Reply 7. Patent Owner also asserts
that we should find the challenged claims patentable
because Petitioner’s expert, Stuart Staniford, Ph.D., “who

59a
Appendix C
purported to opine on the patentability of the challenged
claims, evinced little or no understanding of the role of
claim construction in determining the validity of a patent
claim.” PO Resp. 19 (citing Ex. 2001 at 8:16–9:7). Petitioner
further asserts that, at the very least, “we should give
no weight to Dr. Staniford’s opinions on this basis. Id.
We are not persuaded by either of these arguments
because, among other reasons, they are conclusory and
unsupported.
In regard to claim construction, Patent Owner seeks
construction of the terms “operator” (id. at 19–21) and
“HTTPS packet” (id. at 21–23). We consider each term
below.
a.

“operator”

Patent Owner contends that, in the context of the
challenged claims, “operator” is “a function specified
by a packet filtering rule that specifies (1) one or more
application-header-field-value criteria and (2) a packet
transformation function to apply to the packet for each of
the one or more application-header-field-value criteria.”
Id. at 19 (citing Ex. 2002 ¶ 64; see also ’552 patent, claims 1,
8, 15). Patent Owner also asserts that the term “operator”
is used in the ’552 patent, in some circumstances, to refer
simply to “a packet transformation function without also
specifying application-header-field-value criteria.”4 Id.
4. Patent Owner states that to distinguish between the two
types of operators, Patent Owner will refer to “operators that do
not specify application-header-field-value criteria . . . along with
their particular functionality specified (e.g., as a ‘null operator’ or
an ‘identity operator’).” PO Resp. 21.

60a
Appendix C
at 20 (citing Ex. 2002 ¶ 66; Ex. 1001, 2:7–16; Ex. 2001,
25:16–27:7). Patent Owner argues that both usages of the
term “operator” are explained in the following portion of
the Specification:
Such packet filters may implement at least
two operators: an identity operator, which
may allow the packet to continue towards its
destination, and a null operator which may
prevent, or block, the packet from continuing
towards its destination. In some embodiments,
the network packet filter may implement one
or more additional operators having the
capability to determine if a packet contains
an application-level header that specifies a
particular method associated with a data
transfer protocol; and, if so, whether to apply an
identity operator or null operator to the packet.
Id. (quoting Ex. 1001, 2:7–16 (emphasis added by Patent
Owner)).
Petitioner agrees that the two constructions asserted
by Patent Owner “are the plain and ordinary meanings of
the term operator as used in the specification.” Reply 7.
Petitioner also argues that because “Sourcefire discloses
[an] operator under any reasonable interpretation . . . no
construction of the term operator is necessary.” Id.
As reflected in the above discussion of the parties’
contentions, the parties agree that the term “operator”
is described in the Specification of the ’552 patent to

61a
Appendix C
have two meanings: (1) a packet transformation function,
without specifying application-header-field-value criteria;
and, (2) a function specified by a packet-filtering rule that
specifies one or more application-header-field criteria and
a packet transformation to apply to the packet for each
of the application-header-field criteria. Patent Owner
argues, and we agree, that as used in the claims of the
’552 patent, the term “operator” has the latter meaning,
which Patent Owner and the Specification refer to as the
“additional operator.” PO Resp. 21. In that regard, claim
1 recites, in limitation [iv], “applying . . . an operator
specified by the packet-filtering rule to the at least a
portion of the plurality of HTTPS packets, wherein the
operator specifies one or more application-header-fieldvalue criteria identifying one or more transport layer
security (TLS)-version values for which packets should
be blocked” and, in limitation [vi], “applying . . . at least
one packet-transformation function specified by the
operator . . . to block each packet.”5 Ex. 1001, 11:15–21;
11:31–34. As discussed in the Institution Decision, the ’552
patent discloses that allowing or blocking transmission of
a packet is a “packet transformation function.” See Dec.
on Inst. 29–30 (citing Ex. 1001, 7:17–23, 8:14–17, 9:26–37).
Thus, considering the express terms of each of the
independent claims, they recite the “additional operator”
described in the Specification, although in a different
format than in Patent Owner’s proposed construction of
the term “operator.” Accordingly, the term “operator” as
used in the claims is the additional operator described in
5. Independent claims 8 and 15 recite commensurate
limitations. See Ex. 1001, 12:64–13:2, 13:12–14 (claim 8); 14:48–54,
14:64–66 (claim 15).

62a
Appendix C
the Specification that specifies one or more applicationheader-field-value criteria and a packet transformation
function.
b.

“HTTPS packet”

Patent Owner contends that “HTTPS packet” means
“an IP packet in an HTTPS session.” PO Resp. 21, 23.
Patent Owner argues that the Specification of the ’552
patent discloses the relationship between the terms
HTTPS, HTTP, TLS protocol, IP packets, and TLS
Record Protocol Packets:
HTTPS may be used to encrypt HTTP sessions.
HTTPS is not a protocol per se, but rather the
result of layering the HTTP protocol on top
of the TLS protocol. For an HTTPS session
composed of IP packets, the application packets
contained in the IP packets may be TLS Record
Protocol packets. The header fields of TLS
Record Protocol packets may not be encrypted.
One of the header fields may contain a value
indicating the TLS version.
Id. (quoting Ex. 1001, 7:53–60). According to Patent
Owner, “in other words, the term HTTPS refers to a
communications session ‘composed of IP packets’ in which
the HTTP protocol is layered ‘on top of the TLS protocol.’”
Id. at 22 (citing Ex. 2002 ¶ 69). Patent Owner also argues
that “[a]n HTTPS packet is an IP packet in such a session,
while the term ‘TLS Record Protocol packet’ refers to
an ‘application packet contained in the IP packet.’” Id.

63a
Appendix C
Patent Owner further argues that this understanding of
the term HTTPS packets is confirmed because the claims
recite “a determination . . . that at least a portion of the
plurality of HTTPS packets have packet-header-field
values,” which would not be present “if HTTPS packets
referred to application-layer messages rather than IP
packets.” Id. Moreover, Patent Owner argues that because
claim 1 recites that the HTTPS packets are received
“via the communication interface,” a person of ordinary
skill would understand that “only L2 (link layer) or L3
(network layer, or IP) packets could be received at the
communications interface of a computing device.” Id. at
23 (citing Ex. 2002 ¶ 72).
As Petitioner notes, the term “HTTPS packet” is not
used in the Specification of the ’552 patent, but is only
included in the claims. Reply 7. Although Patent Owner
argues that Petitioner does not rebut Patent Owner’s
argument concerning the meaning of “HTTPS packet”
(Sur-Reply 7–8), we do not agree. Petitioner quotes
essentially the same portion of the Specification of the
’552 patent as quoted by Patent Owner:
HTTPS is not a protocol per se, but rather the
result of layering the HTTP protocol on top
of the TLS protocol. For an HTTPS session
composed of IP packets, the application packets
contained in the IP packets may be TLS Record
Protocol packets. The header fields of TLS
Record Protocol packets may not be encrypted.
One of the header fields may contain a value
indicating the TLS version.

64a
Appendix C
Reply 8 (quoting Ex. 1001, 7:54–60). Petitioner, however,
relying on this and other portions of the Specification, as
well as the deposition testimony of Dr. Orso (Ex. 1041),
sets forth a different interpretation of the term “HTTPS
packet” than Patent Owner.
First, Petitioner argues, and we agree, that a person
of ordinary skill (“POSA”) “understood that by layering
the HTTP protocol on top of the TLS protocol creates what
the specification refers to as an ‘application packet’, which
a POSAunderstood is a Layer 7 packet.” Reply 8 (citing
Ex. 1001, 2:21–25, 6:1–6, 6:48–52, 7:17–19, 7:55–58, 8:10–12;
Ex. 1041, 128:6–128:23, 138:23–139:1, 143:4–17). Second,
Petitioner argues, and we agree, “[t]he specification also
refers to a ‘TCP packet’, which a POSA understood to
be a Layer 4 packet, and an ‘IP packet’, which a POSA
understood to be a Layer 3 packet.” Id. (citing Ex. 1001,
5:42–43, 5:49–50, 5:56–57, 5:62–63, 6:1–2, 6:48–49, 8:19–
25; Ex. 1041, 132:14–133:4). Third, Petitioner argues, and
we agree, “a POSA understood that, for transmission over
the Internet, the application packet would be contained
in a TCP packet which is contained in an IP packet.” Id.
(citing Ex. 1001, 2:21–22, 7:17–19, 7:41–42, 7:55–57, 8:9–11,
8:49–50; Ex. 1041, 133:5–17, 154:20–157:18). Thus, we agree
with Petitioner that the term “HTTPS packet” should not
be construed as “an IP packet in an HTTPS session,” as
Patent Owner proposes, because, as Petitioner argues,
“the application packet (HTTPS packet) exists separate
from an IP packet, and to the extent it is transmitted
through the Internet, the application packet is contained
in a TCP packet contained in an IP packet.” Id. at 9.

65a
Appendix C
B. Asser ted Obviousness of Claims 1–21 O ver
Sourcefire in View of the Knowledge of a POSA
Petitioner contends that claims 1–21 of the ’552 patent
are unpatentable as being obvious over Sourcefire in view
of the knowledge of a POSA. Pet. 23, 32–69. Relying on
the testimony of Dr. Staniford, Petitioner contends that
Sourcefire in view of the knowledge of a POSA teaches
or suggests all of the limitations of the challenged claims
and that a POSA would have been motivated to apply
the teachings of Sourcefire to achieve certain of the
claimed features. Id.; Ex. 1003 ¶¶ 99–222. Patent Owner,
relying on the testimony of Dr. Orso, disputes Petitioner’s
contentions. PO Resp. 27–69.
Petitioner also contends that Sourcefire qualifies as
a prior art printed publication under 35 U.S.C. § 102(b).
Pet. 23 (citing Ex. 1005). Patent Owner contends that
Petitioner has failed to establish that Sourcefire was
“publically accessible” so that it qualifies as a printed
publication. PO Resp. 3–8. Because the only reference
cited explicitly in Petitioner’s challenge to the claims
is Sourcefire, the threshold issue before us is whether
Petitioner has shown that Sourcefire is prior art to the ’552
patent. Thus, before we consider the underlying merits of
Petitioner’s challenge, we first address whether Petitioner
has established by a preponderance of the evidence that
Sourcefire qualifies as a printed publication.

66a
Appendix C
1.

Sourcefire as a Printed Publication
a.

Applicable Law6

Our governing statutes provide “[a] petitioner in an
inter partes review may request to cancel as unpatentable
1 or more claims of a patent only on a ground that could
be raised under section 102 or 103 and only on the basis
of prior art consisting of patents or printed publications.”
35 U.S.C. § 311(b). Although Patent Owner challenges
whether Sourcefire is a printed publication, the burden
of persuasion remains on Petitioner to demonstrate
unpatentability. See Dynamic Drinkware, LLC v. Nat’l
Graphics, Inc., 800 F.3d 1375, 1378 (Fed. Cir. 2015) (citing
Tech. Licensing Corp. v. Videotek, Inc., 545 F.3d 1316,
1326–27 (Fed. Cir. 2008)) (discussing the burden of proof
in an inter partes review). Petitioner must demonstrate
by a preponderance of the evidence that the challenged
claims are unpatentable—including showing that the
references relied upon are patents or printed publications.
See 35 U.S.C. §§ 311(b); Nobel Biocare Servs. AG v.
Instradent USA, Inc., 903 F.3d 1365, 1375 (Fed. Cir. 2018),
as amended (Sept. 20, 2018).

6. See also Hulu, LLC v. Sound View Innovations, LLC,
2019 WL7000067 *3–4 (PTAB Dec. 20, 2019), in which the PTAB’s
Precedential Opinion Panel (“POP”) summarized the principles
of law regarding whether a reference qualifies as a “printed
publication” under 35 U.S.C. § 102 in connection with a request for
rehearing of the Board’s decision denying institution of an inter
partes review. Our statement of the applicable law is consistent
with POP’s summary in Hulu.

67a
Appendix C
The determination of whether a reference qualifies
as a “printed publication” is a legal conclusion based on
underlying factual findings. Nobel, 903 F.3d at 1375 (citing
Jazz Pharm., Inc. v. Amneal Pharm., LLC, 895 F.3d 1347,
1356 (Fed. Cir. 2018)). The underlying factual findings
include whether the reference was publicly accessible.
Id. (citing In re NTP, Inc., 654 F.3d 1279, 1296 (Fed. Cir.
2011)).
The determination of whether a document is a
“printed publication” under 35 U.S.C. § 102 “involves a
case-by-case inquiry into the facts and circumstances
surrounding the reference’s disclosure to members of
the public.” Medtronic, Inc. v. Barry, 891 F.3d 1368, 1380
(Fed. Cir. 2018) (citing In re Klopfenstein, 380 F.3d 1345,
1350 (Fed. Cir. 2004)). In certain situations, particularly
for manuscripts or dissertations stored in libraries, courts
may inquire whether a reference was sufficiently indexed,
catalogued, and shelved. See, e.g., In re Hall, 781 F.2d 897,
898–99 (Fed. Cir. 1986); In re Lister, 583 F.3d 1307, 1315
(Fed. Cir. 2009) (manuscript became publicly accessible
once it was placed in a searchable database). In other
situations, such as for information displayed at meetings
and trade shows, courts have explained that indexing
is not required if it was sufficiently disseminated. See
Medtronic, 891 F.3d at 1381 (citing Suffolk Techs., LLC
v. AOL Inc., 752 F.3d 1358, 1365 (Fed. Cir. 2014)). The
Federal Circuit has summarized that “[w]hile cataloging
and indexing have played a significant role in our cases
involving library references, we have explained that
neither cataloging nor indexing is a necessary condition
for a reference to be publicly accessible.” Lister, 583 F.3d
at 1312 (citing Klopfenstein, 380 F.3d at 1348).

68a
Appendix C
“Because there are many ways in which a reference
may be disseminated to the interested public, ‘public
accessibility’ has been called the touchstone in determining
whether a reference constitutes a ‘printed publication’ bar
under 35 U.S.C. § 102(b).” Blue Calypso, LLC v. Groupon,
Inc., 815 F.3d 1331, 1348 (Fed. Cir. 2016) (quoting In re
Hall, 781 F.2d at 898–99). “A given reference is ‘publicly
accessible’ upon a satisfactory showing that such document
has been disseminated or otherwise made available to the
extent that persons interested and ordinarily skilled in
the subject matter or art exercising reasonable diligence,
can locate it.” SRI Int’l, Inc. v. Internet Sec. Sys., Inc.,
511 F.3d 1186, 1194 (Fed. Cir. 2008) (quoting Bruckelmyer
v. Ground Heaters, Inc., 445 F.3d 1374, 1378 (Fed. Cir.
2006)).
What constitutes a “printed publication” must also be
determined in light of the technology employed. Samsung
Elecs. Co. v. Infobridge Pte. Ltd., 929 F.3d 1363, 1369
(Fed. Cir. 2019) (citing Wyer, 655 F.2d at 226). Public
accessibility requires more than technical accessibility.
Id. (citing Acceleration Bay, LLC v. Activision Blizzard
Inc., 908 F.3d 765, 773 (Fed. Cir. 2018)). “[A] work is not
publicly accessible if the only people who know how to
find it are the ones who created it.” Id. at 1372. On the
other hand, “a petitioner need not establish that specific
persons actually accessed or received a work to show that
the work was publicly accessible.” Id. at 1374. “In fact, a
limited distribution can make a work publicly accessible
under certain circumstances.” Id. (quoting GoPro, Inc.
v. Contour IP Holding LLC, 908 F.3d 690, 694 (Fed. Cir.
2018)).

69a
Appendix C
b.

Analysis

Petitioner contends that Sourcefire was publicly
accessible at least as early as April 2011, and qualifies as
prior art under § 102(b), because (1) a copy was enclosed on
documentation disks (CD-ROM/DVD) included with each
Sourcefire 3D System product sold by Sourcefire, Inc.,
and (2) it was available “for download by persons who had
received a login and password from Sourcefire, Inc. to its
support website.” Pet. 23; see also Reply 3–7. Petitioner
supports these contentions with the declaration testimony
of John Leone, the former Technical Writer (from
September 2002 to February 2005) and Documentation
Manager and Director of Technical Publications and
Certifications (from February 2005 to August 2013) at
Sourcefire, Inc. See Ex. 10057 ¶¶ 1–2.
Mr. Leone testified that the Sourcefire reference (i.e.,
version 4.10 of the Sourcefire 3D System User Guide) was
released “on or around April 2011.” See id. ¶¶ 14–17. He
7. Patent Owner asserts, in a footnote, that considering the
Leone Declaration would be “improper” under 37 C.F.R. § 42.6(a)
(3). PO Resp. 5, n.1. Although we agree that citing an exhibit in its
entirety typically is inadequate to comply with our Rules, here
the Leone Declaration is brief, and we find that a reasonable party
would be able to sufficiently discern the testimony that supports
the statements in the Petition. Further, we determine that the
Petition did not improperly incorporate arguments from the Leone
Declaration. The Petition sets forth the relevant factual assertions
(i.e., distribution of Sourcefire with each product sold and website
availability), and Mr. Leone’s testimony provides underlying facts
directly supporting those assertions. See Pet. 23; Ex. 1005 ¶¶ 14–
19. Although the brevity of the Petition’s explanation of these facts
may bear on its persuasive weight, it does not warrant exclusion.

70a
Appendix C
further testified that, on or about April 2011, the Sourcefire
reference was “enclosed . . . on documentation disks (CDROM or DVD) included with each Sourcefire 3D System
appliance subsequently sold,” and that “approximately
586 customers purchased the Sourcefire 3D System
from April 2011 through March 2013 and had access to”
the Sourcefire reference. Id. ¶¶ 18–19. In addition, Mr.
Leone testified that, on or about April 2011, the Sourcefire
reference would have been posted “to [Sourcefire, Inc.’s]
customer-facing support website.” Id. ¶ 18.
Patent Owner argues that, “[e]ven if these two allegations
[in the Petition] are accepted as true, this would not be
enough for the Board to find that Sourcefire was ‘publically
accessible.’” PO Resp. 3–4 (citing Acceleration Bay, LLC v.
Activision Blizzard, Inc., 908 F.3d 765, 772 (Fed. Cir. 2018)).
According to Patent Owner, Petitioner “effectively concedes
that Sourcefire was not widely disseminated in a manner
that would have enabled a POSA exercising only reasonable
diligence to locate it” because “access to Sourcefire was
limited by login and password” (id. at 4, 6–7) and “the CDROM version of Sourcefire was distributed only to a small
subsection of the public—i.e., only the ‘approximately 586
customers [that] purchased the Sourcefire 3D System’ (id.
at 5).” Patent Owner also argues that “tellingly absent from
Petitioner’s argument is any allegation of why or how a POSA
would have or could have found Sourcefire through mere
reasonable diligence.” Id. at 6. Patent Owner further argues
that Petitioner does not explain how many documentation
disks were provided with the product and whether the disks
were indexed in any meaningful way. Id. at 7. Moreover,
Patent Owner argues “there is no evidence that Sourcefire
was or would have been made available to non-customers

71a
Appendix C
upon request” and “[t]he high cost of the corresponding
Sourcefire products weighs heavily against finding that
the manual was publically accessible.” Sur-Reply 4 (citing
Exs. 1042, 1043 (trade magazines listing price of certain
Sourcefire products).
Even if we were to agree with Patent Owner that
Petitioner has not proven that Sourcefire was “publicly
accessible” via the Sourcefire website, we nevertheless
determine that Petitioner has proven by a preponderance
of the evidence that Sourcefire was “publicly accessible”
through distribution on CD-ROM disks with public sales
of the corresponding Sourcefire products for several
reasons. First, Patent Owner does not dispute Petitioner’s
evidence that the Sourcefire 3D System was publicly sold,
or that a copy of the Sourcefire reference was included on
a CD-ROM disc with every Sourcefire 3D System product
sold in the relevant timeframe. The evidence discussed
above that the Sourcefire 3D System was sold to at least
586 customers over two years (Ex. 1005 ¶¶ 18–19) does
not support a finding that sales of the relevant Sourcefire
products were restricted or limited to only certain
customers, or that the cost of acquiring a Sourcefire 3D
System product was prohibitively high. Nor is there any
evidence of confidentiality obligations on customers who
received the Sourcefire reference with their Sourcefire
products. To the contrary, Sourcefire specifically states
(in the section titled “Terms of Use and Copyright and
Trademark Notices”) that “you may use, print out, save
on a retrieval system, and otherwise copy and distribute
the Documentation solely for non-commercial use.” Ex.
1004, 2. Thus, the uncontested facts and circumstances
here reflect that Sourcefire was regularly distributed to

72a
Appendix C
each customer purchasing a Sourcefire 3D system product
with no obligations of confidentiality.
Second, Petitioner argues, and we agree, that
Petitioner’s evidence showing 586 sales of the Sourcefire
3D system, each including a copy of Sourcefire, “far exceeds
the number of disclosures recognized under the relevant
dissemination law for printed publications.” Reply 3–4
(citing Mass. Inst. of Tech. v. AB Fortia, 774 F.2d 1104,
1109 (Fed. Cir. 1985) (dissemination of a conference paper
to six persons rendered it a printed publication); In re
Klopfenstein, 380 F.3d 1345, 1349 (Fed. Cir. 2004) (“[t]he
key to the [MIT] court’s finding was that actual copies of
the [reference] were distributed.”)). Patent Owner argues
that these cases should be distinguished because “they
involved the free distribution of academic documents to
conference and meeting attendees.” Sur-Reply 5. We do
not agree because, as Petitioner argues, the principle of
establishing public accessibility by actual distribution of
a reference “is not limited to free-of-charge references;
rather, it includes commercial distribution.” Reply 4 (citing
Garrett Corp. v. U.S., 422 F.2d 874, 878 (U.S. Ct. Cl. 1970)).
In Garrett, the court held that a government report was a
“printed publication” under § 102(b) because approximately
80 copies were disseminated, including to six commercial
companies. 422 F.2d at 878. The court held that “distribution
to commercial companies without restriction on use clearly”
establishes that the report is a printed publication. Id.
Third, Patent Owner’s argument that Petitioner
“does not even attempt to explain why a POSA would
have purchased the Sourcefire 3D System and therefore
discovered the corresponding user manual included

73a
Appendix C
in accompanying CD-ROM documentation disks” (PO
Resp. 7) is not persuasive because, as Petitioner argues,
Patent Owner “ignores that POSAs actually purchased
Sourcefire” and ignores a Sourcefire press release (Ex.
1034) that advertises the capabilities and announces the
release of Sourcefire v4.10 software and related products.
Reply 4. In addition, as Petitioner argues, Patent Owner’s
evidence also establishes that (1) Sourcefire regularly
advertised its products for sale and (2) those products were
accompanied by manuals. Id. 4–5 (citing Ex. 1043, 2) (“The
appliance comes with a CD that contains documentation . . . .
[There] is an administrator manual. But the documentation
is very long, more than 900 pages, and is geared to operating
the suite as a whole.”). Although Patent Owner criticizes
this exhibit for various reasons (see Sur-Reply 6–7), we
determine the evidence establishes that Sourcefire was
actively advertised and promoted as being included with the
Sourcefire 3D system. Furthermore, it is undisputed that
the customers who received Sourcefire included entities
interested in network security products, including persons
of ordinary skill in the art. See Tr. 54:5–17.
Fourth, as Petitioner argues, and we agree, Patent
Owner’s arguments that limit printed publications to
indexed references available without any significant effort
or cost misstate the law. Reply 6. For example, as discussed
supra, for information displayed at meetings and trade
shows, courts have explained that indexing is not required if
it was sufficiently disseminated. SeeMedtronic, 891 F.3d at
1381 (“a printed publication ‘need not be easily searchable
after publication if it was sufficiently disseminated at
the time of its publication”). As also discussed supra, the
Federal Circuit has summarized that “[w]hile cataloging

74a
Appendix C
and indexing have played a significant role in our cases
involving library references, we have explained that neither
cataloging nor indexing is a necessary condition for a
reference to be publicly accessible.” Lister, 583 F.3d at 1312
(citing Klopfenstein, 380 F.3d at 1348).
Fifth, we do not agree with Patent Owner’s argument
that limited distribution of the Sourcefire manual to
customers of the Sourcefire product is insufficient to
demonstrate “public accessibility.” Sur-Reply 2– 5.
Patent Owner argues that courts “have held that actual
dissemination is insufficient on its own to demonstrate
that a document is a printed publication.” Id. at 3 (citing
Medtronic, 891 F.3d at 1382 (“[d]istributing materials to
a group of experts, does not, without further basis, render
those materials publicly accessible or inaccessible”); In re
Bayer, 568 F.2d 1357 (C.C.P.A. 1978) (actual dissemination
of a thesis to members of a graduate committee does not
raise a presumption that the public concerned with the
art would know about the thesis). However, the Federal
Circuit has held that “a limited distribution can make a
work publicly accessible under certain circumstances.”
Samsung, 929 F.3d at 1369. And, for the reasons discussed
supra, the circumstances here reflect that Sourcefire
was “publicly accessible” because it was distributed
to all purchasers of the Sourcefire 3D system, with no
obligations of confidentiality and with the expectation
that the Sourcefire manual could be shared, i.e., copied
and distributed solely for non-commercial use. 8
8. The two decisions by Board panels cited by Patent Owner
(Sur-Reply 3–4) in support of its argument that “distribution of a
product manual along with a product does not make the manual
publically accessible” are not persuasive, and are factually

75a
Appendix C
Moreover, Medtronic and Bayer, which are relied on
by Patent Owner, are distinguishable. In Medtronic, the
video and slides at issue were disseminated to attendees
of three separate programs or meetings. 891 F.3d at 1379.
The Federal Circuit distinguished Medtronic from past
cases involving references stored in repositories, such as
libraries; the court found that rather than considerations
like indexing and cataloguing, the relevant inquiry was
whether the distribution of the materials to certain groups
of people was sufficient for public accessibility. Id. at 1379–
80. Issues underlying that inquiry include, for example,
“whether there is an expectation of confidentiality between
the distributor and the recipients of the materials,” as well
as “[t]he expertise of the target audience.” Id. at 1382.
Although agreeing with the Board that “[d]istributing
materials to a group of experts” is not enough for public
accessibility “simply by virtue of the relative expertise of
the recipients,” the Federal Circuit held that the Board
in that case had not considered sufficiently all of the
recipients of the distributed materials, or whether the
recipients were expected to hold the distributed materials
in confidence. Id. at 1382–83. Here, as discussed, Petitioner
has presented uncontested evidence that Sourcefire was
distributed with no obligations of confidentiality and with
distinguishable, because they both involved references that were
subject to restrictions prohibiting their reproduction or further
dissemination. See ASM IP Holding B.V., v. Kokusai Elec. Corp.,
IPR2019-00369, Paper 8, at 18 (PTAB June 27, 2019); VMAC
Global Techs. Inc. v. Vanair Mfg, Inc., IPR2018-00670, Paper 9,
at 13–14 (PTAB Aug. 10, 2018). In ASM, the panel further noted
that there was no evidence of actual dissemination to interested
artisans. See ASM, Paper 8, at 17.

76a
Appendix C
expectations that the information could be shared.
In Bayer, a student’s thesis, was accessible to three
members of a faculty review committee. See Bayer, 568
F.2d at 1361. Although the distribution of a reference
to three people can mitigate against a finding of public
accessibility, here Petitioner has shown distribution to
a substantially larger group, i.e., 586 purchasers of the
Sourcefire 3D system received a copy of Sourcefire. In
discussing Bayer, and SRI Int’l, Inc. v. Internet Sec. Sys.,
Inc., 511 F.3d 1186, 1196 (Fed. Cir. 2008), in which “only
one non-SRI person” had access to a reference found not
be publicly accessible, the Federal Circuit stated that
“[t]aken together, these cases suggest that a work is not
publicly accessible if the only people who know how to
find it are the ones who created it . . . . To hold otherwise
would disincentivize collaboration and depart from what it
means to publish something.” Samsung, 929 F.3d at 1372.
Here, as discussed supra, the facts show that Sourcefire,
Inc. is not the only company or person who knew how to
find Sourcefire because the evidence shows that Sourcefire
was advertised and promoted as being included with any
purchase of the Sourcefire 3D system. See, e.g. Ex. 1043.
Sixth, we are not persuaded by Patent Owner’s
contention that “the high cost of the corresponding
Sourcefire products weighs heavily against finding that
the manual was publically accessible.” See Sur-Reply 4.
The cost did not prevent 586 customers from actually
obtaining Sourcefire by purchasing Sourcefire 3D system
products. Moreover, Patent Owner did not present any
evidence as to whether an interested artisan would,

77a
Appendix C
or would not, have found the cost9 too high to acquire
Sourcefire by purchasing a Sourcefire 3D system product.
Thus, we find Petitioner has proven by a preponderance
of the ev idence that Sourcef i re was distr ibuted
commercially through sales of the Sourcefire 3D system
to 586 customers with no obligations of confidentiality
and with expectations that the information could be
shared for non-commercial use. Therefore, we conclude
that Sourcefire qualifies as a prior art printed publication
under § 102(b).
2.

Overview of Sourcefire

Sourcefire is a user manual for the Sourcefire 3D
System. Pet. 23; Ex. 1004. Sourcefire describes that the 3D
System could identify changing assets and vulnerabilities
on the network, determine the types of attacks against
the network and their impact, and defend the network in
real time. Ex. 1004, 32.
Sourcefire describes packet–filtering devices (3D
Sensors) of the 3D System that a user may deploy in a
network to passively or “inline” monitor network traffic.
Id. at 33. Each deployed 3D Sensor is capable of running
9. The record includes evidence of a range of prices for
various configurations of Sourcefire 3D system products, from
$1,385 to £25,000. Ex. 1042, 1; Ex. 1043, 1. Based on Mr. Leone’s
testimony, Sourcefire would have been distributed with the
purchase of any of these products. Ex. 1005 ¶ 11 (testifying
that Sourcefire was “included with each Sourcefire 3D System
appliance (e.g., 3D Sensor, Defense Center) sold to a customer”).

78a
Appendix C
any combination of three major software components: (1)
Intrusion Protection System (IPS); (2) Real-time Network
Awareness (RNA); and (3) Real-time User Awareness
(RUA). Id. at 33–34. Each 3D Sensor includes a processor
(CPU), memory, and disk storage and, if managed by
the centralized management service called the Defense
Center, periodically sends statistics regarding such
components (and events generated by applying rules to
packets received via a communication interface) to the
Defense Center. Id.; Ex. 1003 ¶ 129. The figure reproduced
below depicts an exemplary 3D System. Ex. 1004, 106–107.

79a
Appendix C
In the 3D System shown above, the Defense Center
is located above, and spaced apart from, the 3D Sensor,
which is designated Managed Sensor. An arrow extends
upwardly at the left from the Managed Sensor to the
Defense Center and includes a box listing the types
of Sensor Statistics and Events transmitted from the
Managed Sensor to the Defense Center. An arrow extends
downwardly at the right from the Defense Center to the
Managed Sensor and includes a box listing the categories
of system policies that may be sent from the Defense
Center.
Each deployed 3D Sensor with IPS analyzes network
traffic and generates intrusion events, which are records
of the traffic that violate the intrusion policy applied to a
detection engine on the sensor that is monitoring a specific
network segment. Ex. 1004, 256. The IPS performs
these functions on packets using a series of decoders,
preprocessors, and a rules engine, as illustrated in the
figure below.

Id. The above figure shows two rows of 5 boxes. The boxes
in the top row are labeled Link Layer Decoders, Network
Layer Decoders, Transport Layer Decoders, Application
Layer Decoders & Preprocessors, and Rules Engine. At
the left edge of the first box in the top row is an arrow

80a
Appendix C
pointing to the right labeled Packet Flow; there is also an
arrow pointing to the right that extends from the right
edge of each box to the left edge of the adjacent box. Each
of these boxes has an arrow extending downwardly from
the bottom of the box to the top of the corresponding
box below it in the second row, which boxes are labeled
Link Layer Events, Network Layer Events, Transport
Layer Events, Application Layer Events, and Rule-Based
Events.
Sourcefire explains that after the packets are decoded
through the first three TCP/IP layers, they are sent to
preprocessors, which normalize traffic at the application
layer and detect protocol anomalies. Id. at 258. After the
packets have passed through the preprocessors, they
are sent to the rules engine, which inspects the packet
headers and payloads to determine whether they trigger
any of the shared object rules or standard text rules. Id.
at 258–259. At each step of the process shown in the figure
above, a packet could cause the 3D System to generate an
event, which is an indication that the packet or its contents
may be a risk to the security of the network. Id. at 260.
Sourcefire describes that the rules engine implements
intrusion rules to determine whether the packet headers
and/or payloads of received packets triggered one or more
of such rules. Id. at 256–259, 513, 2084, 2089.
Sourcefire explains that the IPS allows a user to
write its own custom intrusion rules tuned to the user’s
specific network environment. Id. at 256–260, 428–430,
761–770. The intrusion rules had 5-tuple values associated
with them: the protocol; the source and destination IP

81a
Appendix C
addresses; and, the source and destination ports. Id. at
762–764. Sourcefire also explains that intrusion rules
contain two logical parts: (1) the rule header, which
contained the 5-tuple, the rule’s action (e.g., alert and
allow, drop, ignore and allow), and direction indicators;
and, (2) the rule options part, which contained, among
other things, event messages and keywords and their
arguments. Id. at 761–770.
Sourcefire describes that keywords of intrusion rules
could be used by the application-layer preprocessor,
called the SSL preprocessor, and rules engine of a 3D
Sensor to filter packets by encryption protocol version
(e.g., TLS or SSL version). Id. at 825. For example, the
ssl_version keyword could be used in an intrusion rule,
causing the SSL preprocessor to match against such
protocol version information in the application layer
header (e.g., Record header) of received packets and/or
unencrypted application-layer payload (e.g., Record) of
received handshake packets for an encrypted session. Id.
at 827–828, 491, 597–601, 700.
3.

Analysis Regarding Claims 1–21
a.

Applicable Law

A claim is unpatentable under 35 U.S.C. § 103(a)
if the differences between the claimed subject matter
and the prior art are such that the subject matter, as a
whole, would have been obvious at the time the invention
was made to a person having ordinary skill in the art to
which said subject matter pertains. See KSR Int’l Co. v.

82a
Appendix C
Teleflex Inc., 550 U.S. 398, 406 (2007). The question of
obviousness is resolved on the basis of underlying factual
determinations, including (1) the scope and content of the
prior art; (2) any differences between the claimed subject
matter and the prior art; (3) the level of skill in the art; and
(4) when in evidence, objective evidence of nonobviousness,
i.e., secondary considerations. See Graham v. John Deere
Co., 383 U.S. 1, 17–18 (1966).
We are also mindful that “obviousness concerns
whether a skilled artisan not only could have made but
would have been motivated to make the combinations
or modifications of prior art to arrive at the claimed
invention.” Belden Inc. v. Berk-Tek LLC, 805 F.3d 1064,
1073 (Fed. Cir. 2015). A reason to combine or modify the
prior art may be found explicitly or implicitly in market
forces, design incentives, the “interrelated teachings of
multiple patents,” “any need or problem known in the field
of endeavor at the time of invention and addressed by the
patent,” and “the background knowledge, creativity, and
common sense of the person of ordinary skill.” Perfect Web
Techs., Inc. v. Info-USA, Inc., 587 F.3d 1324, 1329 (Fed.
Cir. 2009) (quoting KSR, 550 U.S. at 418–21).
b. 	Claims 1, 8, and 15
Independent claims 1, 8, and 15 have substantially
similar limitations, and Patent Owner argues these claims
together. See PO Resp. 27–47. Accordingly, we focus our
analysis below on claim 1. To begin with, we evaluate
the parties’ contentions regarding whether Sourcefire
in view of the knowledge of a POSA teaches or suggests

83a
Appendix C
the limitations of claim 1. We then evaluate whether a
POSA would have been motivated to modify Sourcefire
to achieve the claimed invention and Patent Owner’s
objective evidence of nonobviousness.
(1) 	Limitation 1[i]
Petitioner contends that Sourcefire teaches limitation
1[i] reciting “a computing device comprising at least one
processor, a memory, and a communication interface.”
Pet. 32–33. In particular, Petitioner contends that
each Sourcefire 3D Sensor included a processor (CPU),
memory, and disk storage. Id. at 32 (citing Ex. 1004, 33–34,
106–107; Ex. 1003 ¶ 129). Petitioner also contends that
each 3D Sensor received packets through a communication
interface. Id. at 33 (citing Ex. 1004, 222–230; Ex. 1003
¶ 130). As to this claim element, Patent Owner does not
dispute Petitioner’s contentions explicitly. For the reasons
asserted by Petitioner, we determine that Petitioner has
shown that Sourcefire teaches limitation 1[i].
(2) 	Limitation 1[ii]
Petitioner contends that Sourcefire teaches limitation
1[ii] reciting “receiving, via the communication interface,
a plurality of hypertext transfer protocol secure (HTTPS)
packets.” Pet. 33–35. Specifically, Petitioner contends that
two of the 3D Sensor’s communication interfaces were
“inline” interfaces in which decoder rules, preprocessor
rules, and intrusion rules dropped or allowed packets
received into such decoders, preprocessors, and rules
engine via the inline communication interface of the 3D

84a
Appendix C
Sensor. Id. at 33–34 (citing Ex. 1004, 222–223, 234–235,
253–254, 257, 262–264, 435–439; Ex. 1003 ¶ 133). Petitioner
also contends that Sourcefire describes that the 5-tuple
information specified in the rule header of an intrusion
rule implemented by the network layer and transport layer
decoders, SSL preprocessor, and/or rules engine could
include destination port 443, which Sourcefire describes
as the destination port for HTTPS. Id. at 34 (citing Ex.
1004, 768–769, 256, 600; Ex. 1003 ¶ 13). Petitioner further
contends that Sourcefire discloses a preprocessor module
specifically intended for dedicated processing of SSL/TLS
traffic, the SSL preprocessor. Id. at 35 (citing Ex. 1004,
596–601; Ex. 1003 ¶ 135). As to this claim element, Patent
Owner does not dispute Petitioner’s contentions explicitly.
For the reasons asserted by Petitioner, we determine that
Petitioner has shown that Sourcefire teaches limitation
1[ii].
(3) 	Limitations 1[iii]—[v]
Other than Petitioner’s arguments in the Petition,
the parties’ arguments in their briefs do not specifically
address these limitations individually. Accordingly, we
consider these limitations together, as appropriate. We
first set forth Petitioner’s arguments in the Petition and
then analyze them in view of Patent Owner’s arguments
in the Response, as well as the arguments in the Reply
and Sur-Reply.
(a)	Petition
Limitation 1[iii] recites “responsive to a determination
by the at least one processor that at least a portion of the

85a
Appendix C
plurality of HTTPS packets have packet-header-field
values corresponding to a packet filtering rule stored
in the memory.” Petitioner contends that Sourcefire in
view of the knowledge of a POSA teaches or suggests
this limitation. Pet. 35–36. In particular, Petitioner
contends that the rule headers in every intrusion rule
specified 5-tuple information and that a POSA would have
understood the rules used by the 3D Sensor were stored in
a memory accessed by the 3D Sensor. Id. at 35 (citing Ex.
1004, 762–769, 358–359; Ex. 1003 ¶¶ 138–139). Petitioner
also contends that Sourcefire provides an example of
determinations made from analyzing packet-header-field
values, such as destination port 443, corresponding to
the rule header of a packet-filtering rule; according to
Petitioner, a POSA would have understood that the SSL
processor or rules engine implementing such a rule would
determine that packet-header-field values of at least a
portion of the received packets identified destination port
443, if such portion of the received packets were HTTPS
packets. Id. at 35–36 (citing Ex. 1004, 768–769, 256, 600;
Ex. 1003 ¶ 140).
Limitation 1[iv] recites:
applying, by the at least one processor, an
operator specified by the packet-filtering rule
to the at least a portion of the plurality of
HTTPS packets, wherein the operator specifies
one or more application-header-field-value
criteria identifying one or more transport layer
security (TLS)-version values for which packets
should be blocked from continuing toward their
respective destinations.

86a
Appendix C
Petitioner contends that Sourcefire in view of the
knowledge of a POSA teaches or suggests this limitation.
Pet. 36 – 43. In particular, Petitioner contends that
Sourcefire describes that a user could configure SSL
preprocessor rules and intrusion rules to look only for
packets traveling over standard SSL/TLS ports (e.g.,
port 443) or could configure such rules to be “adaptive”
to identify Record Protocol packets traveling over nonstandard ports. Pet. 38. According to Petitioner, Sourcefire
teaches that “[i]f a SSL/TLS identifier is found, the SSL
preprocessor was invoked to process the now-identified
Record Protocol packets using the SSL keyword(s) and
arguments of the preprocessor rules and intrusion rules
even if the packets came over a nonstandard SSL/TLS
port.” Id. at 37–38 (citing Ex. 1004, 598, 697–701; Ex. 1003
¶ 146). Petitioner contends Sourcefire describes that the
keyword “ssl_version” could be included in such intrusion
rules and used to block harmful, or allow benign, Record
Protocol packets. Id. at 39–40 (citing Ex. 1004, 827–828,
491, 597–601, 435–439; Ex. 1003 ¶ 147). According to
Petitioner, it would have been obvious to a POSA that, for
traffic in versions of SSL/TLS later than SSLv2 (SSLv3,
TLS 1.0-TLS 1.2),10 the version could be obtained from
the Record Header of Record Protocol packets and that
the SSL preprocessor must look at the Record headers
in order to parse such packets at all. Id. at 40 (citing
10. Petitioner contends that Sourcefire teaches that “SSLv2
may have vulnerabilities associated with it” and that “[s]ecurity
vulnerabilities with SSLv2 were also widely known.” Pet. 41–42
(citing Ex. 1004, 827); id. at 42 n.4 (citing Ex. 1037, Ex. 1039, Ex.
1016; Ex. 1003 ¶ 152).

87a
Appendix C
Ex. 1003 ¶ 149).11 Thus, Petitioner contends that a POSA
“understood that Sourcefire taught the use of ssl_version
as a keyword, and thus it could be used as an applicationlayer header field value in a packet-filtering rule” to pass
or block the associated packet whose SSL/TLS version
matched the keyword. Id. at 40–42.
Limitation 1[v] recites:
responsive to a determination by the at least
one processor that one or more packets, of the
at least a portion of the plurality of HTTPS
packets, have one or more application-headerfield values corresponding to one or more TLSversion values of the one or more TLS-version
values for which packets should be blocked from
continuing toward their respective destinations.
Petitioner contends that Sourcefire in view of the
knowledge of a POSA teaches or suggests this limitation.
Pet. 43–44. In particular, Petitioner contends, as discussed
11. In the Petition, Petitioner also relied on Sourcefire’s
“adaptive mode,” which Petitioner asserted can change how SSL
preprocessing works. Pet. 38–39 (citing Ex. 1004, p. 598, 697–701;
Ex. 1003 ¶ 146). Petitioner argued Sourcefire discloses that when
adaptive profiles are enabled, “the preprocessor engine checks
each packet for service identifiers to see if the packet is SSL
traffic.” Ex. 1004, 598; see also id. at 600 (“To check each packet for
SSL identifiers, enable adaptive profiles.”). In its Response, Patent
Owner argued that Sourcefire’s adaptive mode is not applicable
to the challenged claims. See PO Resp. 33–37. Petitioner did not
attempt to rebut Patent Owner’s argument and stated it “is simply
not relevant to the claim limitations.” Reply 17.

88a
Appendix C
above, that Sourcefire discloses packet-filtering rules
using the ssl_version keyword to identify packets having
the specified SSL or TLS version and discloses that, if
the packet data matched the specified rule conditions,
the rule triggers. Id. at 43 (citing Ex. 1004, 761; Ex. 1003
¶ 156). Petitioner also contends that Sourcefire discloses
that when a drop rule was triggered, the IPS dropped
(i.e., blocked) the packet. Id. at 43–44 (citing Ex. 1004,
761; Ex. 1003 ¶ 157).
Limitation 1[vi] recites “applying, by the at least one
processor, at least one packet-transformation function
specified by the operator to the one or more packets to block
each packet of the one or more packets from continuing
toward its respective destination.” Petitioner contends that
Sourcefire in view of the knowledge of a POSA teaches or
suggests this limitation. Pet. 44. Specifically, Petitioner
contends, and we agree (as discussed supra), the ’552
patent describes that passing or blocking transmission
of a packet is a “packet transformation function.” Id.
(citing Ex. 1001, 9:26–40). Petitioner also contends that
a POSA understood that Sourcefire discloses that the
TLS version value for a packet could be used to apply a
packet transformation function (block or drop) to block the
packet from continuing toward its destination. Id. (citing
Ex. 1003 ¶ 160).
(b) Analysis
(i) “determination”
In its Response, Patent Ow ner contends that
Sourcefire does not disclose (1) a “determination” that

89a
Appendix C
some number of “HTTPS packets have packet-headerfield values corresponding to a packet filtering rule”12
and (2) a “determination” that some of those “HTTPS
packets . . . [have] one or more application-header-field
values corresponding to one or more TLS-version values”
based on an operator specified by the packet filtering
rule.13 PO Resp. 27, 38–39. Patent Owner argues that
rather than determining that “an HTTPS packet includes
the application-header-field value,” Sourcefire discloses
“invoking the SSL preprocessor, which previously
extracted the SSL version information for that session
from a reassembled TCP stream” (id. at 27 (citing Ex.
2002 ¶ 81; Ex. 1004, 596–597 and 628)). Patent Owner
states that Dr. Staniford confirmed this aspect of
Sourcefire’s operation during cross-examination (id. at
27–28 (citing Ex. 2001, 120:19–123:17)). Patent Owner also
argues that the SSL version information extracted by the
SSL preprocessor is not determined to be “in an HTTPS
packet, as required by the challenged claims,” but is
extracted from “handshake and key exchange messages”
that a POSA would understand are not HTTPS packets,
but rather “application-layer messages reassembled from
a received TCP stream.” Id. at 30–31 (citing Ex. 2001
¶ 86; Ex. 1004, 596). Stated differently, Patent Owner
asserts that Sourcefire does not disclose these limitations
because Sourcefire “does not inspect HTTPS packets,”
but extracts information from a reassembled TCP stream.
See id. at 25–26, 41.
12. See, e.g, limitation 1[iii].
13. See, e.g., limitation 1[iv].

90a
Appendix C
According to Patent Owner, Petitioner incorrectly
argues that “a POSA understood that Sourcefire
describes the use of SSL/TLS rule keywords to invoke
the application-layer SSL preprocessor and extract
information about SSL or TLS version and session state
from Record headers in packets for an encrypted session”
(see Pet. 37) because Sourcefire’s SSL preprocessor
extracts the SSL version information from reassembled
handshake messages during the SSL handshake, “well
before any rule incorporating the ssl_version keyword
invokes the SSL [p]reprocessor.” Id. at 31–32 (citing Ex.
2002 ¶ 88, Ex. 1004, 596–597). Thus, Patent Owner asserts
that the SSL preprocessor “maintains state information
as it inspects the SSL handshake” by evaluating the
reassembled handshake messages and then returns that
maintained information if and when the SSL preprocessor
is later invoked by the rules engine. Id. at 32 (citing
Ex. 2002 ¶ 89, Ex. 1004, 597). Moreover, Patent Owner
asserts that Petitioner incorrectly argues that “Sourcefire
discloses that the SSL preprocessor implemented the SSL
preprocessor rules and intrusion rules, including SSL
keywords (e.g., ssl_version)” because it is Sourcefire’s
“rules engine” that uses the “ssl_version keyword,” which,
rather than specifying any application-level packet-header
information, merely requests the preprocessor to return
the SSL version it already extracted from other packets
associated with that session. Id. at 37 (citing Ex. 2002
¶ 96, Ex. 1004, 827).
Regarding the “determination” limitations of the
claims (see, e.g., limitations 1[iii] and 1[v]), Petitioner
argues that neither the ’552 patent nor the claims are

91a
Appendix C
limited to any specific method of determining a TLS
version of any HTTPS packet. Reply 10. Petitioner also
argues that the claims do not require “inspection” of the
application header fields of any packets, but rather require
a “determination” that “one or more packets of . . . the
plurality of HTTPS packets, have one or more applicationheader-field-values corresponding to one or more TLS
version values,” without requiring any specific method of
how the determination is made. Id. at 12–13.
In response, Patent Owner asserts that Petitioner
misrepresents the express claim language and that the
’552 patent teaches how to determine that an HTTPS
packet has application-header-field value corresponding to
a TLS-version value for which packets should be blocked.
Sur-Reply 9–11 (citing Ex. 1001, 8:8–18). Patent Owner’s
argument is not persuasive. The ’552 patent does not
teach a specific procedure or “how” to determine what
an HTTPS packet contains, but merely states that a
particular operator “may accept as input an IP packet.”14
Ex. 1001, 8:8–10. Patent Owner does not identify any
specific claim language requiring “inspection” of the
application header fields of HTTPS packets. The claims
14. Furthermore, to the extent Patent Owner contends that
claim 1 should be limited by an example in the Specification of
the ’552 patent, which purportedly teaches “how to determine
that an HTTPS packet . . . has an application-header-field value
. . . for which packets should be blocked” (see Sur-Reply 10–11),
Patent Owner has not persuasively explained why doing so is
warranted, and we decline to read any such limitations into the
claim. See SuperguideCorp. v. DirecTV Enters., Inc., 358 F.3d
870, 875 (Fed. Cir. 2004).

92a
Appendix C
require only a “determination” that “one or more packets
of . . . the plurality of HTTPS packets, have one or more
application-header-field-values corresponding to one or
more TLS version values,” rather than an “inspection” of
the HTTPS packets. Thus, Patent Owner’s argument is
not persuasive because it is not commensurate with the
scope of the claims. See In re Self, 671 F.2d 1344, 1348
(CCPA 1982) (“[A]ppellant’s arguments fail from the outset
because . . . they are not based on limitations appearing
in the claims.”).
Petitioner arg ues, and we ag ree, that Patent
Owner admits that ‘“[a]s Sourcefire’s SSL preprocessor
encounters handshake messages, it ‘extracts state and
version information from specific handshake fields. Two
fields within the handshake indicate the version of SSL
or TLS used to encrypt the session and the stage of the
handshake.’” Reply 13 (citing PO Resp. 28, citing Ex.
1004, 825). Petitioner also argues, and we agree, that
Patent Owner further admits ‘“Sourcefire discloses using
ssl_version keywords to detect SSL or TLS version being
used for a particular session.”’ Id. (citing PO Resp. 28,
citing Ex. 1004, 597). Moreover, Petitioner argues, and
we agree, that the “header of a post-handshake HTTPS
packet will have the same TLS version value as previously
identified in the handshake HTTPS packet associated with
that session” because Dr. Orso “attested that all posthandshake packets for a particular HTTPS session are
encrypted using the same TLS version under almost all
circumstances.”15 Id. (citing Ex. 1041, 171:6–174:16). Thus,
15. In view of Dr. Orso’s testimony, we are not persuaded by
Patent Owner’s argument that Petitioner “cites no evidence” to

93a
Appendix C
as Petitioner asserts, and we agree, because the claims
do not require that each packet in a session be inspected
to determine the TLS version for the respective packet,
“Sourefire’s disclosure of using a handshake packet to
‘determine’ that one or more HTTPS packets have an
application-header-field-value corresponding to one or
more TLS versions satisfies the recited claim limitation.”16
Id.
Petitioner further argues that, during his crossexamination, Patent Owner’s expert, Dr. Orso, confirmed
that Sourcefire in view of the knowledge of a POSA teaches
the “determination” limitations. Id. at 14. In that regard,
Petitioner argues that Dr. Orso “confirmed that a POSA
would understand that a handshake message could fit into
a single application packet of a single IP packet and that
such a packet would include a TLS version value. Id. (citing
Ex. 1041, 161:15–163:7, 171:6–173:5). Petitioner asserts
that Dr. Orso also confirmed that the ’552 Specification
teaches that a handshake packet that includes a TLS
support its view that “any given post-handshake HTTPS packet
will have any TLS version values.” Sur-Reply 14. In addition, as
Patent Owner acknowledged, a person of ordinary skill would have
understood that when TLS protocol is used, information about TLS
version always is located in the packet header of the first packet
in the message. See Tr. 42:10–43:1.
16. We are not persuaded by Patent Owner’s argument
that this is an “entirely new rationale,” which should be ignored
(Sur-Reply 12–13), because this argument was made by Petitioner
in response to Patent Owner’s arguments in its Response that
Sourcefire does not teach the “determination” limitations. See,
e.g., PO Resp. 25–27, 30–32, 38–39.

94a
Appendix C
version 1.0 value would be blocked and, by doing so, the
session would terminate (Ex. 1041, 171:6–177:7), thereby
effectively blocking all remaining packets in that session.
Based on Dr. Orso’s testimony, we agree with Petitioner’s
argument.
Patent Owner, however, disputes this argument for
several reasons: (1) Petitioner’s evidence demonstrates
that “a TLS handshake message is not an HTTPS packet
because the handshake occurs before any HTTPS session
begins;” (2) “because the SSL preprocessor operates on
reassembled handshake messages rather than HTTPS
packets, the SSL preprocessor does not make any
determination tha[t] an HTTPS packet includes any
data regardless of whether the entire message might
have fit within a single pack;” and, (3) because the SSL
preprocessor does not implement intrusion rules, “the
extraction of the version information from a handshake
message is not a determination that any packets includes
application-header-field values for which packets should
be blocked.” Sur-Reply 14–15.
We do not agree with Patent Owner’s argument. Even
assuming arguendo that Patent Owner is correct that
Sourcefire discloses only obtaining TLS version information
from reassembled handshake messages, we find that
Sourcefire still teaches a determination that a packet
comprises TLS version information.17 It is undisputed
17. As Petitioner argues, and we agree, Patent Owner’s
argument that the rules engine inspects the stream as a single
reassembled entity, rather than inspecting only the individual
packets, “is not relevant” because the claims “do not require
inspecting only the individual packets.” Reply 16.

95a
Appendix C
that such reassembled or reconstructedmessages consist
of packets. See Tr. 35:4–6, 39:14–16. According to Patent
Owner, the technology of the claimed invention “works
because the [TLS version] information we’re looking for
is always going to be in the first packet.” Id. at 35:6–8.
In other words, as Patent Owner acknowledged, a person
of ordinary skill would have understood that when TLS
protocol is used, information about TLS version always
is located in the packet header of the first packet in the
message. See id. at 42:10–43:1; Ex. 1041, 194:17–23.
The sole difference in this regard between claim
1 and the teachings of Sourcefire, according to Patent
Owner, is that claim 1 recites determining that a packet
(i.e., the first packet of the message) comprises TLS
version data, whereas Sourcefire teaches determining
that the reassembled handshake message comprises TLS
version data by extracting that data from the first packet
of the message. See Tr. 40:3–12. We find that a person
of ordinary skill would have understood that, in both
instances, the relevant data is located in the first packet
of the message (e.g., a handshake message). Whether the
system of Sourcefire itself recognizes that fact or deduces
it is irrelevant; the relevant question is whether a person
of ordinary skill would have been taught the recited
determination (i.e., determining that a packet comprises
TLS version data) based on Sourcefire and his/her own
knowledge. See In re Keller, 642 F.2d 413, 425 (CCPA
1981) (“The test for obviousness is not . . . that the claimed
invention must be expressly suggested in any one or all
of the references. Rather, the test is what the combined
teachings of the references would have suggested to those
of ordinary skill in the art.”).

96a
Appendix C
Thus, based on Dr. Orso’s testimony as cited above, we
agree with Petitioner’s argument that, even under Patent
Owner’s view of the claims and Specification, the portions
of Sourcefire cited by Patent Owner (see PO Resp. 31–37,
discussed above) disclose the “determination” limitations.
Id.
(ii) “operator”
Patent Owner argues that Petitioner has not shown
that Sourcefire in view of the knowledge of a POSA
discloses applying the claimed “operator” that “specifies
one or more application-header-field-value criteria
identifying one or more transport layer security (TLS)version values for which packets should be blocked from
continuing toward their respective destinations,”18 as
recited in claims 1, 8, and 15. PO Resp. 39–43. Patent
Owner argues that the claimed “operator” specifies
both “application-header-field-value criteria” and “a
packet transformation function.”19 Id. at 41. According
to Patent Owner, although Petitioner argues that “a
POSA understood that Sourcefire discloses that the
TLS version value for a packet could be used to apply a
packet transformation function (block or drop) to block
the packet from continuing toward its destination,” it
does not argue that the alleged “packet transformation
18. See, e.g., limitation 1[iv].
19. We agree with Patent Owner’s argument based on the
express terms of the claims (see § II.A.2.a) and our discussion
of the term “packet transformation function” in the Institution
Decision (see id.).

97a
Appendix C
function” is specified by an “operator,” as recited in the
claims. Id. at 41–42 (citing Pet. 44). Patent Owner argues
that a packet transformation function is not specified by
an “operator” in Sourcefire because Sourcefire works on
the basis of Snort rules that include a “rule header” that
includes “the rule’s action.” Id. at 42 (citing Ex. 2002 ¶ 104,
Ex. 1004, 762–763); see Ex. 1029 (describing “Snort”).
Patent Owner asserts that this distinction is not trivial
because, as discussed in regard to claims 2, 9, and 16,
“Sourcefire is not capable of designing a packet-filtering
rule specifying an operator that applies different packet
transformation functions based on different applicationlayer-packet-header criteria.” Id. at 42–43.
Patent Owner’s arguments regarding the claimed
“operator” are not persuasive for several reasons. First,
Petitioner argues that “Sourcefire discloses an operator
in the form of the packet-filtering rules, which specify a
keyword and associated arguments (application-layerpacket-header criteria) and the Rule Action (packet
transformation function) that can be triggered.” Reply
17 (citing Pet. 27). Petitioner also argues that the Petition
“identified how a POSA understood that Sourcefire
teaches use of the ssl_verison keyword in a packet filtering
rule, specifying an application-header-field identifying a
TLS-version value, e.g., TLS 1.0, for which packets should
be blocked where the associated packets were encrypted
using the specified TLS version, e.g., the SSL/TLS
version in the associated packets matches the keyword.”
Id. at 18 (citing Pet. 39–42 (citing Ex. 1004, 827–828, 491,
597–601, 435–439; Ex. 1003 ¶ 147–149). Thus, we agree
with Petitioner’s argument that Sourcefire discloses an

98a
Appendix C
“operator” that specifies (1) the keyword and argument
that indicates “application-header-field-value criteria,”
e.g., TLS version 1.0, and (2) a “packet transformation
function,” e.g., blocking packets that match the criteria.
Id. at 18.
Second, we are not persuaded by Patent Owner’s
argument that because the action of the rule is in the “rule
header,” it is not specified by an “operator.” PO Resp. 42–43.
Patent Owner states that because “the operator specifies
both the application-layer-packet-header criteria and the
packet transformation function, the ’552 patent can use
the same rule to specify different packet transformation
functions for different application-layer-packet-header
criteria.” Id. Petitioner argues that Sourcefire includes
the identical disclosure because Sourcefire teaches (1)
the use of different ssl_version keyword arguments or
criteria (Reply 18–19 (citing Ex. 1004, 828)) and (2) that for
each of these keywords and arguments “a corresponding
action of pass (allow), alert (and pass), or drop (block)
can be specified” (id. at 19 (citing Pet. 27 (citing Ex. 1004,
761–770)). Based on the cited portions of Sourcefire, we
agree with Petitioner. Although Patent Owner asserts
that Petitioner “egregiously misrepresents the disclosure
of Sourcefire” (Sur-Reply 16 (citing Ex. 1004, 761, 763)),
Patent Owner has not provided persuasive reasoning to
support its assertion that Petitioner “misrepresents” the
disclosure of Sourcefire or its argument that “only one
rule action may be specified per rule.” Thus, we agree
with Petitioner that “Sourcefire has the same functionality
of the ’552 [p]atent and can use the same rule to specify
different packet transformation functions for different
application-layer-packet-header criteria.” Reply 19.

99a
Appendix C
In addition, Patent Owner argues that Petitioner has
not shown that Sourcefire discloses “that the operator is
applied responsive to the determination that ‘a portion of
the plurality of HTTPS packets have packet-header-field
values corresponding to a packet filtering rule stored
in the memory,’ as claimed.” 20 PO Resp. at 44. Patent
Owner asserts that a two-stage process is reflected in
each independent claim, “wherein first the computing
system determines that a first portion of packets has
packet header data that matches a packet filtering rule,”
and “[s]econd, and responsive to that determination,” the
computing system applies an operator. Id. at 45. Patent
Owner also argues that “Sourcefire does not disclose this
claimed two-stage process” (id. (citing Ex. 2002 ¶ 108)),
and “[n]or would it have been obvious to modify Sourcefire
to meet the language of the claims” (id. (citing PO Resp.
§ VI.A.2.b)). Patent Owner further argues that “[t]his twostep process permits different operators to be applied to
the different portions of received packets depending on
the rule criteria matched in the first step.” Id.
We are not persuaded by Patent Owner’s argument.
Instead, for the reasons explained by Petitioner in the
Reply, we agree with Petitioner that, as set forth in the
Petition, Sourcefire discloses applying an operator in
two-stage packet filtering. Reply 19–22. In that regard,
for example, Petitioner argues that, as set forth in the
Petition, Sourcefire discloses that “[t]he rules engine
implemented intrusion rules to determine whether the
packet headers . . . of received packets triggered one or
20. See, e.g., limitation 1[iii].

100a
Appendix C
more of such rules” and describes “filtering packets based
on packet header information including the 5-tuple, just
like the Stage I evaluation described in the ’552 patent.”
Id. at 19–20 (citing Pet. 25, 31 (citing Ex. 1004, 256–259,
761–770; see also Pet. 25–28, 56–58)). Petitioner also
argues that these cited excerpts of Sourcefire describe
that the intrusion rules, which included user customizable
rule header and rule options criteria, were organized
into groups or “subsets” based on commonalities in the
respective rule header criteria (e.g., 5-tuple, direction
indicator, etc.). Id. at 20 (citing Ex. 1004, 259, 761–770
(showing customizable rule header criteria)). Petitioner
further argues that these excerpts of Sourcefire describe
that “as packets arrive at the rules engine, it first checks
whether packet-header-field values in the packets match
this rule header criteria and, only if so, does it ‘test’
whether the remainder of the rule criteria (e.g., rule
keywords and arguments) match to trigger the Rule
Action.” Id. (citing Ex. 1004, 259 (“As packets arrive at
the rules engine, it selects the appropriate rule subsets to
apply to each packet.”), 766–768 (“You can restrict packet
inspection to the packets originating from [specific IP
addresses/specific ports] or those destined to [a specific IP
address/specific ports].”), 761 (discussing alert, pass, drop
rule actions), 764 (“tests traffic” in example rule header
values table), 765–766 (specifying rule actions), 358–359
(“A drop rule is an intrusion rule . . . whose rule state
is set to Drop and Generate Events.”))). Patent Owner
does not respond to these arguments in the Sur-Reply.
See generally Sur-Reply. In view of these disclosures of
Sourcefire, we agree with Petitioner that in the language
of the dependent claims, and as outlined in the Petition,

101a
Appendix C
Sourcefire discloses determining whether to apply an
operator in a two-stage packet filtering operation:
if a first portion of packets match certain rule
header criteria (e.g., specific addresses/specific
ports), they will be evaluated against a first
“subset” of rules (e.g., including the TLSversion packet-filtering rules) – some of these
packets may pass and some may be blocked.
Pet., 56-58. If a second portion of packets does
not match this rule header criteria for the first
“subset” of rules (e.g., different addresses/
different ports), they will not be evaluated
against the remainder of the rule criteria
(e.g., rule keywords and arguments) for the
first “subset” of rules. Id. And, if this second
portion of packets matches certain rule header
criteria of a second “subset” of rules, they will
instead be evaluated against the remainder of
the rule criteria for the second “subset” of rules
(i.e., without applying the TLS-version packetfiltering rules).
Reply 21–22.
For the above reasons and on the complete record
after trial, we determine Petitioner has shown by a
preponderance of the evidence that Sourcefire in view
of the knowledge of a person of ordinary skill in the art
teaches or suggests each limitation of claim 1.

102a
Appendix C
(4) Motivation to Modify Sourcefire
Patent Owner contends that Petitioner has not
demonstrated that a person of ordinary skill would have
been modified Sourcefire to reach the claimed invention
of the ’552 patent, specifically reciting limitation 1[iv].
PO Resp. 47. Specifically, Patent Owner argues that
Petitioner describes no motivation to modify Sourcefire
to practice “the blocking element” of the claims because
Petitioner’s argument does not explain why a POSA would
have written the rule recited in the claim and Petitioner’s
argument lacks evidentiary basis, either in Sourcefire or
Dr. Staniford’s declaration. Id. at 48–51. Patent Owner also
argues that Petitioner describes no motivation to modify
Sourcefire to practice “the operator element” of the claims
because (1) Petitioner asserted in the Petition that a POSA
understood Sourcefire taught the use of ssl_version as a
keyword, and thus, it “could be used as an applicationlayer header field value in a packet-filtering rule” (citing
Pet. 40–41) and (2) as a matter of law, “the question is not
whether a POSA could have modified Sourcefire,” but
whether a POSA would have been motivated to make the
modification. Id. at 51–53.
We are not persuaded by Patent Owner’s arguments
for several reasons. Regarding Patent Owner’s arguments
that the Petition presents insufficient support for its
assertion that a person of ordinary skill would have been
motivated to practice “the blocking element” and “the
operator element” (PO Resp. 47–53; Sur-Reply 17–18), “the
inferences and creative steps a person of ordinary skill in
the art would employ” can supply a motivation to combine

103a
Appendix C
or modify teachings, and “[a] person of ordinary skill is
also a person of ordinary creativity, not an automaton.”
KSR, 550 U.S. at 401, 421. In addition, Dr. Staniford’s
Declaration, 21 and the Petition, provide evidence of the
known vulnerabilities with SSLv2, SSLv3, and TLS 1.0,
which explains why a POSA would have been motivated
to write an intrusion rule to block certain packets using
these versions. Ex. 1003 ¶ 153; see Reply (citing Pet. 17,
30, 41–43). Moreover, we are not persuaded by Patent
Owner’s argument that the Petition failed, as a matter of
law, to show a motivation to modify Sourcefire to practice
“the operator element” based on the distinction between
“could” and “would.” A fair reading of the Petition, and
Dr. Staniford’s declaration, shows Petitioner argued that,
given the understanding of a person of ordinary skill (i.e.,
what a person of ordinary skill “understood”), such a
person “could” use a teaching or capability of Sourcefire
(i.e, such a person had reason to use such a teaching) and
that using such teaching “would” have the predictable
effect of achieving the claimed feature. See, e.g., Pet. 42–43
(“POSA understood that by using the ssl_version keyword,
packet-filtering rules could be written to either pass or
block the associated packets whose SSL/TLS version
matched the keyword as taught by Sourcefire, and that
doing so would have the predictable benefit of achieving
increased network security by protecting a network
against known vulnerabilities.”) (emphasis added).
21. Based on the Petition and Dr. Staniford’s Declaration as
a whole, we are unpersuaded by Patent Owner’s arguments that
a particular paragraph of Dr. Staniford’s Declaration “merely
repeats the argument from the Petition,” and that Petitioner
improperly incorporated evidence on this issue by reference via
the Declaration. See PO Resp. 50.

104a
Appendix C
As discussed supra, Sourcefire explains the use of
the “ssl_version” keyword in designing rules, and also
teaches that rules can be drop rules that cause packets
to be dropped (i.e., blocked) when triggered. We find that
a person of ordinary skill would have been sufficiently
motivated and informed by Sourcefire to write an
intrusion rule with the ssl_version keyword to block
packets whose SSL/TLS version matched the keyword,
as discussed above. See, e.g., Pet. 39–40 (citing Ex. 1004,
827–828, 491, 597–601, 435–439; Ex. 1003 ¶ 147–148); see
also id. at 40–41 (citing Ex. 1003 ¶¶ 83–88, 149–151); id.
at 42 (citing Ex. 1004, 254, 435–439, 697–701, 761–762; Ex.
1003 ¶¶ 83–88, 153).
(5) 	O b j e c t i v e I n d i c i a
Nonobviousness

of

Before determining whether a claim is obvious in
light of the prior art, we consider any relevant evidence
of secondary considerations—objective indicia—of
nonobviousness. See Graham, 383 U.S. at 17. Patent
Owner presents evidence of four such considerations:
(1) long-felt but unresolved need, and failure of others,
(2) industry praise, (3) skepticism of experts, and (4)
commercial success. PO Resp. 57–69.
“In order to accord substantial weight to secondary
considerations in an obviousness analysis, the evidence
of secondary considerations must have a nexus to the
claims, i.e., there must be a legally and factually sufficient
connection between the evidence and the patented
invention.” Fox Factory, Inc. v. SRAM, LLC, 944 F.3d

105a
Appendix C
1366, 1373 (Fed. Cir. 2019) (internal quotations omitted).
A nexus is presumed when “the patentee shows that the
asserted objective evidence is tied to a specific product
and that product ‘embodies the claimed features, and
is coextensive with them.’” Id. (quoting Polaris Indus.,
Inc. v. Arctic Cat, Inc., 882 F.3d 1056, 1072 (Fed. Cir.
2018)). If the product is not coextensive with the claims
at issue—for example, if the patented invention is only a
component of the product—the patentee is not entitled
to a presumption of nexus. See id. (citing Demaco Corp.
v. F. Von Langsdorff Licensing Ltd., 851 F.2d 1387, 1392
(Fed. Cir. 1988)).
(a) 	Long-felt but unresolved need,
and failure of others
According to Patent Owner, the ’552 patent “satisfied
a long-felt need in the industry that others had failed to
solve—namely, how to protect against ‘[a] category of
cyber attack known as exfiltrations.” PO Resp. 59. Patent
Owner argues that “the long felt need for the scalable
solution to the problem of exfiltration attacks provided by
the ’552 [p]atent was recognized as far back as 2010.” Id.
at 61–62 (citing Ex. 2013, 5–6; Ex. 2002 ¶ 126). According
to Patent Owner, the failure of others in the industry to
provide proactive network protection that could scale
to larger networks was recognized in a White Paper,
referred to as “the ESG Paper.” Id. at 62 (citing Ex.
2006, 1, 3). Patent Owner relies on a portion of the ESG
Paper that Patent Owner argues provides a “laudatory
description” of Centripetal’s “RuleGATE” product. Id. at
63 (citing Ex. 2006, 7).

106a
Appendix C
With respect to nexus, Patent Owner asserts that
“Centripetal’s solution to the long felt need of how to
meaningfully operationalize CTI is tied to the invention
disclosed and claimed in the ’552 [p]atent.” Id. (citing Ex.
2002 ¶ 129). In that regard, Patent Owner argues that the
claims of the ’552 patent are generally directed to a twostep packet-filtering technique that allows Centripetal’s
solutions to scale: the second stage processing may be
carried out on the subset of all received packets; and, both
stages are applied to individual HTTPS packets such that
there is no need for “time and resource intensive packet
reassembly procedures.” Id. at 64 (citing Ex. 2002 ¶ 129).
Relying on Dr. Orso’s testimony, Patent Owner further
argues that the best-in-class performance of Centripetal’s
TIG is due “in large part to the fact that the ’552 [p]atent’s
packet-filtering rules are applied on a packet-by-packet
basis, allowing the TIG to operate as a ‘network filter’
rather than a traditional IPS.” Id. at 64–65 (citing Ex.
2002 ¶ 130; Ex. 2006, 7–8).
Patent Owner’s nexus arguments and evidence,
however, are insufficient to establish a nexus between
the alleged long-felt but unresolved need, and failure of
others, and the claimed invention. First, no analysis is
presented to demonstrate that the RuleGATE product is
coextensive with any claim of the ’552 patent. Thus, Patent
Owner is not entitled to a presumption of nexus. See Fox
Factory, 944 F.3d at 1373. Second, insufficient analysis
is presented to show that the evidence of a purported
long-felt but unresolved need is connected to the patented
invention. Patent Owner does not adequately explain how
the purported “packet-by-packet” nature of the claimed

107a
Appendix C
method specifically addresses the threat of exfiltrations.
Nor does Patent Owner explain how the patented invention
achieves a “scalable” solution to exfiltrations. See Tr. 56:4–
11 (Patent Owner acknowledging the claims do not require
scalability or “larger rule sets” than prior devices). With
respect to the “challenges” reported in the ESG Paper—
i.e., “[l]ack of automation,” “the inability to use feeds ‘in a
meaningful way to live network traffic,’” and “the ability to
‘turn[] [cyber threat intelligence] into actionable insight”
(PO Resp. 63)—Patent Owner provides no analysis as
to how the patented invention purportedly meets those
challenges. Moreover, the paper praising Centripetal’s
product identifies features contributing to the product’s
solutions that are not tied to any aspect of the challenged
claims, such as “dynamically monitor[ing] for advanced
threats using intelligence,” and “converting indicators
to rules that drive actions across a risk spectrum, i.e.,
logging, content capture, mirroring, redirection, shielding,
and advanced threat detection.” See Ex. 2006, 7.
Therefore, we conclude that a nexus was not proven
between the purported long-felt but unresolved need
identified by Patent Owner, and the patented invention
of the ’552 patent.
(b) 	Industry praise
Patent Owner cites the ESG Paper (Ex. 2006), a
Gartner article (Ex. 2007), and an American Banker
article (Ex. 2011) as evidence of industry praise. PO
Resp. 65–66. Similar to its long-felt need contentions,
however, Patent Owner does not provide sufficient analysis

108a
Appendix C
or explanation to establish the requisite nexus. Patent
Owner again provides no analysis demonstrating that any
Centripetal product is coextensive with the challenged
claims, so no presumption of nexus is applied. See Fox
Factory, 944 F.3d at 1373. Additionally, the cited praise
of Centripetal products is not linked sufficiently to the
challenged claims, including because Patent Owner failed
to address lauded features with no relationship to the
claims.
For example, Patent Owner cites the ESG Paper
as praising the “highest performance” of Centripetal’s
product, its ability to process “hundreds of millions of
indicators from thousands of feeds,” “synthesizing into
a network policy,” enforcing over five million “complex
filtering rule[s]” with “at-least a dozen unique fields which
had to be evaluated and applied bi-directionally and
without state,” etc. Id. (citing Ex. 2006, 7; Ex. 2002 ¶ 131).
None of these features appear to be in the challenged
claims. Patent Owner does not address whether they
are part of the claimed invention or, if not, their relative
contribution to the industry praise compared to any actual
features of the claimed invention.
Regarding the Gartner article, Patent Owner notes
that Gartner praises Centripetal’s “ability to instantly
detect and prevent malicious connections based on
millions of threat indicators at 10-gigabit speeds,”
“the largest number of third-party threat intelligence
service integrations,” and using “5 million indicators
simultaneously.” Id. at 66 (citing Ex. 2007, 5). Again,
insufficient analysis is presented to address how these

109a
Appendix C
features relate to the challenged claims. Patent Owner’s
reference to the American Banker article similarly suffers
from a lack of explanation. Id. (citing Ex. 2011, 14; Ex.
2002 ¶ 132).
The only nexus explanation provided is a conclusory
assertion that “the salutary benefits of Centripetal’s
[praised product] are made possible in large part by
the ’552 Patent’s network layer, packet-by-packet,
rule enforcement that foregoes deep inspection at the
application layer.” Id. at 66 (citing Ex. 2002 ¶ 133). Dr.
Orso’s testimony cited in support of this statement is
merely a near-verbatim copy of this conclusory statement
with no additional explanation. See Ex. 2002 ¶ 133; see
also 37 C.F.R. § 42.65(a) (“Expert testimony that does not
disclose the underlying facts or data on which the opinion
is based is entitled to little or no weight.”); TQ Delta, LLC
v. Cisco Sys., Inc., Nos. 2018-1766, 1767, slip op. at 10 (Fed.
Cir. Nov. 22, 2019) (“Conclusory expert testimony does not
qualify as substantial evidence.”) (citations omitted). As
a result, we find that Patent Owner has not established
a sufficient nexus between the cited industry praise and
the invention of the challenged claims.
(c) 	Skepticism of experts
Patent Owner asserts that “Dr. Staniford’s skepticism
regarding Centripetal’s solution to the exfiltration problem
as recited in the challenged claims weighs in favor of a
finding that the claims are patentable.” PO Resp. 68. This
argument misstates Dr. Staniford’s testimony because
Dr. Staniford did not express “skepticism regarding the

110a
Appendix C
viability of Centripetal’s products, which practice the ‘’552
[p]atent,” nor did he “opine that [Centripetal’s] solution
was impossible,” as Patent Owner argues. Id. Instead,
Dr. Staniford’s testimony concerned Sourcefire, and he
testified that he could not say “whether it’s absolutely
impossible to run Sourcefire in a stateless mode” and
that no POSA would propose to do that “because it’s not
a useful way to detect attacks anytime recently.” See Ex.
2001, 121:21–123:17. Thus, Patent Owner’s argument in
this regard is unsupported and conclusory. Moreover,
Patent Owner does not provide sufficient analysis or
explanation to establish the requisite nexus. See Fox
Factory, 944 F.3d at 1373. Patent Owner again provides
no analysis demonstrating that any Centripetal product is
coextensive with the challenged claims, so no presumption
of nexus is applied.
(d) 	Commercial success and licensing
Lastly, Patent Owner contends that the commercial
success of its RuleGATE product and the license taken by
Keysight Technologies to Centripetal’s patent portfolio,
which included the ’552 patent, are compelling secondary
considerations of nonobviousness. PO Resp. 68–69. We
disagree.
First, we note that the sole evidence cited for
the commercial success of the RuleGATE product, a
declaration by Mr. Jonathan Rogers of Centripetal, makes
no mention whatsoever of the ’552 patent. See Ex. 2016.
Rather, the Rogers Declaration is testimony that was
submitted in a different inter partes review challenging

111a
Appendix C
a different patent. See id. As such, there is no record
evidence supporting any nexus between the matters in
Mr. Rogers’ testimony on alleged commercial success and
the ’552 patent.
Second, as Patent Owner itself admits (PO Resp. 69),
the Keysight license was a “worldwide, royalty-bearing,
non-transferable, irrevocable, nonterminable, nonexclusive
license to Centripetal’s worldwide patent portfolio.” Ex.
2012, 83. No information is provided about crucial details
of this license license—e.g., how many patents comprise
the portfolio, the relative contributions of the patents in
the portfolio to the value of the license—such that we
could discern whether Keysight took the license “out of
recognition and acceptance of the subject matter claimed”
in the ’552 patent. See In re GPAC Inc., 57 F.3d 1573, 1580
(Fed. Cir. 1995). In fact, the record evidence indicates that
this license was taken to settle litigation (Ex. 2012, 88),
which diminishes its probative value as an indicator of
nonobviousness. See GPAC, 57 F.3d at 1580. Accordingly,
we find that Patent Owner has not provided sufficient
evidence to establish the requisite nexus between the
Keysight license and the ’552 patent. See id.
c. 	Claims 2–7
Claims 2–7 depend from independent claim 1. The
Petition sets forth arguments and evidentiary support
for each of claims 2–7. Pet. 44–58. Patent Owner presents
arguments regarding claims 2 and 7, but presents no
arguments regarding claims 3–6.

112a
Appendix C
With respect to claim 2, Patent Owner argues that
“Petitioner has not explained how Sourcefire can utilize
a single packet filtering rule that specifies two different
packet transformation functions (each specified by the
operator), as required by claims 2, 9, and 16.” See PO
Resp. 53–55. We are not, however, persuaded by this
argument because, as discussed supra, we determine
that Sourcefire “can use the same rule to specify different
packet transformation functions for different applicationlayer-packet-header criteria.” See § II.B.3.b.(3)(b)(ii).
Regarding claim 3, Petitioner contends that Sourcefire
discloses that rules could be written, which included the
most common HTTP methods of GET, PUT, POST, and
CONNECT as one or more of the rule criteria. Pet. 47
(citing Ex. 1004, 568, 786; Ex. 1003 ¶ 172). Petitioner also
contends that Sourcefire discloses that such rules can be
implemented by the HTTP inspect preprocessor and by
the rules engine and provides a specific keyword option
just to access the HTTP method. Id. at 48 (citing Ex. 1004,
785–786, 807, 435–439, 491; Ex. 1003 ¶¶ 173, 124). We find
Petitioner’s arguments and evidence to be persuasive.
Regarding claim 4, Petitioner contends that a POSA
understood that Sourcefire disclosed how a user would
have written a rule using the HTTP Method option of the
HTTP content keyword as part of the application-layer
rule criteria to invoke the HTTP inspect preprocessor to
identify a packet using the “PUT” HTTP method and to
block such a packet with certain application payload content
posing a threat from continuing towards its destination.” Id.
at 51–52 (citing Ex. 1004, 560, 568, 786; Ex. 1003 ¶ 184). We
find Petitioner’s arguments and evidence to be persuasive.

113a
Appendix C
Regarding claim 5, Petitioner asserts that Sourcefire
in view of the knowledge of a POSA discloses the
limitations of claim 5 for the reasons set forth with respect
to claims 3 and 4. Id. at 53–54. We agree with Petitioner’s
assertions and find Petitioner’s arguments and evidence
to be persuasive.
Regarding claim 6, Petitioner argues that Sourcefire
discloses each of the recited “comparing” limitations
because (1) Sourcefire defines the information contained
in the rule header of the packet-filtering rule (id. at 54–55
(citing Ex. 1004, 764, Ex. 1003 ¶ 194)) and the Rule Header
Values table provides examples of values found in the
packet header (id. at 55 (citing Ex. 1004, 764, Ex. 1003
¶ 195)) and (2) Sourcefire explains that the rule triggered
when the step of “comparing” the rule header value with
the packet header value of the packet received produced
a match (id. (citing Ex. 1004, 403, Ex. 1003 ¶ 196)). We
find Petitioner’s arguments and evidence to be persuasive.
With respect to claim 7, Patent Owner argues there
is no allegation in the Petition that Sourcefire discloses
a rule or that such a rule would have been obvious to a
POSA “that blocks all packets that do not ‘have packetheader-field values corresponding to [the] packet-filtering
rule’” of claim 1. PO Resp. 56–57. We are not persuaded
by this argument. As discussed supra (see § II.B.3.b.(3)
(b)(ii)), as set forth in the Petition, Sourcefire describes
“filtering packets based on packet header information
including the 5-tuple, just like the Stage I evaluation
described in the ’552 patent.” See Reply 19–20 (citing
Pet. 25, 31 (citing Ex. 1004, 256–259, 761–770; see also

114a
Appendix C
Pet. 25–28, 56–58)). Sourcefire also describes that “as
packets arrive at the rules engine, it first checks whether
packet-header-field values in the packets match this rule
header criteria and, only if so, does it ‘test’ whether the
remainder of the rule criteria (e.g., rule keywords and
arguments) match to trigger the Rule Action.” Id. (citing
Ex. 1004, 259 (“As packets arrive at the rules engine,
it selects the appropriate rule subsets to apply to each
packet.”)). Moreover, Sourcefire describes that “[y]ou can
restrict packet inspection to the packets originating from
[specific IP addresses/specific ports] or those destined
to [a specific IP address/specific ports].” Id. at 20 (citing
Ex. 1004, 766–768, 761 (discussing alert, pass, drop
rule actions)). Thus, as we determine supra, Sourcefire
discloses that if a second portion of packets does not match
the rule header criteria for the first “subset” of rules
(e.g., different addresses/different ports), they will not be
evaluated against the remainder of the rule criteria and
can be dropped or blocked as disclosed in Sourcefire. See
Ex. 1004, 761; § II.B.3.b.(3)(b)(ii). As such, we find that
Sourcefire in light of the knowledge of one of ordinary
skill in the art would have taught the limitations of claim 7.
d. 	Claims 8–21
Independent claim 8 recites an apparatus comprising
a processor and a memory storing instructions that, when
executed, performs substantially the same steps recited
in claim 1. Claims 9–14 depend from claim 8 and recite
limitations substantially the same as those of claims 2–7.
Petitioner relies on the same arguments and evidence for
claims 8–14 as for the corresponding claims 1–7. Pet. 58–63.

115a
Appendix C
Independent claim 15 recites non-transitory computer
readable media comprising instructions that, when
executed, cause substantially the same steps recited in
claim 1 to be performed. Similarly, claims 16–21 depend
from claim 15 and recite limitations substantially the
same as those of claims 2–7. Petitioner relies on the
same arguments and evidence for claims 15–21 as for the
corresponding claims 1–7. Id. at 63–69.
Patent Owner presents no arguments for independent
claims 8 and 15 other than those discussed supra for claim
1. Similarly, Patent Owner presents no arguments for
claims 9 and 16, and claims 14 and 21, other than those
discussed supra for claims 2 and 7, respectively.
e. 	Conclusion as to Obviousness
Based on Petitioner’s arguments and evidence
discussed above, we determine Petitioner has shown by
a preponderance of the evidence that Sourcefire in view
of the knowledge of a person of ordinary skill in the art
teaches or suggests each limitation of each challenged
claim. We further determine that Petitioner’s showing
that the claims are taught or suggested by Sourcefire in
view of the knowledge of a person or ordinary skill was
very strong, particularly in comparison to Patent Owner’s
showing with respect to the asserted objective indicia of
nonobviousness. As discussed above, we find that Patent
Owner has not established the requisite nexus between
the challenged claims and any of the asserted secondary
considerations. As such, we are unable to accord them
any substantial weight. See Fox Factory, 944 F.3d at
1373. Therefore, in weighing the totality of the evidence

116a
Appendix C
of record and the strength of the parties’ showings on
the inquiries underlying the question of obviousness, we
conclude that Petitioner has met its overall burden of
proving by a preponderance of the evidence that each of
the challenged claims would have been obvious in view of
Sourcefire and the knowledge of a person of ordinary skill.
C. 	Motions to Exclude
1. 	Petitioner’s Motion to Exclude (Paper 29, “Pet.
Mot.”)
Petitioner moves to exclude Exhibits 2003, 2005–2007,
2011–2013, and 2016. Pet. Mot. 1. Exhibits 2003 and 2005
did not form the basis for any aspect of this Decision. As
such, Petitioner’s Motion with respect to those exhibits
is moot.
For Exhibit 2016, the Rogers Declaration, Petitioner
asserts that it should be excluded under Rules 401, 402,
403, and 602 of the Federal Rules of Evidence. Pet.
Mot. 10–11. We agree with Patent Owner that exclusion
is unwarranted. Paper 33, 4–5. Mr. Rogers testifies
in the Declaration about his position at Centripetal,
his responsibilities (“overseeing all operations of the
business”), and his familiarity with Centripetal’s licensing
practices. Ex. 2016 ¶ 3. We are satisfied that this testimony
establishes sufficient personal knowledge of the subject
matter of his testimony, which concerns Centripetal’s
customers and its RuleGATE product. See generally Ex.
2016. Thus, we deny Petitioner’s objection under Rule 602.
With regard to Rules 401, 402, and 403, we note that Patent
Owner relies on Exhibit 2016 to support its arguments for

117a
Appendix C
commercial success, which specifically note the alleged
success of the RuleGATE product. PO Resp. 68. Although
the Rogers Declaration addresses a different patent than
the ’552 patent, its testimony regarding Centripetal’s
customers for the RuleGATE product generally meets the
threshold for relevance, and its purported shortcomings
as evidence go to its persuasive weight rather than its
admissibility. We also discern no risk of unfair prejudice.
Thus, Petitioner’s objection under Rules 401, 402, and 403
also are denied.
With respect to Exhibits 2005–2007 and 2011–2013,
Petitioner argues they should be excluded under Rules 401,
402, 403, 901, and as hearsay (under Rule 802). Pet. Mot.
7–9. We are not persuaded. Each of these exhibits is cited
by Patent Owner as evidence supporting its arguments
regarding objective considerations of nonobviousness,
including as evidence of industry praise and the existence
of a relevant license. See PO Resp. 46–53. Although
they may not identify the ’552 patent (Pet. Mot. 7), we
determine that they meet the threshold for relevance
nonetheless, and we discern no risk of unfair prejudice,
confusion, or waste of time. Regarding authentication, we
note that the Declaration of Jeffrey H. Price (Ex. 2017)
provides evidence of the source of each of these exhibits,
and we find that this information along with the distinctive
characteristics of the exhibits themselves (including dates,
titles, publication names, etc.) provide the necessary basis
for authentication. 22 With respect to Petitioner’s hearsay
22. We further note that Exhibits 2007 and 2011 are printed
material purporting to be from news sources, which are selfauthenticating under Rule 902(6).

118a
Appendix C
objections, we conclude first that Exhibits 2007 and 2011
are not hearsay because they are not relied on for the
truth of the matters asserted. See Fed. R. Evid. 801(c).
These exhibits are cited only as evidence of industry
praise; their relevance lies in that they include statements
from the industry allegedly praising Centripetal and its
products, not in whether that praise is true or accurate.
See PO Resp. 65–66. For the remaining exhibits, we deny
Petitioner’s hearsay objection under Rule 807 because we
conclude that the totality of the circumstances provides
sufficient indicia of trustworthiness—for example, these
exhibits are contemporaneous documents by third parties
produced for purposes that indicate their statements are
likely reliable (e.g., Keysight’s official Annual Report (Ex.
2012))—and these exhibits generally are highly probative
on the points underlying Patent Owner’s secondary
considerations allegations (e.g., industry praise) compared
to different evidence reasonably available to Patent
Owner. For the above reasons, we are not persuaded that
any of these exhibits should be excluded and, thus, we deny
Petitioner’s Motion to Exclude.
2. 	Patent Owner’s Motion to Exclude (Paper 30,
“PO Mot.”)
Patent Owner moves to exclude Exhibits 1010, 1011,
1013–1039, and 1044. PO Mot. 1. With the exception of
Exhibit 1034, none of the other exhibits formed the basis
for any aspect of this Decision. Thus, Patent Owner’s
Motion is moot as to those exhibits.

119a
Appendix C
For Exhibit 1034, Patent Owner objects on the basis
of Rule 901. Id. We agree with Petitioner, however, that
the distinctive characteristics of Exhibit 1034—e.g.,
the BusinessWire logo and trademarks, URL, date,
and general appearance of the document—provide the
necessary basis for authentication. See Paper 31, 7. We
further agree that Exhibit 1034 is sufficiently akin to a
newspaper or periodical article such that the exhibit is
self-authenticating under Rule 902(6). See id. at 7–8.
For the above reasons, we are not persuaded that any
of these exhibits should be excluded and, thus, we deny
Patent Owner’s Motion to Exclude.
III. CONCLUSION23
For the foregoing reasons, Petitioner has proven by a
preponderance of the evidence that the challenged claims
of the ’552 patent are unpatentable, as summarized in the
following table:

23. Should Patent Owner wish to pursue amendment of
the challenged claims in a reissue or reexamination proceeding
subsequent to the issuance of this decision, we draw Patent
Owner’s attention to the April 2019 Notice Regarding Options
for Amendments by Patent Ow ner Through Reissue or
Reexamination During a Pending AIA Trial Proceeding. See 84
Fed. Reg. 16,654 (Apr. 22, 2019). If Patent Owner chooses to file a
reissue application or a request for reexamination of the challenged
patent, we remind Patent Owner of its continuing obligation to
notify the Board of any such related matters in updated mandatory
notices. See 37 C.F.R. § 42.8(a)(3), (b)(2).

120a
Appendix C
Claims
1–21
Overall
Outcome

35 U.S.C. §
Reference(s)
103(a)
Sourcefire

Claims Shown
Unpatentable

Claims
Not Shown
Unpatentable

1–21
1–21

IV. ORDER
In consideration of the foregoing, it is:
ORDERED that the challenged claims of the ’552
patent are held unpatentable as obvious under 35 U.S.C.
§ 103(a) in view of Sourcefire and the knowledge of a
person of ordinary skill in the art;
FURTHER ORDERED that Petitioner’s Motion to
Exclude (Paper 29) is denied as set forth above;
FURTHER ORDERED that Patent Owner’s Motion
to Exclude (Paper 30) is denied as set forth above;

121a
Appendix C
FURTHER ORDERED that, because this is a final
written decision, parties to the proceeding seeking judicial
review of this Decision must comply with the notice and
service requirements of 37 C.F.R. § 90.2.

122a
Appendix D of the united
Appendix d — JUDGMENT
states PATENT AND TRADEMARK OFFICE,
PATENT TRIAL AND APPEAL BOARD,
IPR2018-01437, DATED JANUARY 23, 2020
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
IPR2018-01437
Patent 9,160,713 B2
CISCO SYSTEMS, INC.,
Petitioner,
v.
CENTRIPETAL NETWORKS, INC.,
Patent Owner.
Before BRIAN J. McNAMARA, J. JOHN LEE, and
JOHN P. PINKERTON, Administrative Patent Judges.
LEE, Administrative Patent Judge.
JUDGMENT
Final Written Decision
Determining All Challenged Claims Unpatentable
Denying Petitioner’s Motion to Exclude
Denying Patent Owner’s Motion to Exclude
35 U.S.C. § 318(a)

123a
Appendix D
INTRODUCTION
Cisco Systems, Inc. (“Petitioner”) filed a Petition
(Paper 1, “Pet.”) requesting an inter partes review of
claims 1–20 (“the challenged claims”) of U.S. Patent
No. 9,160,713 B2 (Ex. 1001, “the ’713 Patent”). An inter
partes review of all challenged claims was instituted on
January 24, 2019. Paper 7 (“Inst. Dec.”). After institution,
Centripetal Networks, Inc. (“Patent Owner”) filed a Patent
Owner Response (Paper 18, “PO Resp.”), Petitioner filed
a Reply (Paper 25, “Pet. Reply”), and Patent Owner filed
a Sur-reply (Paper 27, “PO Sur-reply”). The parties also
filed additional motions that remain pending, which are
addressed below. An oral hearing was held on December
2, 2019. Paper 39 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35 U.S.C.
§ 318(a). As explained below, Petitioner has shown by a
preponderance of the evidence that all challenged claims
of the ’713 Patent are unpatentable.
A. Related Cases
The parties identify as related to the present case
Centripetal Networks, Inc. v. Cisco Systems, Inc., Case
No. 2:18-cv-00094-MSD-LRL (E.D. Va.). Pet. 2; Paper 4, 1.
B. The ’713 Patent
The ’713 Patent relates to filtering network data
transfers. Ex. 1001, 1:57–58. When multiple data packets

124a
Appendix D
are received by a system, “[a] determination may be
made that a portion of the packets have packet header
field values corresponding to a packet filtering rule.” Id.
at 1:58–61. The specification discloses an embodiment
in which a determination is made as to whether one or
more of the received packets have header field values
corresponding to, for example, particular versions of
Transport Layer Security (TLS) protocol specified in a
packet filtering rule. Id. at 6:11–19, 9:19–28. Based on that
determination, the packets in question may be allowed to
continue to their destinations (id. at 9:34–42), or blocked
from continuing to their destinations (id. at 9:56–10:1). The
specification further discloses other criteria that can be
applied in packet filtering rules, such as network address,
port number, or protocol type. Id. at 5:38–7:9, Fig. 3.
C. Challenged Claims
Petitioner challenges all of the claims of the ’713
Patent. Claims 1, 8, and 15 are the only independent
claims. Claim 1 is illustrative and is reproduced below:
1. A method comprising:
receiving, by a computing system provisioned
with a plurality of packet-filtering rules, a first
packet and a second packet;
responsive to a determination by the computing
system that the first packet comprises data
corresponding to a transport layer security
(TLS)-version value for which one or more

125a
Appendix D
packet-filtering rules of the plurality of packetfiltering rules indicate packets should be
forwarded toward their respective destinations,
forwarding, by the computing system, the first
packet toward its destination; and
responsive to a determination by the computing
system that the second packet comprises data
corresponding to a TLS-version value for which
the one or more packet-filtering rules indicate
packets should be blocked from continuing
toward their respective destinations, dropping,
by the computing system, the second packet.
Ex. 1001, 11:8–25.
D.	Instituted Ground of Unpatentability and Asserted
Prior Art
T r i a l w a s i n st it ut ed on t he sole g rou nd of
unpatentability asserted in the Petition:1
Claim(s) Challenged 35 U.S.C. §
1–20

103(a)

Reference(s)/
Basis
Sourcefire1

Inst. Dec. 16; see Pet. 26–27. The parties dispute whether
Sourcefire qualifies as prior art under 35 U.S.C. § 102(b),
specifically whether it was publicly accessible in (or before)
1. Sourcefire 3D System User Guide, Version 4.10 (Ex. 1004,
“Sourcefire”).

126a
Appendix D
April of 2011. See Pet. 27; PO Resp. 2–7; Pet. Reply 2–6;
PO Sur-reply 1–7.
ANALYSIS
A. Level of Ordinary Skill
Petitioner asserts that a person of ordinary skill in
the art would have had a bachelor’s degree in computer
science, computer engineering or an equivalent, as well
as four years of industry experience. Pet. 15. In addition,
Petitioner indicates a person of ordinary skill would have
had “a working knowledge of packet-switched networking,
firewalls, security policies, communication protocols and
layers, and the use of customized rules to address cyber
attacks.” Id. Patent Owner does not dispute Petitioner’s
proposed definition of the level of skill in the art. 2 We agree
with Petitioner’s definition, and apply it herein, based on
the testimony of Petitioner’s expert witness, Dr. Stuart
Staniford, which we find supports Petitioner’s view. See
Ex. 1003 ¶¶ 23, 62.
B. Claim Construction
For petitions filed before November 13, 2018, as
here, claim terms in an unexpired patent are given
their broadest reasonable construction in light of the
specification of the patent in which they appear. See 37
2. Patent Owner’s expert witness, Dr. Alessandro Orso,
testified to a slightly different definition of the level of ordinary
skill. See Ex. 2002 ¶ 43. We note that our Decision would be
unchanged were we to apply Dr. Orso’s proposal instead.

127a
Appendix D
C.F.R. § 42.100(b) (2018); Cuozzo Speed Techs., LLC v.
Lee, 136 S. Ct. 2131, 2144–46 (2016); Changes to the Claim
Construction Standard for Interpreting Claims in Trial
Proceedings Before the Patent Trial and Appeal Board,
83 Fed. Reg. 51,340 (Oct. 11, 2018).
Patent Owner argues that the term “packet” should be
construed as “IP packet.” PO Resp. 18–20; PO Sur-reply
7–8. According to Patent Owner, the proper construction
of “packet” within the meaning of the challenged claims
excludes other types of packets, including packets that
are encapsulated within an IP packet—e.g., TCP packets,
application packets. See PO Sur-reply 7–8; Tr. 76:24–
77:19. Petitioner disagrees, arguing that Patent Owner’s
proposed construction is too narrow and inconsistent
with the Specification of the ’713 Patent. We agree with
Petitioner.
First, the intrinsic evidence cited by Patent Owner
does not support its proposed construction. Patent Owner
does not identify any special definition of “packet” in the
Specification. Further, Patent Owner does not identify
any aspect of the Specification that clearly indicates
the term “packet,” in fact, excludes certain types of
packets. Instead, Patent Owner relies (PO Resp. 18–19)
on a description of several kinds of packets, including “IP
packets,” “application packets,” and “TLS Record Protocol
packets.” Ex. 1001, 7:62–8:2. Nothing in that description
indicates the term “packet” refers only to one of those
types of packets, much less to “IP packets” in particular.
See id.

128a
Appendix D
Patent Owner also relies on dependent claims 4, 11,
and 18, which require that the recited “packet” further
“comprises a network address.” See PO Resp. 19. But
Patent Owner does not explain sufficiently why the
limitation of comprising a network address in certain
dependent claims requires a “packet” generally to include
only an “IP packet” and not other types of packets. See id.
Indeed, these dependent claims underscore that a “packet”
within the meaning of the broader independent claims,
for example, is not necessarily required to comprise a
network address. Moreover, the fact that the Specification
uses both the terms “packet” and “IP packet” indicates
that the ’713 Patent distinguishes between a “packet”
generally and specific types of packets, such as an “IP
packet.” See Pet. Reply 6–7 (noting that the Specification
refers to multiple types of packets). Patent Owner’s
citation of certain examples in the Specification (PO Resp.
19–20) also is unpersuasive because it is axiomatic that
limitations should not be read into the claims from mere
embodiments. See Superguide Corp. v. DirecTV Enters.,
Inc., 358 F.3d 870, 875 (Fed. Cir. 2004).
In addition, Patent Owner argues claim 1 requires
that “the HTTPS packets are received ‘by a computing
system,’” which indicates they must be IP packets given
that a computing system’s interface receives IP packets
(whereas other types of packets encapsulated within
IP packets are targeted at particular “destination
program[s]” on the system rather than the system
itself). See PO Resp. 20 (citing Ex. 2002 ¶ 68). Neither
Patent Owner nor Dr. Orso explains adequately, however,
why a person of ordinary skill would have understood

129a
Appendix D
an application packet, for example, not to have been
received by a computing system (including the destination
application on the system) when the IP packet containing
that application packet is received by the system. See Pet.
Reply 7.
For the above reasons, we are not persuaded that
the correct construction of “packet,” as recited in the
challenged claims, should be limited only to “IP packet.”
No further express construction of this or any other claim
term of the ’713 Patent is necessary to resolve the issues
in this case. 3 See Nidec Motor Corp. v. Zhongshan Broad
Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017)
(holding that only claim terms in controversy require
express construction, and only to the extent necessary
to resolve the controversy).
C. Whether Sourcefire Qualifies as Prior Art
Patent Owner asserts that Sourcefire does not
qualify as applicable prior art because it is not a
printed publication. See PO Resp. 2–7 (citing 35 U.S.C.
§ 311(b)); PO Sur-reply 1–7. In determining whether a
prior art reference constitutes a printed publication,
3. Patent Owner argues that the proper construction of
“packet” excludes “reassembled application layer messages.” See,
e.g., PO Resp. 19. Neither party has asserted at any time in this case
that “packet” should be construed to include such messages. As
discussed below, this issue relates to whether certain disclosures
of the asserted prior art (involving reassembled messages) would
have taught or suggested the recited “packet[s].” Thus, we address
this issue in the context of our obviousness analysis below.

130a
Appendix D
“the touchstone is public accessibility.” In re Bayer, 568
F.2d 1357, 1359 (CCPA 1978); see Blue Calypso, LLC v.
Groupon, Inc., 815 F.3d 1331, 1348 (Fed. Cir. 2016). “A
given reference is ‘publicly accessible’ upon a satisfactory
showing that such document has been disseminated or
otherwise made available to the extent that persons
interested and ordinarily skilled in the subject matter or
art exercising reasonable diligence, can locate it.” SRI
Int’l, Inc. v. Internet Sec. Sys., Inc., 511 F.3d 1186, 1194
(Fed. Cir. 2008) (quoting Bruckelmyer v. Ground Heaters,
Inc., 445 F.3d 1374, 1378 (Fed. Cir. 2006))
Petitioner contends that Sourcefire was publicly
available because (1) it was actually disseminated to
hundreds of customers who purchased Sourcefire 3D
System products, and (2) it was available on Sourcefire’s
support website. See Pet. 27; Pet. Reply 2. As explained
below, we conclude that Petitioner has shown sufficiently
that Sourcefire was publicly available due to its actual
dissemination to customers.
According to Petitioner, Sourcefire was enclosed on a
CD-ROM disk that was “included with each [Sourcefire]
3D System product offered for sale, including actual
sales, beginning . . . in April 2011 through the priority
date of the ’713 Patent.” Pet. Reply 2. Petitioner relies
on the testimony of John Leone, a former employee of
Sourcefire’s manufacturer. Pet. 27 (citing Ex. 1005). Mr.
Leone testified that Sourcefire was included with every
Sourcefire 3D System product in that timeframe, and that
“approximately 586 customers purchased the Sourcefire
3D System from April 2011 through March 2013 and had

131a
Appendix D
access to the Sourcefire 3D System User Guide.” Ex. 1005
¶¶ 11, 19.
Additionally, Petitioner cites a press release about the
relevant Sourcefire 3D System published in BusinessWire
in April 2011 (Ex. 1034), a product review for the Sourcefire
3D System published by ITPro in January 2007 (Ex. 1042),
and a product review for the system published by SC Media
in May 2006 (Ex. 1043), as evidence establishing that the
Sourcefire 3D System (including its accompanying user
manual, the Sourcefire reference) was publicly marketed
and sold. Pet. Reply 3–4. Patent Owner does not dispute
the above facts. Rather, Patent Owner argues that these
facts are insufficient to establish public accessibility under
controlling case law. See PO Sur-reply 2–5.
Petitioner relies on Mass. Inst. of Tech. v. AB Fortia,
774 F.2d 1104 (Fed. Cir. 1985) (“MIT”). Pet. Reply 2–3. In
MIT, a paper was orally presented at a scientific conference
attended by “50 to 500 cell culturists.” 774 F.2d at 1108.
Copies of the paper “were distributed on request, without
any restrictions, to as many as six persons.” Id. at 1108–09.
The Federal Circuit held that these facts were sufficient
to establish public accessibility. Id. at 1109; see also In re
Klopfenstein, 380 F.3d 1345, 1349 (Fed. Cir. 2004) (“The
key to the court’s finding [in MIT] was that actual copies
of the presentation were distributed.”). Petitioner also
cites Garrett Corporation v. United States, 422 F.2d 874,
878 (Ct. Cl. 1970). Pet. Reply 3. In Garrett, the court held
that a government report was a “printed publication”
under § 102(b) because approximately 80 copies were
disseminated, including to six commercial companies. 422

132a
Appendix D
F.2d at 878. The court held, “distribution to commercial
companies without restriction on use clearly” established
that the report is a printed publication. Id.
Patent Owner relies on Medtronic, Inc. v. Barry, 891
F.3d 1368 (Fed. Cir. 2018). PO Sur-reply 2–3. In Medtronic,
the prior art at issue was disseminated to attendees of
three conferences. 891 F.3d at 1379. The Federal Circuit
distinguished Medtronic from past cases involving
references stored in repositories (e.g., libraries)—rather
than considerations like indexing and cataloguing, the
relevant inquiry was whether the distribution of the
reference to certain groups of people was sufficient for
public accessibility. Id. at 1379–80. Issues underlying
that inquiry include, for example, “whether there is an
expectation of confidentiality between the distributor and
the recipients of the materials,” as well as “[t]he expertise
of the target audience.” Id. at 1381–82. Although agreeing
with the Board that “[d]istributing materials to a group
of experts” is not enough for public accessibility “simply
by virtue of the relative expertise of the recipients,” the
Federal Circuit held that the Board in that case had
not sufficiently considered all of the recipients of the
distributed materials, or whether all the recipients were
expected to hold the distributed materials in confidence.
Id. at 1382–83.
Based on the above facts and case law, we conclude
that Sourcefire was publicly accessible based on
undisputed facts. It is undisputed that the Sourcefire
3D System was publicly marketed and sold, and that the
Sourcefire reference was actually distributed to over

133a
Appendix D
500 customers of the Sourcefire 3D System. Ex. 1005
¶¶ 11, 19. This vastly exceeds the distribution to six
people in MIT and distribution of 80 copies in Garrett.
It is also undisputed that the customers who received
Sourcefire included entities interested in network security
products, including persons of ordinary skill in the art.
See Tr. 54:5–17; see also Ex. 1004, 1, 32–33 (identifying
Sourcefire as a “User Guide” and indicating Sourcefire
provides information for network administrators); Ex.
1005 ¶ 5 (indicating Sourcefire was drafted in consultation
with, and reviewed by, engineers who designed the
Sourcefire system). Moreover, similar to MIT and as
discussed in Medtronic, the record indicates that the
recipients of Sourcefire were not subject to confidentiality
requirements restricting use or further distribution. See
Ex. 1004, 2 (Sourcefire copyright page stating, “You may
use . . . and otherwise copy and distribute [Sourcefire]
solely for non-commercial use”).4,5 Patent Owner has not
identified any evidence of such restrictions on recipients
of Sourcefire. Although Patent Owner asserts that MIT
and Klopfenstein are distinguishable because they
4. All citations to Sourcefire refer to the document’s original
pagination.
5. Both of the decisions by Board panels cited by Patent Owner
(PO Sur-reply 3–4) are distinguishable on their facts, including
because both involved references that were subject to restrictions
prohibiting their reproduction or further dissemination. See ASM
IP Holding B.V., v. Kokusai Elec. Corp., IPR2019-00369, Paper 8,
at 18 (PTAB June 27, 2019); VMAC Global Techs. Inc., v. Vanair
Mfg, Inc., IPR2018-00670, Paper 9, at 13–14 (PTAB Aug. 10,
2018). In ASM, the panel further noted that no evidence of actual
dissemination to interested artisans. See ASM, Paper 8, at 17.

134a
Appendix D
involved “the free distribution of academic documents to
conference and meeting attendees” (PO Sur-reply 4–5),
case law indicates that distribution to commercial entities
also may be sufficient. See Garrett, 422 F.2d at 878; Pet.
Reply 3.
Patent Owner argues, however, that dissemination
is insufficient and that Petitioner must additionally
demonstrate that a person of ordinary skill would
have been able to locate Sourcefire through reasonable
diligence. PO Resp. 3, 5 –7; PO Sur-reply 2 (citing
Acceleration Bay, LLC v. Activision Blizzard, Inc.,
908 F.3d 765, 772 (Fed. Cir. 2018)). The Federal Circuit
has indicated that public accessibility is established
by showing that the reference was “disseminated or
otherwise made available to the extent that persons
interested and ordinarily skilled in the subject matter
or art, exercising reasonable diligence, can locate it.”
Acceleration Bay, 908 F.3d at 772 (quoting Jazz Pharm.,
Inc. v. Amneal Pharm., LLC, 895 F.3d 1347, 1355–56 (Fed.
Cir. 2018)) (emphasis added). Here, Petitioner has shown
that Sourcefire was “disseminated” to interested artisans;
thus, it is unnecessary to additionally show that it was also
“otherwise” made available to them. See Klopfenstein, 380
F.3d at 1349 (“The key to the court’s finding [in MIT] was
that actual copies of the presentation were distributed.”).
We note the Federal Circuit has held that if the latter is
shown (i.e., accessibility through reasonable diligence),
it is unnecessary to show actual access or dissemination.
See, e.g., Jazz Pharm., 895 F.3d at 1356 (“If accessibility
is proved, there is no requirement to show that particular
members of the public actually received the information.”).

135a
Appendix D
Consequently, we are unpersuaded that Sourcefire
was not publicly accessible due to various issues
surrounding whether the Sourcefire website made the
reference adequately accessible, given the evidence
of actual dissemination through sales and commercial
distribution. See PO Resp. 5–7; PO Sur-reply 2–3, 5–7.
Nor are we persuaded by Patent Owner’s contention that
the cost of the Sourcefire 3D System was too high and,
thus, a skilled artisan would not have been able to access
Sourcefire. See PO Sur-reply 4. The cost did not prevent
over 500 customers from actually obtaining Sourcefire
by purchasing Sourcefire 3D System products. Moreover,
there is no evidence in the record indicating that sales of
the relevant Sourcefire products were restricted or limited
to only certain customers, or that the cost 6 of acquiring a
Sourcefire 3D System product was prohibitively high to
the relevant artisans.
Additionally, Patent Owner cites In re Bayer, 568 F.2d
1357 (CCPA 1978), arguing the prior art in Bayer (a thesis)
was held not to have been publicly accessible despite actual
distribution to faculty on a graduate committee reviewing
the thesis. PO Sur-reply 3. In Bayer, the relevant issue was
whether the appellant’s “uncatalogued, unshelved thesis,
by virtue of its accessibility to the graduate committee,”
6. The record includes evidence of a range of prices for
various configurations of Sourcefire 3D System products, from
$1,385 to £25,000. Ex. 1042, 1; Ex. 1043, 1. Based on Mr. Leone’s
testimony, Sourcefire would have been distributed with the
purchase of any of these products. Ex. 1005 ¶ 11 (testifying
that Sourcefire was “included with each Sourcefire 3D System
appliance (e.g., 3D Sensor, Defense Center) sold to a customer”).

136a
Appendix D
constituted a printed publication. 568 F.2d at 1359. The
Federal Circuit has clarified Bayer, explaining that the
thesis was held not publicly accessible because “a work is
not publicly accessible if the only people who know how
to find it are the ones who created it,” such as the faculty
on the graduate committee reviewing and advising on
student theses. See Samsung Elecs. Co. v. Infobridge Pte.
Ltd., 929 F.3d 1363, 1371–72 (Fed. Cir. 2019). Thus, Bayer
is inapposite here, where Sourcefire was distributed to
over 500 customers.
In summary, we find that a preponderance of the
evidence establishes that Sourcefire was distributed
commercially through sales of the Sourcefire 3D System
to over 500 customers, including interested persons of
ordinary skill, and that those customers were not subject
to any restriction or expectation of confidentiality with
regard to its use or further distribution. Therefore, we
conclude that Sourcefire was publicly accessible, and that
it constitutes prior art under § 102(b).
D. Alleged Unpatentability Under § 103(a)
A claim is unpatentable under § 103 if the differences
between the claimed subject matter and the prior art
are “such that the subject matter as a whole would have
been obvious at the time the invention was made to a
person having ordinary skill in the art to which said
subject matter pertains.” KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness is
resolved on the basis of underlying factual determinations,
including: (1) the scope and content of the prior art; (2) any

137a
Appendix D
differences between the claimed subject matter and the
prior art; (3) the level of skill in the art; and (4) objective
evidence of nonobviousness, i.e., secondary considerations.
Graham v. John Deere Co., 383 U.S. 1, 17–18 (1966).
Additionally, the obviousness inquiry typically
requires an analysis of “whether there was an apparent
reason to combine the known elements in the fashion
claimed by the patent at issue.” KSR, 550 U.S. at 418 (citing
In re Kahn, 441 F.3d 977, 988 (Fed. Cir. 2006) (requiring
“articulated reasoning with some rational underpinning
to support the legal conclusion of obviousness”)); see In
re Warsaw Orthopedic, Inc., 832 F.3d 1327, 1333 (Fed.
Cir. 2016) (citing DyStar Textilfarben GmbH & Co.
Deutschland KG v. C. H. Patrick Co., 464 F.3d 1356, 1360
(Fed. Cir. 2006)).
1. Overview of Sourcefire
Sourcefire is a user guide for the Sourcefire 3D
System, a system that provides “real-time network
intelligence for real-time network defense.” Ex. 1004,
32. The system operates via “3D Sensors” that can each
run the Sourcefire “Intrusion Prevention System” (IPS),
which allows monitoring of networks for attacks by
examining packets for malicious activity. Id. at 33–34.
Users can create custom “intrusion rules” to examine
packets for attacks and manage the rules across all the
3D Sensors in the system through a centralized “Defense
Center.” Id. at 34, 254.
Intrusion rules can be “pass” rules, “alert” rules, or
“drop” rules. Id. at 761. If a pass rule is met, the network

138a
Appendix D
traffic in question is ignored (and allowed to continue). Id.
Conversely, if a drop rule is met, the packet is dropped and
an “event” is generated. Id. Rules can be written based
on “keywords” and their “arguments,” i.e., the possible
values of the keyword. Id. at 762–763.
T h e S o u r c e f i r e 3 D S y s t e m a l s o fe a t u r e s
“preprocessors” that can facilitate processing of network
traffic by identifying and decoding certain types of
traffic, such as HTTP (hypertext transfer protocol) and
SSL (secure sockets layer) traffic. Id. at 513–514. The
SSL preprocessor, for example, can be used to identify
encrypted traffic that IPS cannot analyze, thereby
enabling IPS to ignore (pass) the encrypted packets and
avoid wasting resources trying to inspect them. Id. at 596.
2.	Independent Claim 1
Claim 1 recites a three-step method. According
to Petitioner, Sourcefire teaches a computing system
provisioned with a plurality of packet-filtering rules that
receives first and second packets, as recited in the first
step of claim 1, in its description of the Sourcefire 3D
System applying intrusion rules to incoming network
traffic. Pet. 40–42 (citing Ex. 1003 ¶¶ 135–139). Patent
Owner does not dispute that Sourcefire teaches this
limitation. Sourcefire discloses a system with 3D Sensors
“us[ing] intrusion rules to examine the decoded packets
for attacks based on patterns.” Ex. 1004, 254. The packets
are captured from the network packet stream by the 3D
Sensor, which decodes them to enable its preprocessors
and rules engine to inspect packet headers to determine

139a
Appendix D
whether any rules are triggered. Id. at 257–259. We find
that Sourcefire teaches the first step of the method of
claim 1.
With respect to the second and third steps, Petitioner
contends that Sourcefire teaches forwarding packets or
dropping them, based on rules that indicate whether they
should be forwarded or dropped, in its description of “pass”
and “drop” rules that, when triggered, allow packets to
continue to their destination or drop them, respectively.
Pet. 42–45 (citing Ex. 1004, 761; Ex. 1003 ¶¶ 141–142,
150–151). Further, according to Petitioner, Sourcefire
teaches that a pass or drop rule can be triggered by a
determination that a packet’s header indicates a particular
TLS version. Id. at 43–44. Specifically, Petitioner asserts
that Sourcefire teaches the crafting of intrusion rules
using the “ssl_version keyword,” which can be set to detect
particular SSL or TLS versions. Id. (citing Ex. 1004,
597–601, 697–701, 827–828; Ex. 1003 ¶¶ 124–128, 142–144).
Patent Owner contends that Sourcefire fails to teach
the second and third steps of claim 1 because Sourcefire
does not teach any determination that a first or second
packet “comprises data corresponding to a transport
layer security (TLS)-version value.” See PO Resp. 24–36.
According to Patent Owner, Sourcefire instead teaches
only determining whether a reconstructed message (and
associated session) corresponds to a particular TLS
version, not individual packets within that message. See
id. at 24–25 (citing Ex. 2002 ¶¶ 77–78). Further, Patent
Owner maintains that Sourcefire extracts TLS version
information, before any intrusion rules are applied,

140a
Appendix D
from a reassembled handshake message. Id. at 25–28
(citing Ex. 2002 ¶ 82). Specifically, Patent Owner asserts
that intrusion rules do not assess whether any packet
comprises TLS version information but rather just receive
that information, which was previously extracted by an
SSL preprocessor from the handshake message for the
session. Id. at 26–27.
As an initial matter, even assuming arguendo that
Patent Owner is correct that Sourcefire discloses only
obtaining TLS version information from reconstructed
TCP messages, we find that Sourcefire still teaches a
determination that a packet comprises TLS version
information. It is undisputed that such reconstructed
messages consist of packets. See Tr. 35:4–6, 39:14–16;
Ex. 1041, 161:22–162:10; Ex. 2001, 122:13–17. According
to Patent Owner, the technology of the claimed invention
“works because the [TLS version] information we’re
looking for is always going to be in the first packet.” Tr.
35:6–8. In other words, as Patent Owner acknowledged,
a person of ordinary skill would have understood that
when TLS protocol is used, information about TLS version
always is located in the packet header of the first packet
in the message. See id. at 42:10–43:1; Ex. 1041, 194:17–23.
The sole difference in this regard between claim 1 and
the teachings of Sourcefire, according to Patent Owner,
is that claim 1 recites determining that a packet (e.g., the
first packet of a message) comprises TLS version data,
whereas Sourcefire teaches determining that a message
comprises TLS version data by extracting that data from
the first packet of the message. See Tr. 40:3–12. We find

141a
Appendix D
that a person of ordinary skill would have understood
that, in both instances, the relevant data is located in the
first packet of the message (e.g., a handshake message).
Whether the system of Sourcefire itself recognizes that
fact or deduces it is irrelevant; the relevant question is
whether a person of ordinary skill would have been taught
the recited determination (i.e., determining that a packet
comprises TLS version data) based on Sourcefire and
his/her own knowledge. See In re Keller, 642 F.2d 413,
425 (CCPA 1981) (“The test for obviousness is not . . .
that the claimed invention must be expressly suggested
in any one or all of the references. Rather, the test is
what the combined teachings of the references would
have suggested to those of ordinary skill in the art.”).
Furthermore, as Petitioner notes (Pet. Reply 11–12), claim
1 does not require “inspection” of “application header
values” of packets (see PO Resp. 22–23), and instead it
broadly encompasses any method of making the recited
determination.7
Additionally, we also are unpersuaded by Patent
Owner’s argument that the rules using the “ssl_version
key word” in Sourcef ire do not teach the recited
determination because the TLS version information
was extracted earlier by the SSL preprocessor. PO
7. To the extent Patent Owner contends that claim 1 should
be limited by a particular example in the Specification of the ’713
Patent, which purportedly describes “how to determine that a
packet comprises” TLS version data (PO Sur-reply 10–11), Patent
Owner has not persuasively explained why doing so is warranted,
and we decline to read any such limitations into the claim. See
Superguide, 358 F.3d at 875.

142a
Appendix D
Resp. 26–29; PO Sur-reply 12–13. This argument is
not commensurate with the scope of the claim. Claim
1 recites a “determination . . . that the [first/second]
packet comprises data corresponding to a [TLS version]
for which one or more packet-filtering rules . . . indicate
packets should be [forwarded/blocked].” The claim does
not require that the determination be performed by the
rule itself, or that the determination of the TLS version
and whether it meets the criterion of the rule must be
performed at the same time or by the same structure.
Instead, we find that a preponderance of the evidence
supports Petitioner’s view that Sourcefire teaches the
recited “determination[s]” of claim 1. We agree with
Petitioner (Pet. 42–44) that Sourcefire teaches both “pass”
(i.e., forward) and “drop” (i.e., block) versions of intrusion
rules using the ssl_version keyword, which examines TLS
version data. Ex. 1004, 761, 827–828; Ex. 1003 ¶¶ 141–144.
As discussed above, Sourcefire describes obtaining the
TLS version data from the first packet of a message using
TLS protocol (e.g., a handshake message), and that data
is provided to the rule engine applying the intrusion rules
(see Ex. 1004, 827), thereby teaching a determination
that the message—and, thus, the first packet of the
message—corresponds to a TLS version that an intrusion
rule indicates should be forwarded or blocked. Whether
or not there are other packets that do not undergo such a
determination is inapposite and outside the scope of claim
1. See PO Sur-reply 12; Tr. 37:7–17, 38:12–16.
We also find persuasive Petitioner’s argument that,
even after the handshake is completed to establish

143a
Appendix D
an encrypted session, Sourcefire teaches that each
subsequent TLS-encrypted message in the session (and,
thus, the first packet of each such message) can be assessed
by the intrusion rules. See Pet. Reply 17–18. If the SSL
preprocessor detects that the session is encrypted (i.e.,
it uses SSL or TLS protocol), IPS “can” be set to ignore
(i.e., pass/forward) all packets in the session. See Ex.
1004, 597–599. As Petitioner notes, however, Sourcefire’s
disclosure that IPS “can” be set to do this indicates that
it can also not be set to do this, i.e., the system can be
set such that packets are not passed based solely on the
fact that the session was determined to be a TLS session.
See Pet. Reply 17–18. Consequently, we are unpersuaded
by Patent Owner’s argument that Sourcefire is deficient
because it teaches only that TLS version for an entire
session is determined solely by the handshake. See PO
Resp. 25–27.
We further find that preponderant evidence establishes
that Sourcefire teaches the forwarding or blocking of the
packet (and message) responsive to the determination,
as recited in claim 1. See Ex. 1004, 761. Patent Owner
argues, however, that Sourcefire does not disclose
blocking packets based on SSL/TLS version. PO Resp.
36–38; PO Sur-reply 15–16. Specifically, Patent Owner
asserts that “Sourcefire vaguely references identifying,
but not blocking, traffic using SSL version 2.” PO Resp.
36–37 (citing Ex. 1004, 827). Patent Owner also faults
Petitioner for failing to allege that Sourcefire makes such a
disclosure rather than merely indicating Sourcefire “could
have” been modified to block packets. See PO Sur-reply 15.
The question, however, is not whether Sourcefire explicitly

144a
Appendix D
discloses an example of blocking packets based on SSL/
TLS version, but rather whether Sourcefire would have
taught or suggested doing so to a person of ordinary skill
in the art. See Keller, 642 F.2d at 425. As discussed above,
Sourcefire describes designing both pass and drop rules,
and also describes the use of the ssl_version keyword in
rules. See Ex. 1004, 761 (“For a drop rule . . . IPS drops
the packet and generates an event.”), 827–828. We find
that these disclosures would have been sufficient to teach
an artisan of ordinary skill to block packets based on the
SSL/TLS version of the packet. See Ex. 1003 ¶¶ 141–144,
150–152.
Moreover, to the extent Patent Owner argues that
a motivation is needed (and was not proven) to “modify”
Sourcefire to teach the recited blocking of packets
(PO Resp. 38; PO Sur-reply 15–16), we find that no
“modification” would have been required. As discussed
above, Sourcefire explains the use of the ssl_version
key word in designing rules based on TLS version
information, and also teaches that rules can be drop rules
that cause packets to be dropped when triggered. Thus,
designing drop rules that drop packets based on TLS
version information would have constituted following the
direct teachings of Sourcefire without “modification,”
and, thus, no additional “motivation” to modify Sourcefire
would have been required. Moreover, even if we assume
arguendo that such a motivation were required, we
note that “the inferences and creative steps a person
of ordinary skill in the art would employ” can supply a
motivation to combine or modify teachings, and “[a] person
of ordinary skill is also a person of ordinary creativity, not

145a
Appendix D
an automaton.” KSR, 550 U.S. at 401, 421. Based on the
evidence of Sourcefire’s teachings regarding this aspect of
claim 1, we find that a person of ordinary skill would have
been sufficiently motivated and informed by Sourcefire
to design intrusion rules with the ssl_version keyword
as discussed above. See, e.g., Pet. 45 (citing Ex. 1004, 254,
435–439, 761; Ex. 1003 ¶¶ 150–151); see also id. at 30–32
(citing Ex. 1004, 762–763; Ex. 1003 ¶¶ 109, 112–116), 36–39
(citing Ex. 1004, 597–601, 697–701, 827–828; Ex. 1003
¶¶ 124–128). 8
For the above reasons and on the complete record
after trial, we conclude Petitioner has shown that a
preponderance of the evidence indicates that Sourcefire
teaches each limitation of claim 1.
3.	Dependent Claims 2–7
Claims 2–7 depend from claim 1. The Petition sets forth
arguments and evidentiary support for each of the claims.
Pet. 45–57. Petitioner explains that Sourcefire discloses
rules other than TLS version rules—including “5-tuple”
rules based on protocol type, and source or destination IP
addresses or ports—which teaches that a second portion
8. Patent Owner argues that record evidence indicates that
a skilled artisan would have been taught not to block data traffic
using TLS version 1.0, despite known security vulnerabilities,
because more secure versions of TLS protocol were not yet widely
used. PO Resp. 37–38 (citing Ex. 2002 ¶ 95; Ex. 1037, 8). Claim 1,
however, is not limited to blocking TLS version 1.0 packets, and
we find that Sourcefire’s teachings similarly encompass designing
rules to pass or drop packets based on any TLS version.

146a
Appendix D
of packets (as well as the first portion) can be filtered to be
forwarded or dropped (based on such other rules) without
applying the TLS version rule applied to the first portion
of packets, as recited in claims 2–4. Id. at 46–50 (citing
Ex. 1003 ¶¶ 154, 157, 160–161, 163, 165, 168, 171). The
Petition also explains how Sourcefire discloses an “HTTP
inspect preprocessor” that can detect HTTP methods
such as GET, PUT, POST, and CONNECT, which teaches
determining that a packet comprises data corresponding
to such HTTP methods, as recited in claims 5 and 6. Id.
at 50–55 (citing Ex. 1003 ¶¶ 174–180, 183). Petitioner
further explains how a person of ordinary skill would
have understood Sourcefire to teach determining that
certain packets comprise data associated with Hypertext
Transfer Protocol Secure (HTTPS), as recited in claim
7, by teaching that TCP port 443 (a standard HTTPS
port) or TLS version value (indicating TLS data, which is
also HTTPS data) can be used in designing and applying
rules. Id. at 55–57 (citing Ex. 1003 ¶¶ 186, 187, 190). We
agree with Petitioner’s analysis and find that the cited
evidence supports its contentions by a preponderance of
the evidence that Sourcefire teaches all of the limitations
of claims 2–7.
Patent Owner does not present any arguments specific
to claims 5–7. With regard to claims 2–4, Patent Owner
argues that Petitioner failed to show that “Sourcefire
explicitly discloses applying the TLS-version value packetfiltering rules recited in in the independent claims to a first
portion of packets and not a second portion of packets,” or
“that a [person of ordinary skill] would have written such
a rule.” PO Resp. 41. Explicit disclosure is not, however,

147a
Appendix D
required for obviousness. Petitioner, in response, explains
(Pet. Reply 21–24) how Sourcefire teaches applying
different sets of intrusion rules to different groups of
packets. See Ex. 1004, 259, 766–768. Patent Owner does
not respond to this evidence. Upon reviewing the relevant
arguments and evidence, we find Petitioner’s position
persuasive.
4.

Claims 8–20

Independent claim 8 recites a system comprising a
processor and a memory storing instructions that, when
executed, perform substantially the same steps recited in
claim 1. Similarly, claims 9–14 depend from claim 8 and
recite limitations substantially the same as those of claims
2–7. The Petition explains how Sourcefire discloses that
each 3D Sensor includes a processor, memory, and disk
storage with the instructions that control the operations
of the 3D Sensor. Pet. 57–58 (citing Ex. 1004, 33–34,
106–107; Ex. 1003 ¶ 192). Petitioner then relies on the
same arguments and evidence as for claims 1–7 for the
remaining elements of claims 8–14 that correspond to the
limitations of claims 1–7. Id. at 57–62.
Independent claim 15 recites non-transitory computer
readable media comprising instructions that, when
executed, cause substantially the same steps recited in
claim 1 to be performed. Similarly, claims 16–20 depend
from claim 15 and recite limitations substantially the
same as those of claims 2–7 (the limitations of claim
19 correspond to the limitations of both claims 5 and
6). Petitioner relies on the disk storage containing the

148a
Appendix D
instructions controlling the operation of a 3D Sensor
as teaching the recited computer readable media. Id.
at 63 (citing Ex. 1004, 33–34, 106–107; Ex. 1003 ¶ 199).
As with the system claims, Petitioner then relies on the
same arguments and evidence as for claims 1–7 for the
remaining elements of claims 15–20 that correspond to
the limitations of claims 1–7. Id. at 62–67.
Patent Owner presents no arguments regarding these
claims other than those for claim 1–4, discussed above.
For essentially the same reasons as for claims 1–7, the
arguments and evidence in the Petition are persuasive as
to claims 8–20, and we find a preponderance of the cited
evidence supports Petitioner’s contentions that Sourcefire
teaches each of the limitations of claims 8–20.
5.	Secondary Considerations of Non-Obviousness
Before determining whether a claim is obvious in
light of the prior art, we consider any relevant evidence of
secondary considerations—i.e., objective indicia—of nonobviousness. See Graham, 383 U.S. at 17. Notwithstanding
what the teachings of the prior art would have suggested to
one of ordinary skill in the art at the time of the invention,
the totality of the evidence submitted, including objective
evidence of non-obviousness, may lead to a conclusion
that the challenged claims would not have been obvious
to one of ordinary skill. In re Piasecki, 745 F.2d 1468,
1471–72 (Fed. Cir. 1984). Patent Owner presents evidence
of three such considerations: (1) long-felt but unmet need,
(2) industry praise, and (3) commercial success/licensing.
PO Resp. 42–53.

149a
Appendix D
“In order to accord substantial weight to secondary
considerations in an obviousness analysis, the evidence
of secondary considerations must have a nexus to the
claims, i.e., there must be a legally and factually sufficient
connection between the evidence and the patented
invention.” Fox Factory, Inc. v. SRAM, LLC, 944 F.3d
1366, 1373 (Fed. Cir. 2019) (internal quotations omitted).
A nexus is presumed when “the patentee shows that the
asserted objective evidence is tied to a specific product
and that product ‘embodies the claimed features, and is
coextensive with them.’” Id. (quoting Polaris Indus., Inc.
v. Arctic Cat, Inc., 882 F.3d 1056, 1072 (Fed. Cir. 2018)). If
the product is not coextensive with the claims at issue—
e.g., if the patented invention is only a component of the
product—the patentee is not entitled to a presumption of
nexus. See id. (citing Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988)).
a.

Long-Felt But Unmet Need and Failure of
Others

According to Patent Owner, “the ’713 Patent satisfied
a long-felt need . . . namely, how to protect against ‘[a]
category of cyber attack known as exfiltrations,’” which
others had failed to meet. PO Resp. 44. With respect to
nexus, Patent Owner asserts that the challenged claims
“are applied on a packet-by-packet basis” and are “applied
to individual packets” such that “time- and resourceintensive packet reassembly procedures” are unnecessary.
Id. at 49–50 (citing Ex. 2002 ¶¶ 108–109); see also PO Surreply 18–19. Further, Patent Owner points to “leveraging
[cyber threat intelligence] in a manner that applied

150a
Appendix D
TLS-version value criteria to only those packets meeting
specified packet header criteria,” and that the claimed
techniques are “scalable.” Id. at 45–46. Patent Owner
also relies on a paper (the “ESG Paper”) that praises
Patent Owner’s “RuleGATE” product while identifying
certain purported challenges to “operationalizing threat
intelligence.” Id. at 48–49 (citing Ex. 2006, 4).9
Patent Owner’s nexus arguments and evidence,
however, are insufficient to establish a nexus between
the alleged long-felt but unmet need, and the claimed
invention. First, no analysis is presented to demonstrate
that the RuleGATE product is coextensive with any claim
of the ’713 Patent. Thus, Patent Owner is not entitled to
a presumption of nexus. See Fox Factory, 944 F.3d at
1373. Second, insufficient analysis is presented to show
that the evidence of a purported long-felt but unmet need
is connected to the patented invention. Patent Owner
does not adequately explain how the purported “packetby-packet” nature of the claimed method specifically
addresses the threat of exfiltrations. Nor does Patent
Owner explain how “cyber threat intelligence” is related
to any challenged claim, or how the patented invention
achieves a “scalable” solution to exfiltrations. See Tr. 56:4–
11 (Patent Owner acknowledging the claims do not require
9. Petitioner argues that the ESG Paper is not objective
evidence of non-obviousness because it is a report commissioned
and paid for by Patent Owner. Pet. Reply 24–25. We decline to
disregard this evidence, or Dr. Orso’s testimony about it, entirely.
We find, however, that the nature and circumstances around the
genesis of the ESG Paper diminish the persuasive weight it should
be accorded.

151a
Appendix D
scalability or “larger rule sets” than prior devices). With
respect to the “challenges” reported in the ESG Paper—
i.e., “[l]ack of automation,” “the inability to use feeds ‘in a
meaningful way to live network traffic,’” and “the ability to
‘turn[] [cyber threat intelligence] into actionable insight’”
(PO Resp. 48)—Patent Owner provides no analysis as
to how the patented invention purportedly meets those
challenges. Moreover, the paper praising Patent Owner’s
product identifies features contributing to the product’s
solutions that are not tied to any aspect of the challenged
claims, such as “dynamically monitor[ing] for advanced
threats using intelligence,” and “converting indicators
to rules that drive actions across the risk spectrum, i.e.,
logging, content capture, mirroring, redirection, shielding,
and advanced threat detection.” Ex. 2006, 7.
Therefore, we conclude that a nexus was not proven
between the purported long-felt but unmet need(s)
identified by Patent Owner and the patented invention of
the ’713 Patent.
b.	Industry Praise
Patent Owner cites the ESG Paper (Ex. 2006) as
well as a Gartner article (Ex. 2007) and an American
Banker article (Ex. 2011) as evidence of industry praise.
PO Resp. 50–52. Similar to its long-felt need contentions,
however, Patent Owner does not provide sufficient analysis
or explanation to establish the requisite nexus. Patent
Owner again provides no analysis demonstrating that any
Centripetal product is coextensive with the challenged
claims, so no presumption of nexus is applied. See Fox

152a
Appendix D
Factory, 944 F.3d at 1373. Additionally, the cited praise
of Centripetal products is not linked sufficiently to the
challenged claims, including because Patent Owner failed
to address lauded features with no relationship to the
claims.
For example, Patent Owner cites the ESG Paper
as praising the “high performance” of its product, its
ability to process “hundreds of millions of indicators
from thousands of feeds,” “synthesizing into a network
policy,” “complex filtering rule[s]” with “at-least a dozen
unique fields which had to be evaluated and applied bidirectionally and without state,” etc. Ex. 2006, 7. None
of these features appear to be in the challenged claims.
Patent Owner does not address whether they are part of
the claimed invention or, if not, their relative contribution
to the industry praise compared to any actual features of
the claimed invention.
Regarding the Gartner article, Patent Owner notes
that Gartner praises its product’s “ability to instantly
detect and prevent malicious network connections based
on millions of threat indicators at 10-gigabit speeds,”
“the largest number of third-party threat intelligence
service integrations,” and using “5 million indicators
simultaneously.” Ex. 2007, 5; see PO Resp. 51. Again,
insufficient analysis is presented to address how these
features relate to the challenged claims. Patent Owner’s
reference to the American Banker article similarly suffers
from a lack of explanation. See PO Resp. 51.
The only nexus explanation provided is a conclusory
assertion that “the salutary benefits of Centripetal’s

153a
Appendix D
[praised products] are made possible in large part
by the ’713 Patent’s network layer, packet-by-packet,
rule enforcement that foregoes deep inspection at the
application layer.” PO Resp. 51–52. Dr. Orso’s testimony
cited in support of this statement is merely a nearverbatim copy of this conclusory statement with no
additional explanation. See Ex. 2002 ¶ 112; 37 C.F.R.
§ 42.65(a) (“Expert testimony that does not disclose the
underlying facts or data on which the opinion is based
is entitled to little or no weight.”). As a result, we find
that Patent Owner has not established a sufficient nexus
between the cited industry praise and the invention of the
challenged claims.
c.

Commercial Success and Licensing

Finally, Patent Owner contends that the commercial
success of its RuleGATE product as well as a license
to the ’713 Patent taken by Keysight Technologies are
compelling secondary considerations of non-obviousness.
PO Resp. 52–53. We disagree.
First, we note that the sole evidence cited for
the commercial success of the RuleGATE product, a
declaration by Mr. Jonathan Rogers of Centripetal, makes
no mention whatsoever of the ’713 Patent. See Ex. 2016.
Rather, the Rogers Declaration is testimony that was
submitted in a different inter partes review challenging
a different patent. See id. As such, there is no record
evidence supporting any nexus between the matters in
Mr. Rogers’ testimony on alleged commercial success and
the ’713 Patent.

154a
Appendix D
Second, as Patent Owner itself admits (PO Resp. 53),
the Keysight license was a “worldwide, royalty-bearing,
non-transferable, irrevocable, nonterminable, nonexclusive
license to Centripetal’s worldwide patent portfolio.” Ex.
2012, 88. No information is provided about the relevant
details of this license—e.g., how many patents comprise
the portfolio, the relative contributions of the patents in
the portfolio to the value of the license—such that we
could discern whether Keysight took the license “out of
recognition and acceptance of the subject matter claimed”
in the ’713 Patent. See In re GPAC Inc., 57 F.3d 1573, 1580
(Fed. Cir. 1995). In fact, the record evidence indicates
that this license was taken to settle litigation (Ex. 2012,
88), which diminishes its probative value as an indicator
of non-obviousness. See GPAC, 57 F.3d at 1580. As such,
we find that Patent Owner has not provided sufficient
evidence to establish the requisite nexus between the
Keysight license and the ’713 Patent. See id.
6.

Conclusion as to Obviousness

As discussed above, Petitioner has shown by a
preponderance of the evidence that Sourcefire teaches
each limitation of each challenged claim. We further
determine that Petitioner’s showing that the claims
are taught by Sourcefire is very strong, particularly in
comparison to Patent Owner’s showing with respect to
the asserted secondary considerations of obviousness.
As discussed above, we find that Patent Owner has not
established the requisite nexus between the challenged
claims and any of the asserted secondary considerations.
As such, we are unable to accord them any substantial
weight. See Fox Factory, 944 F.3d at 1373. Therefore,

155a
Appendix D
in weighing the totality of the evidence of record and
the strength of the parties’ showings on the inquiries
underlying the question of obviousness, we conclude that
Petitioner has met its overall burden of proving by a
preponderance of the evidence that each of the challenged
claims would have been obvious in view of Sourcefire.
E. Motions to Exclude
1.	Petitioner’s Motion to Exclude (Paper 29,
“Pet. Mot.”)
Petitioner moves to exclude Exhibits 2003, 2005–2007,
2011–2013, and 2016. Pet. Mot. 2. Exhibits 2003 and 2005
did not form the basis for any aspect of this Decision. As
such, Petitioner’s Motion with respect to those exhibits
is moot.
For Exhibit 2016, the Rogers Declaration, Petitioner
asserts that it should be excluded under Rules 401, 402,
403, and 602 of the Federal Rules of Evidence. Pet.
Mot. 10–11. We agree with Patent Owner that exclusion
is unwarranted. Paper 33, 4–5. Mr. Rogers testifies
in the Declaration about his position at Centripetal,
his responsibilities (“overseeing all operations of the
business”), and his familiarity with Centripetal’s licensing
practices. Ex. 2016 ¶ 3. We are satisfied that this testimony
establishes sufficient personal knowledge of the subject
matter of his testimony, which concerns Centripetal’s
customers and its RuleGATE product. See generally Ex.
2016. Thus, we deny Petitioner’s objection under Rule 602.
With regard to Rules 401, 402, and 403, we note that Patent
Owner relies on Exhibit 2016 to support its arguments for

156a
Appendix D
commercial success, which specifically note the alleged
success of the RuleGATE product. PO Resp. 52. Although
the Rogers Declaration addresses a different patent than
the ’713 Patent, its testimony regarding the RuleGATE
product and Centripetal’s customers generally meets the
threshold for relevance, and its purported shortcomings
as evidence go to its persuasive weight rather than its
admissibility. We also discern no risk of unfair prejudice.
Thus, Petitioner’s objection under Rules 401, 402, and 403
also are denied.
With respect to Exhibits 2005–2007 and 2011–2013,
Petitioner argues they should be excluded under Rules 401,
402, 403, 901, and as hearsay (under Rule 802). Pet. Mot.
7–9. We are not persuaded. Each of these exhibits is cited
by Patent Owner as evidence supporting its arguments
regarding secondary considerations of non-obviousness,
including as evidence of industry praise and the existence
of a relevant license. See PO Resp. 46–53. Although they
may not identify the ’713 Patent specifically (Pet. Mot. 7),
we determine that they meet the threshold for relevance
nonetheless, and we discern no risk of unfair prejudice,
confusion, or waste of time. Regarding authentication, we
note that the Declaration of Jeffrey H. Price (Ex. 2017)
provides evidence of the source of each of these exhibits,
and we find that this information along with the distinctive
characteristics of the exhibits themselves (including dates,
titles, publication names, etc.) provide the necessary basis
for authentication.10 With respect to Petitioner’s hearsay
10. We further note that Exhibits 2007 and 2011 are printed
material purporting to be from news sources, which are selfauthenticating under Rule 902(6).

157a
Appendix D
objections, we conclude first that Exhibits 2007 and 2011
are not hearsay because they are not relied on for the truth
of the matters asserted. See Fed. R. Evid. 801(c). These
exhibits are cited only as evidence of industry praise; their
relevance lies in that they include statements from the
industry allegedly praising Centripetal’s invention, not in
whether that praise is true or accurate. See PO Resp. 51.
For the remaining exhibits, we deny Petitioner’s hearsay
objection under Rule 807 because we conclude that the
totality of the circumstances provides sufficient indicia
of trustworthiness—for example, these exhibits are
contemporaneous documents by third parties produced for
purposes that indicate their statements are likely reliable
(e.g., Keysight’s official Annual Report (Ex. 2012))—and
these exhibits generally are highly probative on the points
underlying Patent Owner’s secondary considerations
allegations (e.g., industry praise) compared to different
evidence reasonably available to Patent Owner.
For the above reasons, we are not persuaded that any
of these exhibits should be excluded and, thus, we deny
Petitioner’s Motion to Exclude.
2.	Patent Owner’s Motion to Exclude (Paper 30,
“PO Mot.”)
Patent Owner moves to exclude Exhibits 1010, 1011,
1013–1039, and 1044. PO Mot. 1. With the exception of
Exhibit 1034, none of the other exhibits formed the basis
for any aspect of this Decision. Thus, Patent Owner’s
Motion is moot as to those exhibits.

158a
Appendix D
For Exhibit 1034, Patent Owner objects on the basis
of Rule 901. Id. We agree with Petitioner, however, that
the distinctive characteristics of Exhibit 1034—e.g.,
the BusinessWire logo and trademarks, URL, date,
and general appearance of the document—provide the
necessary basis for authentication. See Paper 31, 7. We
further agree that Exhibit 1034 is sufficiently akin to a
newspaper or periodical article such that the exhibit is
self-authenticating under Rule 902(6). See id. at 7–8.
For the above reasons, we are not persuaded that any
of these exhibits should be excluded and, thus, we deny
Patent Owner’s Motion to Exclude.
CONCLUSION11
For the foregoing reasons, Petitioner has shown by a
preponderance of the evidence that the challenged claims
of the ’713 Patent are unpatentable, as summarized in the
following table:

11. Should Patent Owner wish to pursue amendment of
the challenged claims in a reissue or reexamination proceeding
subsequent to the issuance of this decision, we draw Patent
Owner’s attention to the April 2019 Notice Regarding Options
for Amendments by Patent Ow ner Through Reissue or
Reexamination During a Pending AIA Trial Proceeding. See 84
Fed. Reg. 16,654 (Apr. 22, 2019). If Patent Owner chooses to file a
reissue application or a request for reexamination of the challenged
patent, we remind Patent Owner of its continuing obligation to
notify the Board of any such related matters in updated mandatory
notices. See 37 C.F.R. § 42.8(a)(3), (b)(2).

159a
Appendix D
Claims

35 U.S.C. § Reference(s)

1–20
103(a)
O verall
Outcome

Sourcefire

Cla im s Show n Claims Not Shown
Unpatentable
Unpatentable
1–20
1–20
ORDER
In consideration of the foregoing, it is hereby:
ORDERED that the challenged claims of the ’713
Patent are held unpatentable as obvious under 35 U.S.C.
§ 103(a) in view of Sourcefire;
FURTHER ORDERED that Petitioner’s Motion to
Exclude (Paper 29) is denied as set forth above;
FURTHER ORDERED that Patent Owner’s Motion
to Exclude (Paper 30) is denied as set forth above;
FURTHER ORDERED that, because this is a final
written decision, parties to the proceeding seeking judicial
review of this Decision must comply with the notice and
service requirements of 37 C.F.R. § 90.2.

160a
Appendix E of the UNITED
Appendix E — JUDGMENT
STATES PATENT AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL AND APPEAL
BOARD, IPR2018-01437, DATED MAY 18, 2020
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
CISCO SYSTEMS, INC.,
Petitioner,
v.
CENTRIPETAL NETWORKS, INC.,
Patent Owner.
IPR2018-01760
Patent 9,413,722 B1
Before BRIAN J. McNAMARA, J. JOHN LEE, and
JOHN P. PINKERTON, Administrative Patent Judges.
LEE, Administrative Patent Judge.

161a
Appendix E
JUDGMENT
Final Written Decision
Determining Some Challenged Claims Unpatentable
Denying Petitioner’s Motion to Exclude
Denying Patent Owner’s Motion to Exclude
35 U.S.C. § 318(a)
INTRODUCTION
Cisco Systems, Inc. (“Petitioner”) filed a Petition
(Paper 1, “Pet.”) requesting an inter partes review of
claims 1–25 (“the challenged claims”) of U.S. Patent No.
9,413,722 B1 (Ex. 1001, “the ’722 Patent”).1 An inter partes
review of all challenged claims was instituted on May 20,
2019. Paper 9 (“Inst. Dec.”). After institution, Centripetal
Networks, Inc. (“Patent Owner”) filed a Patent Owner
Response (Paper 14, “PO Resp.”), Petitioner filed a Reply
(Paper 20, “Pet. Reply”), and Patent Owner filed a Surreply (Paper 26, “PO Sur-reply”). The parties also filed
motions to exclude evidence, which are addressed below.
An oral hearing was held on February 20, 2020. Paper
40 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
Final Written Decision is issued pursuant to 35 U.S.C.
§ 318(a). As explained below, Petitioner has shown by a
preponderance of the evidence that all challenged claims
of the ’722 Patent are unpatentable.
1. On its face, the ’722 Patent indicates the earliest effective
filing date is April 17, 2015. Ex. 1001, code (63). Consequently, for all
purposes relevant to this Decision, we apply statutes as they stand
after the Leahy-Smith America Invents Act, Pub. L. No. 112-29,
125 Stat. 284 (2011).

162a
Appendix E
A. Related Cases
The parties identify as related to the present case:
Centripetal Networks, Inc. v. Cisco Systems, Inc., Case
No. 2:18-cv-00094-MSD-LRL (E.D. Va); and Centripetal
Networks, Inc. v. Keysight Techs., Inc., Case No. 2:17-cv00383-HCM-LRL (E.D. Va). Pet. 8; Paper 3, 1.
B. The ’722 Patent
The ’722 Patent relates to “rule-based network-threat
detection.” Ex. 1001, 1:45–46. The Specification describes
a process in which a packet-filtering device receives data
packets and determines whether each packet corresponds
to criteria specified by a packet-filtering rule. Id. at 1:49–
52. The packet-filtering rule criteria may correspond to
one or more “network-threat indicators.” Id. at 1:52–53. A
network-threat indicator may be, for example, “network
addresses, ports, fully qualified domain names (FQDNs),
uniform resource locators (URLs), uniform resource
identifiers (URIs), or the like” that are associated with
network threats (e.g., malware). Id. at 3:18–33. The packetfiltering rule also specifies an “operator” to be applied
by the packet-filtering device when the rule is triggered,
the operator being configured to cause the device to
either prevent or allow the packet to continue toward its
destination. Id. at 1:53–58.
The device also generates a log entry comprising
information from the packet-filtering rule identifying
the network-threat indicator(s) and whether the packet
was prevented or allowed to continue. Id. at 1:58–63.

163a
Appendix E
In addition, the Specification describes that the packetfiltering device communicates this information as well
to a user device, which presents the information in an
interface through which the user can cause the packetfiltering device to reconfigure the operator specified by
the packet-filtering rule such that future packets would
be prevented from continuing. Id. at 1:64–2:10. Figure 7
is a flow chart illustrating an embodiment of the disclosed
method, and is reproduced below.

164a
Appendix E
Id. at Fig. 7. The above figure depicts an illustrative
method for rule-based network-threat detection. Id. at
15:52–54; see id. at 15:54–16:34 (describing in detail each
step depicted in Figure 7).
C. Challenged Claims
Petitioner challenges all of the claims of the ’722
Patent. Claim 1, the only independent claim, is illustrative
and is reproduced below (letters in brackets added for
ease of reference):
1. A method comprising:
[a] receiving, by a packet-filtering device, a plurality of
packet-filtering rules configured to cause the packetfiltering device to identify packets corresponding to at
least one of a plurality of network-threat indicators;
[b] receiving, by the packet-filtering device, a plurality
of packets, wherein the plurality of packets comprises
a first packet and a second packet;
[c] responsive to a determination by the packetfiltering device that the first packet satisfies one or
more criteria, specified by a packet-filtering rule of
the plurality of packet-filtering rules, that correspond
to one or more network-threat indicators of the
plurality of network-threat indicators:
[d]
applying, by the packet-filtering device and
to the first packet, an operator specified by the
packet-filtering rule and configured to cause the

165a
Appendix E
packet-filtering device to allow the first packet to
continue toward a destination of the first packet;
[e]
communicating, by the packet-filtering device,
information from the packet-filtering rule that
identifies the one or more network-threat indicators,
and data indicative that the first packet was allowed
to continue toward the destination of the first packet;
[f]
causing, by the packet-filtering device and
in an interface, display of the information in at
least one portion of the interface corresponding
to the packet-filtering rule and the one or more
network-threat indicators;
[g]
receiving, by the packet-filtering device,
an instruction generated in response to a user
invoking an element in the at least one portion of
the interface corresponding to the packet-filtering
rule and the one or more network-threat indicators;
and responsive to receiving the instruction:
[h]
modifying, by the packet-filtering
device, at least one operator specified by
the packet-filtering rule to reconfigure the
packet-filtering device to prevent packets
corresponding to the one or more criteria
from continuing toward their respective
destinations; and
[i]
responsive to a determination by
the packet-filtering device that the second

166a
Appendix E
packet corresponds to the one or more
criteria:
[j]
preventing, by the packetfiltering device, the second packet
from continuing toward a destination
of the second packet;
[k]
communicating, by the packetfiltering device, data indicative that
the second packet was prevented from
continuing toward the destination of
the second packet; and
[l]
c au s i ng, by t he p a cket filtering device and in the interface,
display of the data indicative that the
second packet was prevented from
continuing toward the destination of
the second packet.
D.	Instituted Ground of Unpatentability and Asserted
Prior Art
T r i a l w a s i nst it ut ed on t he sole g rou nd of
unpatentability asserted in the Petition:2
Claim(s)
Challenged
1–25

35 U.S.C. §
103

Reference(s)/
Basis
Sourcefire 2

2. Sourcefire 3D System User Guide, Version 4.10 (Ex. 1004,
“Sourcefire”).

167a
Appendix E
Inst. Dec. 27; see Pet. 24. The parties dispute whether
Sourcefire qualifies as prior art under 35 U.S.C. § 102(a)
(1), specifically whether it was publicly accessible in (or
before) April of 2011. See Pet. 24; PO Resp. 2–11; Pet.
Reply 2–7; PO Sur-reply 2–10.
Petitioner relies on the Declaration of John Leone
(Ex. 1005) and the Declaration of Jacob H. Baugher
III (Ex. 1042), which present testimony to support
Petitioner’s assertions regarding public accessibility.
In addition, Petitioner further relies on the Declaration
of Dr. Stuart Staniford (Ex. 1003), its proffered expert
witness. Similarly, Patent Owner relies on a declaration
by its proffered expert witness, Dr. Alessandro Orso
(Ex. 2002).
ANALYSIS
A. Level of Ordinary Skill in the Art
Petitioner asserts that a person of ordinary skill in
the art would have had a bachelor’s degree in computer
science, computer engineering or an equivalent, as well
as four years of industry experience. Pet. 15 (citing Ex.
1003 ¶¶ 21–24 (Dr. Staniford’s testimony)). In addition,
Petitioner asserts that a person of ordinary skill would
have had “a working knowledge of packet-switched
networking, firewalls, security policies, communication
protocols and layers, user interfaces, and the use of
customized rules to address cyber-attacks.” Id.

168a
Appendix E
In its Response, Patent Owner does not dispute
Petitioner’s definition of the level of skill in the art. 3
Based on the complete trial record, we find Dr. Staniford’s
testimony credible and persuasive (Ex. 1003 ¶¶ 21–24),
and we adopt Petitioner’s definition as a result.
B. Claim Construction
For petitions filed before November 13, 2018, as
here, claim terms in an unexpired patent are given
their broadest reasonable construction in light of the
specification of the patent in which they appear. 37 C.F.R.
§ 42.100(b) (2018); see Cuozzo Speed Techs., LLC v. Lee, 136
S. Ct. 2131, 2144–46 (2016). In the Decision on Institution,
we preliminarily construed the term “network-threat
indicator” as an “indicator that represents the identity of
a resource associated with a network threat.” Inst. Dec.
8. During trial, neither party disputed this preliminary
construction. See PO Resp. 25; Pet. Reply 7–8; Tr. 10:22–
11:9. We do not discern any evidence in the full record after
trial indicating that this construction is incorrect or should
be modified. Moreover, the Specification supports this
construction, indicating that “network addresses, ports,
fully qualified domain names (FQDNs), uniform resource
3. Dr. Orso testified to a slightly different description of the
level of skill in the art (Ex. 2002 ¶ 36), but Patent Owner did not
argue during trial that Dr. Orso’s description should be adopted
instead of Petitioner’s description and waived any such argument
as a result. See In re NuVasive, Inc., 842 F.3d 1376, 1380–81 (Fed.
Cir. 2016). Moreover, Dr. Orso testified that his opinions would be
unchanged under Petitioner’s description of the level of ordinary
skill. Ex. 2002 ¶ 36.

169a
Appendix E
locators (URLs), uniform resource identifiers (URIs), or
the like” are examples of “network-threat indicators.”
Ex. 1001, 3:18–26. Thus, we apply this construction in
this Decision.
At the oral hearing, Patent Owner belatedly argued
that the Specification indicates the above examples are
insufficient by themselves to constitute “network-threat
indicators” because the Specification further mentions
“other information associated with the network threats,”
such as threat type and geographic location. See Tr.
45:9–25, 62:10–64:23, 80:15–82:2. As an initial matter,
Patent Owner did not make this argument in its claim
construction positions advanced during trial and, thus,
it is untimely. See PO Resp. 25–28; PO Sur-reply 10–12;
NuVasive, 842 F.3d at 1380–81.
Even were we to consider this argument, we disagree
and decline to modify our construction to require such
“other information.” The Specification describes that
“[n]etwork-threat-intelligence providers” disseminate
“network-threat-intelligence reports” that include
“network-threat indicators (e.g., network addresses, ports,
fully qualified domain names (FQDNs), uniform resource
locators (URLs), uniform resource identifiers (URIs), or
the like) associated with the network threats, as well as
other information associated with the network threats.”
Ex. 1001, 3:18–33 (emphasis added). In other words,
the “other information” is included in network-threatintelligence reports along with network-threat indicators,
not as part of them, which also is evidenced by how the
“other information” is not included in the parenthetical

170a
Appendix E
listing the examples of such indicators. In fact, Patent
Owner itself admits that the ’722 Patent “makes clear that
the network-threat indicator is the identity of the resource
associated with the threat and not the threat itself or other
information associated with the threat.” PO Sur-reply
12–13 (quoting Ex. 1001, 3:18–33) (emphasis added).
We note that the parties disagree further about
whether our construction of “network-threat indicator”
encompasses certain specific examples potentially
relevant to the prior art, particularly ports. See PO
Resp. 27–28; Pet. Reply 10; PO Sur-Reply 11–12. As this
dispute concerns the application of our construction rather
than the construction itself, we address it to the extent
necessary to determine the patentability of the challenged
claims in our obviousness analysis below.
No other claim terms in the ’077 Patent require
express construction for purposes of this Decision. See
Nidec Motor Corp. v. Zhongshan Broad Ocean Motor Co.,
868 F.3d 1013, 1017 (Fed. Cir. 2017) (holding that only claim
terms in controversy require express construction, and
only to the extent necessary to resolve the controversy).
C. Alleged Unpatentability Under § 103
Petitioner’s sole asserted ground of unpatentability
as to all challenged claims is obviousness in view of
Sourcefire. Pet. 24. A claim is unpatentable under § 103 if
the differences between the claimed subject matter and
the prior art are “such that the subject matter as a whole
would have been obvious at the time the invention was

171a
Appendix E
made to a person having ordinary skill in the art to which
said subject matter pertains.” KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness is
resolved on the basis of underlying factual determinations,
including: (1) the scope and content of the prior art; (2) any
differences between the claimed subject matter and the
prior art; (3) the level of skill in the art; and (4) objective
evidence of nonobviousness, i.e., secondary considerations.
Graham v. John Deere Co., 383 U.S. 1, 17–18 (1966).
Additionally, the obviousness inquiry typically requires
an analysis of “whether there was an apparent reason to
combine the known elements in the fashion claimed by the
patent at issue.” KSR, 550 U.S. at 418 (citing In re Kahn,
441 F.3d 977, 988 (Fed. Cir. 2006) (requiring “articulated
reasoning with some rational underpinning to support
the legal conclusion of obviousness”)); see In re Warsaw
Orthopedic, Inc., 832 F.3d 1327, 1333 (Fed. Cir. 2016) (citing
DyStar Textilfarben GmbH & Co. Deutschland KG v.
C. H. Patrick Co., 464 F.3d 1356, 1360 (Fed. Cir. 2006)).
1.

Overview of Sourcefire

Sourcefire is a user guide for the Sourcefire 3D
System, a system that provides “real-time network
intelligence for real-time network defense.” Ex. 1004,
32. 4 The system operates via “3D Sensors” that can
each run the Sourcefire “Intrusion Prevention System”
(IPS), which allows monitoring of networks for attacks
4. All citations to Sourcefire refer to the document’s original
pagination.

172a
Appendix E
by examining packets for malicious activity. Id. at 33–34.
Users can create custom “intrusion rules” to examine
packets for attacks and manage the rules across all the
3D Sensors in the system through a centralized “Defense
Center.” Id. at 34, 254.
Intrusion rules can be “pass” rules, “alert” rules, or
“drop” rules. Id. at 761. If a pass rule is met, the network
traffic in question is ignored (and allowed to continue). Id.
Conversely, if a drop rule is met, the packet is dropped and
an “event” is generated. Id. Rules can be written based
on “keywords” and their “arguments,” i.e., the possible
values of the keyword. Id. at 762–763.
T h e S o u r c e f i r e 3 D S y s t e m a l s o fe a t u r e s
“preprocessors” that can facilitate processing of network
traffic by identifying and decoding certain types of
traffic, such as HTTP (hypertext transfer protocol) and
SSL (secure sockets layer) traffic. Id. at 513–514. The
SSL preprocessor, for example, can be used to identify
encrypted traffic that IPS cannot analyze, thereby
enabling IPS to ignore (pass) the encrypted packets and
avoid wasting resources trying to inspect them. Id. at 596.
2.

Public Accessibility of Sourcefire

Petitioner asserts that Sourcefire qualifies as prior
art under § 102(a)(1). Pet. 24. Patent Owner asserts
that Sourcefire does not qualify as applicable prior art
because it is not a printed publication. See PO Resp.
2–11 (citing 35 U.S.C. § 311(b)); PO Sur-reply 2–10. In
determining whether a prior art reference constitutes a

173a
Appendix E
printed publication, “the touchstone is public accessibility.”
In re Bayer, 568 F.2d 1357, 1359 (CCPA 1978); see Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348 (Fed.
Cir. 2016). “A given reference is ‘publicly accessible’ upon
a satisfactory showing that such document has been
disseminated or otherwise made available to the extent
that persons interested and ordinarily skilled in the
subject matter or art exercising reasonable diligence, can
locate it.” SRI Int’l, Inc. v. Internet Sec. Sys., Inc., 511
F.3d 1186, 1194 (Fed. Cir. 2008) (quoting Bruckelmyer v.
Ground Heaters, Inc., 445 F.3d 1374, 1378 (Fed. Cir. 2006)).
Petitioner contends that Sourcefire was publicly
available because (1) it was actually disseminated to
hundreds of customers who purchased Sourcefire 3D
System products, and (2) it was available on Sourcefire’s
support website. See Pet. 24; Pet. Reply 2. As explained
below, we conclude that Petitioner has shown sufficiently
that Sourcefire was publicly available due to its actual
dissemination to customers.
According to Petitioner, Sourcefire was enclosed
on a CD-ROM disk that was “included w ith each
[Sourcefire] 3D System appliance sold, and offered for
sale, from April 2011 through at least March 2013 – no
less than two years before the ’722 Patent.” Pet. Reply 3.
Specifically, Petitioner asserts there were “586 sales of
the [Sourcefire] 3D System that included [the Sourcefire
reference]” during this time period. Id. Petitioner relies
on the testimony of John Leone and Jacob H. Baugher III,
two former employees of Sourcefire’s manufacturer. Id.
(citing Ex. 1005 (Leone Declaration); Ex. 1042 (Baugher

174a
Appendix E
Declaration)). Mr. Leone testified that Sourcefire was
included with every Sourcefire 3D System product in
that timeframe, and that “approximately 586 customers
purchased the Sourcefire 3D System from April 2011
through March 2013 and had access to the Sourcefire
3D System User Guide.” Ex. 1005 ¶¶ 11, 19. Mr. Baugher
provided corroborating testimony in which he explained
how Sourcefire sales records were kept and that, based
on those records, “there were approximately 586
customers that purchased the Sourcefire 3D System
from April 2011 through March 2013.” Ex. 1042 ¶¶ 5–8.
He further testified that “[t]hese 586 customers include
entities having large network security teams,” including
Microsoft, Symantec, and various other technology
companies, as well as governmental organizations such
as the U.S. Department of Defense, the U.S. Department
of Homeland Security, and the North Atlantic Treaty
Organization (NATO). Id. ¶ 9.
Additionally, Petitioner cites a press release about the
relevant Sourcefire 3D System published in BusinessWire
in April 2011 (Ex. 1034), a product review for the
Sourcefire 3D System published by ITPro in January
2007 (Ex. 2009), and a product review for the system
published by SC Media in May 2006 (Ex. 2010), as evidence
establishing that the Sourcefire 3D System (including
its accompanying user manual, the Sourcefire reference)
was publicly marketed and sold to customers. Pet. Reply
4. Patent Owner argues that these facts and Petitioner’s
evidence are insufficient to establish public accessibility
under controlling case law. See PO Sur-reply 3–10.

175a
Appendix E
Petitioner relies on Mass. Inst. of Tech. v. AB Fortia,
774 F.2d 1104 (Fed. Cir. 1985) (“MIT”). Pet. Reply 3. In
MIT, a paper was orally presented at a scientific conference
attended by “50 to 500 cell culturists.” 774 F.2d at 1108.
Copies of the paper “were distributed on request, without
any restrictions, to as many as six persons.” Id. at 1108–09.
The Federal Circuit held that these facts were sufficient
to establish public accessibility. Id. at 1109; see also In re
Klopfenstein, 380 F.3d 1345, 1349 (Fed. Cir. 2004) (“The
key to the court’s finding [in MIT] was that actual copies
of the presentation were distributed.”). Petitioner also
cites Garrett Corporation v. United States, 422 F.2d 874,
878 (Ct. Cl. 1970). Pet. Reply 3. In Garrett, the court held
that a government report was a “printed publication”
under § 102(b) because approximately 80 copies were
disseminated, including to six commercial companies.
422 F.2d at 878. The court held that “distribution to
commercial companies without restriction on use clearly”
established that the report is a printed publication. Id.
Patent Owner relies on Medtronic, Inc. v. Barry, 891
F.3d 1368 (Fed. Cir. 2018). PO Sur-reply 4–5. In Medtronic,
the prior art at issue was disseminated to attendees of
three conferences. 891 F.3d at 1379. The Federal Circuit
distinguished Medtronic from past cases involving
references stored in repositories (e.g., libraries)—rather
than considerations like indexing and cataloguing, the
relevant inquiry was whether the distribution of the
reference to certain groups of people was sufficient for
public accessibility. Id. at 1379–80. Issues underlying
that inquiry include, for example, “whether there is an
expectation of confidentiality between the distributor and
the recipients of the materials,” as well as “[t]he expertise

176a
Appendix E
of the target audience.” Id. at 1381–82. Although agreeing
with the Board that “[d]istributing materials to a group
of experts” is not enough for public accessibility “simply
by virtue of the relative expertise of the recipients,” the
Federal Circuit held that the Board in that case had
not sufficiently considered all of the recipients of the
distributed materials, or whether all the recipients were
expected to hold the distributed materials in confidence.
Id. at 1382–83.
Based on the above facts and case law, we conclude
that Sourcefire was publicly accessible. The evidence
of record indicates that the Sourcefire 3D System was
publicly marketed and sold, and that the Sourcefire
reference was actually distributed to over 500 customers
of the Sourcefire 3D System. Ex. 1005 ¶¶ 11, 19; Ex.
1042 ¶¶ 5–9. This vastly exceeds the distribution to six
people in MIT and distribution of 80 copies in Garrett.
Record evidence also supports Petitioner’s contention
that the customers who received Sourcefire included
entities interested in network security products, including
persons of ordinary skill in the art. See Ex. 1042 ¶ 9; see
also Ex. 1004, 1, 32–33 (identifying Sourcefire as a “User
Guide” and indicating Sourcefire provides information
for network administrators); Ex. 1005 ¶ 5 (indicating
Sourcefire was drafted in consultation with, and reviewed
by, engineers who designed the Sourcefire system).
Moreover, similar to MIT and as discussed in Medtronic,
the record indicates that the recipients of Sourcefire were
not subject to confidentiality requirements restricting
use or further distribution. See Ex. 1004, 2 (Sourcefire
copyright page stating, “You may use . . . and otherwise

177a
Appendix E
copy and distribute [Sourcefire] solely for non-commercial
use”). 5 Although Patent Owner asserts that MIT and
Klopfenstein are distinguishable because they involved
“the free distribution of academic documents to conference
and meeting attendees” (PO Sur-reply 7), case law
indicates that distribution to commercial entities also may
be sufficient. See Garrett, 422 F.2d at 878; Pet. Reply 3.6
Patent Owner argues that Mr. Leone’s testimony
regarding the number of customers who purchased
relevant Sourcefire products (and, thus, received the
Sourcefire reference) is not credible. See PO Resp. 6–7;
PO Sur-reply 8. According to Patent Owner, insufficient
5. Patent Owner asserts that “Mr. Baugher reveals that each
sale of a Sourcefire product was subject to licensing restrictions,”
arguing that such restrictions preclude public accessibility. PO Surreply 9–10 (citing Ex. 2017, 47:6–18). Mr. Baugher, however, does not
mention any “licensing restrictions,” instead indicating only that a
“signed sales order” or a “purchase order” was required. Ex. 2017,
47:6–21. He also mentions that customers would “click through an
agreement to agree to our terms and conditions,” but Patent Owner
does not identify any evidence about those terms and conditions or
otherwise explain how they show restrictions on the dissemination
of Sourcefire.
6. Both decisions by Board panels relied on by Patent Owner
(PO Sur-reply 5–6) are distinguishable on their facts, including
because both involved references that were subject to restrictions
prohibiting their reproduction or further dissemination. See ASM
IP Holding B.V., v. Kokusai Elec. Corp., IPR2019-00369, Paper 8, at
18 (PTAB June 27, 2019); VMAC Global Techs. Inc., v. Vanair Mfg,
Inc., IPR2018-00670, Paper 9, at 13–14 (PTAB Aug. 10, 2018). In
ASM, the panel further noted that there was no evidence of actual
dissemination to interested artisans. See ASM, Paper 8, at 17.

178a
Appendix E
explanation was provided as to “how many ‘documentation
disks’ were provided with the product and whether the
documentation disks were indexed in any meaningful
way,” and Mr. Leone’s role does not indicate sufficient
personal knowledge about sales or customers. See PO
Resp. 6–7; PO Sur-reply 8.
The relevant question, however, is not whether
Sourcefire was publicly accessible on a certain number
or format of “documentation disks,” but rather whether
Sourcefire was adequately disseminated. Regarding
Mr. Leone’s credibility, we find his testimony to be
credible and persuasive, particularly as supported by the
testimony of Mr. Baugher, who also confirmed the number
of customers who purchased the Sourcefire system. See
Ex. 1042 ¶¶ 5–8. We note that Patent Owner declined to
depose Mr. Leone to determine the extent of his personal
knowledge or the manner in which he informed himself of
the facts necessary for his testimony. See Pet. Reply 3–4.
Patent Owner also is not seeking to exclude any aspect of
Mr. Leone’s testimony for any reason, including for lack of
personal knowledge under Rule 602. See Paper 28 (Patent
Owner’s motion to exclude); Fed. R. Evid. 602.
Patent Owner also challenges Mr. Baugher’s testimony,
asserting that Mr. Baugher’s methodology for determining
the relevant customers was flawed. See PO Sur-reply
8–9. We are not persuaded, however, because Patent
Owner’s assertions are not consistent with Mr. Baugher’s
testimony. For example, according to Patent Owner,
Mr. Baugher’s “method of analysis relied entirely on a
SKU (stock keeping unit) scheme in which certain SKUs

179a
Appendix E
contained the ‘3D’ prefix in its value,” which allegedly
undermines his testimony because he could not “verify
that he specifically analyzed sales record having a product
description naming Sourcefire 3D Sensor products, i.e.,
specific products named in Mr. Leone’s declaration as . . .
containing the Sourcefire reference.” Id. (citing Ex. 2017,
53:5–25 (emphasis added by Patent Owner)).
Mr. Baugher testified, however, that the records he
relied on included both SKU descriptions and product
descriptions. See Ex. 2017, 52:24–53:4; see also id. at
51:4–52:23 (indicating the records were identified based
on “product family” rather than “SKU alone,” and that
each SKU was accompanied by “a description of the
product . . . which would also identify it as a 3D product
type”). Additionally, Mr. Leone’s Declaration named “3D
Sensor” products as only one example of products that
included the Sourcefire reference, i.e., “each Sourcefire
3D System appliance (e.g., 3D Sensor, Defense Center).”
Ex. 1005 ¶ 11. Thus, whether Mr. Baugher could recall
that “3D Sensor” products specifically were included is of
limited relevance given his explanation that the records
were identified based on the Sourcefire 3D System product
family. See Ex. 2017, 51:4–53:4.
Patent Owner also argues that, even if sales of
Sourcefire products (including the Sourcefire reference)
were established, such dissemination is insufficient, and
that Petitioner must additionally demonstrate that a
person of ordinary skill would have been able to locate
Sourcefire through reasonable diligence. PO Resp. 2–3,
7–8; PO Sur-reply 4–6, 7–8 (citing Acceleration Bay,

180a
Appendix E
LLC v. Activision Blizzard, Inc., 908 F.3d 765, 772 (Fed.
Cir. 2018)). The Federal Circuit has indicated that public
accessibility is established by showing that the reference
was “disseminated or otherwise made available to the
extent that persons interested and ordinarily skilled in
the subject matter or art, exercising reasonable diligence,
can locate it.” Acceleration Bay, 908 F.3d at 772 (quoting
Jazz Pharm., Inc. v. Amneal Pharm., LLC, 895 F.3d
1347, 1355–56 (Fed. Cir. 2018)) (emphasis added). Here,
Petitioner has shown that Sourcefire was “disseminated” to
interested artisans; thus, it is unnecessary to additionally
show that it was also “otherwise” made available to them.
See Klopfenstein, 380 F.3d at 1349 (“The key to the court’s
finding [in MIT] was that actual copies of the presentation
were distributed.”). We note the Federal Circuit has
held that if the latter is shown (i.e., accessibility through
reasonable diligence), it is unnecessary to show actual
access or dissemination. See, e.g., Jazz Pharm., 895 F.3d
at 1356 (“If accessibility is proved, there is no requirement
to show that particular members of the public actually
received the information.”).
Consequently, we are unpersuaded that Sourcefire
was not publicly accessible due to various issues
surrounding whether the Sourcefire website made the
reference adequately accessible, given the evidence
of actual dissemination through sales and commercial
distribution. See PO Resp. 3–5; PO Sur-reply 2–3. Nor
are we persuaded by Patent Owner’s contention that
the cost of the Sourcefire 3D System was too high and,
thus, a skilled artisan would not have been able to access
Sourcefire. See PO Resp. 8–9; PO Sur-reply 6–7. The

181a
Appendix E
cost did not prevent over 500 customers from actually
obtaining Sourcefire by purchasing Sourcefire 3D System
products. Moreover, there is no evidence in the record
indicating that sales of the relevant Sourcefire products
were restricted or limited to only certain customers, or
that the cost7 of acquiring a Sourcefire 3D System product
was prohibitively high to the relevant artisans.
Additionally, Patent Owner cites In re Bayer, 568 F.2d
1357 (CCPA 1978), arguing the prior art in Bayer (a thesis)
was held not to have been publicly accessible despite actual
distribution to faculty on a graduate committee reviewing
the thesis. PO Sur-reply 5. In Bayer, the relevant issue was
whether the appellant’s “uncatalogued, unshelved thesis,
by virtue of its accessibility to the graduate committee,”
constituted a printed publication. 568 F.2d at 1359. The
Federal Circuit has clarified Bayer, explaining that the
thesis was held not publicly accessible because “a work is
not publicly accessible if the only people who know how
to find it are the ones who created it,” such as the faculty
on the graduate committee reviewing and advising on
student theses. See Samsung Elecs. Co. v. Infobridge Pte.
Ltd., 929 F.3d 1363, 1371–72 (Fed. Cir. 2019). Thus, Bayer
is inapposite here, where Sourcefire was distributed to
over 500 customers.
7. The record includes evidence of a range of prices for various
configurations of Sourcefire 3D System products, from $1,385 to
£25,000. Ex. 2009, 1; Ex. 2010, 1. Based on Mr. Leone’s testimony,
Sourcefire would have been distributed with the purchase of any
of these products. Ex. 1005 ¶ 11 (testifying that Sourcefire was
“included with each Sourcefire 3D System appliance (e.g., 3D Sensor,
Defense Center) sold to a customer”).

182a
Appendix E
In summary, we find that a preponderance of the
evidence establishes that Sourcefire was distributed
commercially through sales of the Sourcefire 3D System
to over 500 customers, including interested persons of
ordinary skill, and that those customers were not subject
to any restriction or expectation of confidentiality with
regard to its use or further distribution. Therefore, we
conclude that Sourcefire was publicly accessible, and that
it constitutes prior art under § 102(a)(1).
3.	Independent Claim 1
Petitioner contends claim 1 of the ’722 Patent would
have been obvious in view of Sourcefire. As explained in
more detail below, we find that Petitioner has shown by
a preponderance of the evidence that Sourcefire teaches
each limitation of claim 1.
a.

Limitation 1[a]

Limitation 1[a] of claim 1 recites, “receiving, by a
packet-filtering device, a plurality of packet-filtering rules
configured to cause the packet-filtering device to identify
packets corresponding to at least one of a plurality of
network-threat indicators.”
Petitioner identifies Sourcefire’s 3D Sensor with IPS as
the recited “packet-filtering device,” and the rules received
by the 3D Sensor via, for example, intrusion policies
imported from a centralized Defense Center as the recited
“packet-filtering rules.” Pet. 36–39 (citing inter alia Ex.
1004, 34, 105, 338–350, 2001–2002). With respect to the

183a
Appendix E
recited “network-threat indicators,” Petitioner relies on
Sourcefire’s disclosures regarding rules using IP addresses
or ports, for example, to take an action (e.g., passing or
dropping) on a data packet. Id. at 39 (citing Ex. 1004,
762–769). Specifically, Petitioner identifies Sourcefire’s
discussion of “source or destination IP address, source
or destination port, protocol, keyword (e.g., malicious
URL/URI), etc.[] associated with the particular exploit
that the rule was designed to protect” as examples of
“data . . . corresponding to characteristics associated with
malicious activities” that teach the recited “network-threat
indicators.” Id. at 38–39 (citing Ex. 1004, 34, 762–769). The
Petition explains that Sourcefire, thus, teaches receiving
the recited “packet-filtering rules” configured to cause a
3D Sensor device to identify packets corresponding to,
for example, certain IP addresses identifying a source of
malicious activity (“network-threat indicators”). Id.
We are persuaded by Petitioner’s reasoning and
evidence. Patent Owner’s arguments, discussed in more
detail below, are unpersuasive and are inconsistent with the
weight of the record evidence. Thus, we find that Sourcefire
teaches limitation 1[a] of claim 1.
In particular, Sourcefire discloses that “[b]y placing
3D Sensors with IPS on key network segments, you
can examine the packets that traverse your network for
malicious activity,” and that the 3D Sensors use “rules . . .
to look for the broad range of exploits that attackers have
developed.” Ex. 1004, 34. Further, Sourcefire describes
these rules as follows:

184a
Appendix E
An intrusion rule is a specified set of keywords
and arguments on a 3D Sensor with the IPS
component that detects attempts to exploit
vulnerabilities on your network by analyzing
network traffic to check if it matches the criteria
in the rule. IPS compares packets against the
conditions specified in each rule and, if the
packet data matches all the conditions specified
in a rule, the rule triggers.
Id. at 761. Consequently, we find that Sourcefire teaches
the recited “packet-filtering device” (3D Sensor with IPS),
which examines packets using “packet-filtering rules”
(intrusion rules). Sourcefire also teaches that intrusion
rules are “received” by the packet-filtering device (3D
Sensor) from a Defense Center, which is used to manage
multiple 3D Sensors and provide them with intrusion
policies that include intrusion rules. See id. at 34, 105,
338–350, 2001–2002.
Sourcefire indicates that an intrusion rule may specify
“source and destination IP addresses,” “source and
destination ports,” and “keywords and their parameters
and arguments.” Id. at 762. Using these aspects of a
rule, a user can “restrict packet inspection to the packets
originating from specific IP addresses.” Id. at 766–767;
see also id. at 768–769 (teaching similar restrictions for
packets originating from specific ports). Based on these
disclosures, we find that Sourcefire teaches packet-filtering
rules that are “configured to cause the packet-filtering
device to identify packets corresponding to,” for example,
specific source IP addresses (e.g., computers located at
those IP addresses).

185a
Appendix E
We further find that Sourcefire teaches the recited
“network-threat indicators.” As discussed above, a
“network-threat indicator” is properly construed as an
“indicator that represents the identity of a resource
associated with a network threat.” The source IP address
discussed in Sourcefire identifies the source of a packet.
See id. at 768–769. As noted above, Sourcefire indicates
intrusion rules are used to identify “exploits” from
attackers such that 3D Sensors employing those rules
examine packets for “malicious activity.” Id. at 34, 761.
Thus, we are persuaded that a person of ordinary skill
would understand these disclosures of Sourcefire to teach
packet-filtering rules (intrusion rules) configured to cause
a packet-filtering device (3D Sensor with IPS) to identify
packets corresponding to at least one of a plurality of
indicators (source IP addresses) that represent the identity
of a resource (computer located at the source IP address)
associated with a network threat (exploit or other malicious
activity). See Ex. 1003 ¶¶ 114–116. Indeed, we note that
the Specification of the ’722 Patent itself identifies “network
addresses” associated with network threats as examples of
“network-threat indicators.” Ex. 1001, 3:23–24.
Patent Owner disputes that Sourcefire teaches the
recited “network-threat indicators” for a number of reasons,
all of which are unpersuasive. See PO Resp. 29–48. First,
Patent Owner asserts that “the source IP address specified
in the Rule Header is used merely to ‘restrict packet
inspection’” and “not because the IP addresses and ports
are associated with a network threat.” Id. at 32–33. Further,
Patent Owner notes that Sourcefire indicates source and
destination IP addresses are used, at least in part, to

186a
Appendix E
“remov[e] the possibility of the rule triggering against
packets whose source and destination addresses do not
indicate suspicious behavior.” Id. at 32–33, 40–42 (citing Ex.
1004, 766–767 (emphasis added)). These arguments, however,
ignore Sourcefire’s teachings about using intrusion rules to
detect exploits and malicious activity (see Ex. 1004, 34, 761),
rather than only identifying “known trusted IP addresses”
on a “whitelist” that should not be inspected, as Patent
Owner suggests (PO Resp. 40–42). We find that an ordinary
artisan would have been taught by Sourcefire’s disclosures to
use source and destination IP addresses to configure the rule
to more accurately target only packets with IP addresses
that do indicate suspicious behavior, consistent with our
construction of “network-threat indicators.”
Next, Patent Owner cites particular examples in
Sourcefire that it alleges support its position—for instance,
the example of a rule shown on pages 763–764 of Sourcefire
indicates the rule applies to “traffic coming from any host
that is not on your internal network,” and that example
rule specifies various other criteria that are applied
instead of specific network-threat indicators. PO Resp.
33–35, 45–46. Petitioner does not, however, rely solely on
that particular example rule—other aspects of the same
sections of Sourcefire undermine Patent Owner’s position
and support Petitioner’s view, as discussed above. For
example, Sourcefire also provides examples of rule header
syntax that would configure the intrusion rule to apply to
a specific source IP address. See Ex. 1004, 766–767. As a
result, Patent Owner’s argument is not persuasive.
Similarly, Patent Owner’s arguments regarding the
example of an “intrusion event” on pages 282–283 of

187a
Appendix E
Sourcefire also are unpersuasive because they erroneously
focus on only part of Sourcefire’s disclosure. See PO
Resp. 35–38, 46–48. For instance, Patent Owner argues
that certain “5-tuple information” (including source IP
address) in that particular example was not used in the
relevant intrusion rule and, thus, could not teach the
network-threat indicator. Id. at 36–38. This argument,
however, ignores Sourcefire’s teachings regarding rules
in which source IP addresses are used as a network-threat
indicator, as discussed above—whether Sourcefire also
includes examples that may not disclose limitation 1[a]
is inapposite. Moreover, we note that Petitioner does not
rely on the “intrusion event” disclosure for limitation 1[a],
but rather cites it in its arguments relating to limitation
1[e]. See Pet. 42–44. Likewise, Patent Owner’s argument
(PO Resp. 43) that Sourcefire’s “Rule Categories” do
not include a category based on “traffic identified based
upon the identity of a resource associated with a network
threat” also is unpersuasive because Petitioner does not
rely on those disclosures of Sourcefire. 8
Patent Owner further argues that “Sourcefire does not
disclose any source of information for constructing rules
that identify resources associated with a network attack.”
PO Resp. 41 (citing Ex. 2002 ¶ 94) (emphasis in original).
According to Patent Owner, “[t]hat concept is simply missing
8. We note that the “Rule Categories” cited by Patent Owner
include categories for rules detecting traffic identified based on, for
example, specific communications protocols (e.g., FTP, POP2, NNTP,
SNMP), “UNIX or Linux-based remote services,” whether the
traffic “originate[s] from telnet servers,” and whether the traffic is
“suspicious traffic sent to or from web servers,” as well as a category
for “[u]ser-defined rules” created based on the rule customization
instructions described in Sourcefire. Ex. 1004, 427–430.

188a
Appendix E
from Sourcefire because Sourcefire is not designed to
operate on the basis of network threat indicators, but rather
on the basis of inspecting content in received traffic for
exploits.” Id. (citing Ex. 2002 ¶ 94). No further explanation is
given to support these conclusory statements. For example,
Patent Owner does not address why a computer located at
a specific source address would not constitute a “resource,”
or explain why operating on the basis of network-threat
indicators and inspecting content in received traffic are
mutually exclusive. See id. The only evidence cited is the
testimony of Dr. Orso, but that testimony likewise fails to
provide more than the same conclusory statements—indeed,
the cited testimony is nearly a verbatim repetition of Patent
Owner’s brief, which undermines its credibility. See id.;
Ex. 2002 ¶ 94; 37 C.F.R. § 42.65(a) (“Expert testimony that
does not disclose the underlying facts or data on which the
opinion is based is entitled to little or no weight.”). As a
result, we find this argument unpersuasive and insufficiently
supported compared to Petitioner’s contentions and
evidence, discussed above.
The next argument advanced by Patent Owner is that
Sourcefire’s teachings do not satisfy the proper construction
of “network-threat indicator” because Sourcefire allegedly
teaches that the IP addresses used in intrusion rules are
only “retroactively discovered to be associated with a
network threat after an exploit is found in content received
from that IP address.” 9 PO Resp. 42 (citing Ex. 2002
¶ 95); see PO Sur-reply 14–15. Aside from Dr. Orso’s near9. Patent Owner also raises related issues regarding disclosures
about the “Sourcefire VRT.” PO Resp. 42–43. As Petitioner relies
on such disclosures for certain dependent claims, we address them
below in the context of those dependent claims.

189a
Appendix E
verbatim repetition of these arguments, however, Patent
Owner cites no evidence to support its allegation.
Moreover, Patent Owner’s characterization of
Sourcefire is undercut by the disclosures of Sourcefire
relied on by Petitioner. As discussed above, Sourcefire
teaches 3D Sensor devices that use intrusion rules to
identify exploits and other malicious activity. See Ex. 1004,
34, 761. According to Sourcefire, packets are examined to
determine whether they match the criteria specified by
the rules, in which case the rule would be triggered. Id.
at 761. Sourcefire also teaches that rules can be selected
and enabled “that would detect the attacks you think
most likely to occur on your network,” including “custom
intrusion rules tuned to your environment.” Id. at 34.
We find that this evidence supports Petitioner’s
contention that Sourcefire teaches the recited “networkthreat indicator” because Sourcefire is describing
measures to be taken to protect the system from malicious
activity.10 See id. at 34, 761. Patent Owner’s allegation
essentially characterizes Sourcefire’s system as incapable
of proactive protection, instead only “retroactively”
identifying malicious activity that has already penetrated
the system. That characterization, however, is inconsistent
with Sourcefire’s disclosures discussed above.
Patent Owner additionally argues that a person of
ordinary skill “would distinguish between the use of
10. As discussed in more detail below, Sourcefire indicates that
the rule may be configured as a “drop rule” such that the packet is
dropped instead of being passed through, thereby preventing the
packet from causing damage. See Ex. 1004, 761.

190a
Appendix E
network-threat indicators in the claimed invention and
Sourcefire’s use of signature or patterns,” citing a document
describing one of Petitioner’s products. PO Sur-reply 13–14
(citing Ex. 2001, 3). But Patent Owner does not explain
adequately how a description of Petitioner’s product—which
does not reference Sourcefire or use the term “networkthreat indicator”—bears on Sourcefire’s teachings or
limitation 1[a] (or any specific language of claim 1). See id.
In addition, Patent Owner challenges Dr. Staniford’s
testimony on the grounds that Dr. Staniford applied a
different claim construction of “network-threat indicator”
than our construction, allegedly construing the term
as “any rule that utilizes an IP address, port number,
or URL as part of the rule criteria . . . even if the IP
address is not associated with a network threat.” PO
Resp. 39 (citing Ex. 2008, 49:2–50:14). Patent Owner
mischaracterizes Dr. Staniford’s testimony, however. Dr.
Staniford instead testified that he relied on examples of
network-threat indicators provided in the Specification of
the ’722 Patent, indicating that “all of those certainly can
be potentially network-threa[t] indicators under the right
circumstances.” Ex. 2008, 49:2–50:14. In fact, although Dr.
Staniford provided his Declaration before our preliminary
construction in the Decision on Institution (or, indeed,
Patent Owner’s Preliminary Response that proposed that
construction), he confirmed that he subsequently reviewed
our construction and that it does not change his opinions
regarding obviousness. Id. at 7:23–25, 9:12–18. Thus, we
discern no defect in Petitioner’s reliance on the testimony
of Dr. Staniford here.

191a
Appendix E
For the reasons explained above, we find that
Petitioner has shown by a preponderance of the evidence
that Sourcefire teaches limitation 1[a].
b.

Limitations 1[b]–1[d]

For limitations 1[b] through 1[d], Petitioner relies
on Sourcefire’s description of applying intrusion rules to
packets and taking actions on those packets as specified by
the rules. Pet. 39–42. Aside from its arguments discussed
above with respect to limitation 1[a], which we addressed
above, Patent Owner raises no further arguments
regarding claim 1.
More specifically, as discussed above as well for
limitation 1[a], Petitioner contends Sourcefire discloses
rules that identify packets corresponding to particular
source IP addresses, including the IP addresses of
network threats (network-threat indicators). Id. at
40–41. According to Petitioner, this teaches the recited
“determination by the packet-filtering device that the first
packet satisfies one or more criteria . . . that correspond
to one or more network-threat indicators.” Id. We agree.
Sourcefire discloses that its 3D Sensor devices “analyz[e]
network traffic to check if it matches the criteria in the
rule.” Ex. 1004, 761. As discussed above, Sourcefire
teaches the use of source IP addresses as network-threat
indicators. Further, Sourcefire expressly teaches using
such source IP addresses as criteria for intrusion rules.
See id. at 764–766.

192a
Appendix E
Petitioner also identifies, as the recited “operator,” the
“rule actions” that are specified by each rule, which are
applied to a packet if the packet triggers the rule based on,
for example, its source IP address (i.e., “responsive to” the
determination that the rule criteria is met). Id. at 41–42
(citing Ex. 1004, 276–277, 761, 765). These rule actions
include “pass” or “alert,” which cause the packet to continue
toward its destination. Id. We find that this evidence
supports Petitioner’s contention that Sourcefire teaches
applying an operator specified by the packet-filtering rule
and configured to cause the first packet to continue toward
its destination, as recited in claim 1.
For the above reasons, we find that a preponderance of
the evidence establishes that Sourcefire teaches limitations
1[b] through 1[d] of claim 1.
c.

Limitations 1[e] and 1[f]

With respect to limitations 1[e] and 1[f], Petitioner
relies on Sourcefire’s disclosures relating to intrusion
events. Pet. 42–46. For example, Petitioner cites the
figure on page 283 of Sourcefire, which is presented with
annotations in the Petition (reproduced below):

193a
Appendix E
Pet. 43; see Ex. 1004, 283 (original figure). This figure
is a screenshot of Sourcefire’s “packet view” interface
displaying information for an intrusion event (Ex. 1004,
282–283), with Petitioner’s annotations. As Petitioner
asserts (Pet. 42–44), Sourcefire indicates that its 3D
Sensor devices communicate such intrusion event
information to the Defense Center. Ex. 1004, 253–254, 290.
Sourcefire discloses that the packet view “indicates
why a specific packet was captured by providing
information about the intrusion event that the packet
triggered, including . . . the rule that generated the
event.” Ex. 1004, 290. Petitioner notes Sourcefire’s
teaching that the intrusion event information includes
source and destination IP addresses. Pet. 43; see Ex.
1004, 282–283. In light of the teachings of Sourcefire
discussed above regarding using, for example, source IP
addresses associated with malicious activity as networkthreat indicators, we are persuaded that Sourcefire’s
intrusion event disclosures teach a packet-filtering device
(3D Sensor) communicating information from a packetfiltering rule (intrusion rule) that identified a networkthreat indicator (e.g., source IP address associated with
malicious activity).
As already noted, Patent Owner argues that the
specific rule depicted in the example intrusion event above
does not use a network-threat indicator. See PO Resp.
35–38, 46–48. This argument, however, ignores the other
disclosures in Sourcefire identified by Petitioner that
teach using source IP addresses and similar information
to detect malicious traffic, as discussed above. When

194a
Appendix E
taken together, we agree with Petitioner that Sourcefire’s
disclosures regarding both intrusion rules and intrusion
events teach communicating information from a rule
that identified a network-threat indicator, as recited in
limitation 1[e].
For the recited “data indicative that the first packet
was allowed to continue toward the destination of the
first packet,” Petitioner cites the figure on page 281 of
Sourcefire, which is presented with annotations in the
Petition (reproduced below):

Pet. 44–45; see Ex. 1004, 281 (original figure). This figure
is a screenshot of Sourcefire’s “table view of intrusion
events” (Ex. 1004, 280–281), with Petitioner’s annotations.
Petitioner notes that this table shows for each event (i.e.,

195a
Appendix E
each packet), an icon (annotated in red) indicating the
result of the rule action applied to that packet. Pet. 44–45.
For example, a black down arrow indicates the packet
was dropped, whereas no icon indicates the packet was
not dropped, i.e., allowed to continue. Ex. 1004, 276–277.
We agree with Petitioner that this evidence shows that
Sourcefire teaches communicating “data indicative that
the first packet was allowed to continue toward the
destination of the first packet,” as recited in limitation 1[e].
Additionally, we agree with Petitioner that the packet
view and table view described and depicted in Sourcefire
teach “display of the information . . . corresponding to the
packet-filtering rule and the one or more network-threat
indicators,” as recited in limitation 1[f]. See Pet. 45–46;
Ex. 1004, 126, 280–283.
For the above reasons, we find that a preponderance
of the evidence demonstrates that Sourcefire teaches
limitations 1[e] and 1[f] of claim 1.
d.

Limitations 1[g]–1[l]

For the remaining limitations of claim 1, Petitioner
relies on Sourcefire’s description of how a user can use the
Sourcefire intrusion event interface to modify rules, which
are then applied to packets going forward. Pet. 46–51.
The Petition includes a step-by-step explanation of how
Sourcefire describes using the intrusion event interface
of Sourcefire to select a particular event, select the “Rule
Actions” menu in packet view, and change the rule action
to drop triggering packets (instead of “alert,” which

196a
Appendix E
allows a packet to continue while generating an event)
such that intrusion policies are updated with the modified
rule. Id. at 46–49 (citing Ex. 1004, 281–283, 290–297, 358,
359; Ex. 1003 ¶¶ 132–136). According to Petitioner, these
disclosures teach “modifying . . . at least one operator
specified by the packet-filtering rule to reconfigure
the packet-filtering device to prevent packets . . . from
continuing toward their respective destinations,” and
doing so “responsive to” receiving an instruction from a
user “invoking an element in . . . the interface,” as recited
in claim 1. We agree and find that the cited evidence
supports Petitioner’s contention.
Petitioner further explains how Sourcefire teaches
that the rule, when modified to drop packets as described,
would prevent a second packet from continuing toward
its destination. Id. at 50. We agree with Petitioner. In
fact, Sourcefire expressly describes “two scenarios”
in which a rule is initially set to generate events (but
allow a malicious packet through) in a first scenario, but
is instead set to drop packets in a second scenario, in
which case the “malicious packet” is dropped and “never
reaches its target.” Ex. 1004, 435. Further, because drop
rules also generate events, we agree with Petitioner that
Sourcefire teaches “communicating . . . data indicative
that the second packet was prevented from continuing,”
and displaying that data in the intrusion event interface,
as with other intrusion events. See id. at 50–51 (citing Ex.
1004, 276, 290; Ex. 1003 ¶ 138).
Patent Owner does not advance any arguments
regarding these limitations. We determine that the

197a
Appendix E
evidence cited by Petitioner supports its contentions with
respect to limitations 1[g] through 1[l], and we find that
Sourcefire teaches each of these limitations based on that
evidence, as explained above.
e.

Conclusion on Claim 1

For the reasons explained above, we find Petitioner
has shown by a preponderance of the evidence that
Sourcefire teaches each limitation of claim 1.
4.	Dependent Claims
a.

Claims 8 and 9

Claim 8 recites, “for each packet in the second portion
of packets, generating the packet-log entry while the
packet-filtering device is generating one or more flowlog entries for one or more packets in the first portion of
packets” (emphasis added). Thus, claim 8 requires that
the packet-log entries for the second portion of packets be
generated at the same time that flow-log entries for the
first portion of packets are generated. Claim 9 depends
from claim 8.
Petitioner’s argument regarding the above limitation
of claim 8 refers to its arguments regarding claim 6. Pet.
65. Claim 6 recites “updating, . . . based on a packetlog entry, a packet-flow log to indicate” that a packet
satisfies one or more criteria and whether the packet was
prevented from continuing, or allowed to continue, toward
its destination. In its arguments for claim 6, Petitioner
mentions a “refresh interval”:

198a
Appendix E
Sourcefire discloses that this count (and
therefore the packet-flow log in which it is
contained) could be periodically updated.
Specifically, Sourcefire discloses that “event
preferences” could be selected by the user to
configure basic characteristics of event views
in the Sourcefire 3D System. [Ex. 1004, 46-47];
[Ex. ]1003 ¶ 162. One of these characteristics
was the “refresh [or update,] interval” which
updated event information (e.g., count (orange))
displayed in the packet flow log at the userselected refresh interval.
Pet. 60. As to claim 8, Petitioner refers to the above
argument and states the following:
As discussed above with respect to Claim 6,
a user could set a “refresh interval” for the
event data being displayed such that a packet
log entry and a flow log entry was refreshed at
a selected time interval which caused the flow
log entry to be generated while the packet log
entry was being generated. [Ex. ]1003 ¶173.
Id. at 65. These largely conclusory arguments, however, fail
to explain how refreshing an event view or event summary
page, whether at a regular interval or otherwise, teaches
generating different types of log entries at the same time
for different portions of packets in the manner claimed.
The cited testimony of Dr. Staniford does not provide any
further illumination, instead repeating essentially the
same conclusory statements made in the Petition. See Ex.
1003 ¶¶ 162, 173; 37 C.F.R. § 42.65(a).

199a
Appendix E
Petitioner’s Reply also fails to supply the necessary
explanation or supporting evidence. Petitioner notes
that “flow-log entries are generated from the packetlogs”—thus, flow-log entries must be generated after the
corresponding packet-log entries and would reflect any
changes made to those entries. Pet. Reply 19–21. Although
true, these facts pertain only to a single portion of packets,
i.e., that their packet-log entries are generated first, and
that the related flow-log entries are generated afterward.
The same is true even considering that this process can
occur at a predetermined “refresh interval.” Petitioner
does not identify any specific teaching or suggestion in
Sourcefire that indicates how the generation of log entries
for two different portions of packets would operate.
Instead, Petitioner relies on a bare assertion—without
any specific basis in Sourcefire—that “the processing of
the packet-logs and the flow-logs are continually being
updated or refreshed.” Without sufficient supporting
evidence, that bare assertion and the conclusory testimony
of Dr. Staniford are inadequate to meet Petitioner’s
burden to prove the unpatentability of these claims by a
preponderance of the evidence.
b.

Claims 10 and 14

Claim 10 depends from claim 1 and recites that “each
of the plurality of network-threat indicators corresponds
to at least one network threat of a plurality of network
threats,” and that “each of the plurality of packet-filtering
rules corresponds to a different network threat of the
plurality of network threats.” For the latter limitation,
Petitioner cites Sourcefire’s disclosure of event messages

200a
Appendix E
that identify a plurality of network threats (e.g., exploits).
Pet. 68 (citing Ex. 1004, 278, 281). Patent Owner does not
dispute that Sourcefire teaches this limitation. We find
that Petitioner’s showing is sufficient because Sourcefire
discloses that event messages, such as those cited by
Petitioner, are “pulled from the rule” for rule-based
intrusion events and, thus, demonstrate a correspondence
between a plurality of rules and a plurality of different
network threats. See Ex. 1004, 278.
For the “network-threat indicators” limitation of
claim 10, Petitioner relies inter alia on its arguments for
claim 1 regarding network-threat indicators associated
with network threats. See Pet. 67. For similar reasons
discussed above for claim 1, we find those arguments
and supporting evidence persuasive. Aside from its
arguments relating to claim 1, which we addressed above,
Patent Owner additionally argues that an example event
message cited in the Petition does not teach the recited
network-threat indicators. PO Resp. 48–50 (citing Pet.
67–68). Whether or not that specific example alone teaches
network-threat indicators, however, is not the proper
inquiry for obviousness. Rather, we consider all of the
teachings identified by Petitioner, which we determine
support Petitioner’s contention that Sourcefire teaches
the limitations of claim 10 as explained above.
Claim 14, which also depends from claim 10, recites
“determining, by the packet-filtering device, an ordering
of the plurality of network threats,” and “indicating, in
the interface, the ordering.” In addition to its arguments
for claims 1 and 10, Petitioner relies on Sourcefire’s

201a
Appendix E
description of its event interface, which allows ordering
of displayed intrusion events (and, thus, their associated
network threats) in ascending or descending order. Pet.
72 (citing Ex. 1004, 1611–1612). Specifically, Petitioner
notes that the “table view” of the interface displays the
identification of the network threat associated with each
intrusion event, which is ordered when the table entries
are ordered. See Pet. Reply 23–24 (citing Ex. 1004,
1611–1612; Pet. 45).
Patent Owner argues that the disclosures identified by
Petitioner teach only the ordering of events, not network
threats. PO Resp. 56–57; PO Sur-reply 22–23. This
argument, however, does not cite or rely on any evidence
and, thus, constitutes mere attorney argument, which
we find unpersuasive. Upon review of the arguments
and evidence presented by Petitioner, we agree with
Petitioner’s analysis and find that Sourcefire teaches the
limitations of claim 14 on that basis.
c.

Claims 13, 22, and 23

Claim 13 recites that generating the data indicating
whether a packet was prevented from continuing, or allowed
to continue, to its destination comprises “generating the
data based on the packet-flow-log entry that corresponds
to the particular network threat” (emphasis added).
Petitioner’s sole statement regarding this limitation
in the Petition is: “The indication in Sourcefire’s flow
log regarding whether the packets were dropped was
generated from data in the event log corresponding to
the network threat.” Pet. 71. This statement is conclusory,

202a
Appendix E
and neither it nor the material cited in support explains
sufficiently how Sourcefire teaches the recited limitation.
In its Reply, Petitioner adds that an annotated figure
it provided regarding claim 12 shows a depiction in
Sourcefire of a flow-log that identifies rules, associated
network threats, and associated “block option[s].” Pet.
Reply 22–23. But again, Petitioner fails to adequately
explain how that figure teaches generating data indicating
whether a packet was blocked or allowed based on the
packet-flow-log entry—indeed, the figure simply depicts
packet-flow-log entries. See id. Nor do we find persuasive
Petitioner’s conclusory statement that “[t]his is the same
information that is used to generate an entry in the packetlog,” for which no evidentiary support is identified. See
id. at 23. Thus, we conclude that Petitioner did not show
that Sourcefire teaches the limitations of claim 13 by a
preponderance of the evidence.
Claim 22 recites, “determining an order of the first
network threat relative to the second network threat based
on a determination that the first portion of the plurality
of network-threat-intelligence reports was received
from a greater number of the one or more networkthreat-intelligence providers than the second portion
of the plurality of network-threat-intelligence reports.”
Although admitting that Sourcefire does not disclose
prioritizing network threats based on the number of
network-threat-intelligence providers providing reports,
Petitioner asserts doing so would have been obvious
because “it was well known and a matter of common
sense that agreement between sources would serve to

203a
Appendix E
increase confidence in the network threat.” Pet. 83–84.
The only evidence cited is a paragraph of Dr. Staniford’s
Declaration, which is essentially identical to the Petition
and does not provide any further explanation or evidence.
See Ex. 1003 ¶ 212.
In its Reply, Petitioner points to arguments it made
with respect to claim 21, but again admits that Sourcefire
does not disclose prioritizing or ordering network threats
based on the number of network-threat-intelligence
providers, as recited in claim 22. See Pet. Reply 24–25.
Petitioner also does not identify or present any additional
evidence. We conclude that Petitioner did not meet the
burden of demonstrating by a preponderance of the
evidence that Sourcefire teaches the limitations of claim 22.
Similarly, claim 23 recites ordering network threats
“based on data . . . indicating a number of the plurality of
different packet-filtering devices that have reconfigured
an operator of the first packet-filtering rule to prevent
packets . . . from continuing toward their respective
destinations.” As with claim 22, Petitioner’s contentions
regarding this limitation are conclusory and supported
only with a citation to testimony from Dr. Staniford that
merely parrots the same contentions without providing
further explanation or evidence. See Pet. 86; Ex. 1003 ¶ 216.
In its Reply, Petitioner directs us to arguments it made
with respect to claim 10 regarding Sourcefire’s disclosure of
event information including “counts” of the number of times a
given rule was triggered to produce an event. See Pet. Reply
25–26 (citing Pet. 67–68). We are not persuaded, however,

204a
Appendix E
that a count of how many times a rule was triggered teaches
the recited “number of . . . different packet-filtering devices
that have reconfigured an operator” (emphases added).
Petitioner presents only unsupported attorney argument
on that issue. See id. Thus, we conclude that Petitioner has
not met its burden to show the unpatentability of claim 23
by a preponderance of the evidence.
d.

Claim 19

Claim 19 depends from claim 10 and recites that
receiving the plurality of packet-filtering rules comprises
“receiving a plurality of packet-filtering rules generated
based on a plurality of network-threat-intelligence reports
produced by one or more network-threat-intelligence
providers.” Petitioner relies on Sourcefire’s teachings
regarding the “Sourcefire Vulnerability Research Team”
(“Sourcefire VRT”). Pet. 75–78. Specifically, Sourcefire
describes how the Sourcefire VRT “regularly sends out
updates called Security Enhancement Updates, or SEUs,
that can contain new intrusion rules . . . so you can be sure
that you are detecting the most recently released attacks.”
Ex. 1004, 254. The Sourcefire VRT “continues to add rules
as new vulnerabilities and exploits are discovered.” Id.
at 869. Petitioner also explains how Sourcefire teaches
adding information to intrusion rules that reflect reports
and other information about a network threat.11 See Pet.
11. In the Reply, Petitioner asserts for the first time that
Sourcefire’s SEUs teach the recited “network-threat-intelligence
reports.” Pet. Reply 18. We do not consider this argument because
it is was not included in the Petition and, thus, is untimely. Moreover,

205a
Appendix E
76–77. We are persuaded by Petitioner’s arguments
and find that the evidence discussed above shows that
Sourcefire teaches receiving a plurality of packet-filtering
rules (intrusion rules) generated based on a plurality
of network-threat-intelligence reports (information on
network threats) produced by one or more network-threatintelligence providers (the Sourcefire VRT or others who
produce the information on network threats referenced in
the rules). See Ex. 1003 ¶¶ 198–199.
Patent Owner disputes that Sourcefire teaches
these limitations of claim 19, but we find its arguments
unpersuasive. Specifically, Patent Owner asserts that
Petitioner has not shown that the information about
reports on network threats described in Sourcefire
include network-threat indicators. PO Resp. 51–52.
As Patent Owner notes (id.), the Specification of
the ’722 Patent describes an embodiment in which
“[n]etwork-threat-intelligence providers 130, 132, and
134 may . . . disseminate (e.g., to subscribers) networkthreat-intelligence reports that include network-threat
indicators . . . associated with the network threats.” Ex.
1001, 3:18–26. As discussed above, however, the evidence
supports Petitioner’s contention that Sourcefire teaches
generating intrusion rules to detect network threats based
on information about those threats. See Pet. 76–78. And as
discussed with respect to claim 1 above, Sourcefire teaches
intrusion rules based on network-threat indicators.
Thus, we are persuaded that a person of ordinary skill
Petitioner does not explain how intrusion rules are “generated based
on” the SEUs when the rules in question are themselves contained
in the SEUs. See Ex. 1004, 254.

206a
Appendix E
in the art would have understood Sourcefire to teach
generating rules based on information about network
threats, including information constituting network-threat
indicators that form part of the criteria applied by the rule
(e.g., source IP address). See Ex. 1003 ¶¶ 198–199.
For the above reasons, we conclude that Petitioner has
shown by a preponderance of the evidence that Sourcefire
teaches the limitations of claim 19.
e.

Claims 2–7, 11, 12, 15–18, 20, 21, 24, and 25

Claims 2–7, 24, and 25 depend from claim 1; claims
11 and 12 depend from claim 10; claims 15–18 depend
from claim 14; and claims 20 and 21 depend from claim
19. Petitioner contends these claims are obvious in view
of Sourcefire. Pet. 51–65, 69–75, 86–89. Aside from its
arguments regarding the claims from which they depend,
which are unpersuasive for the same reasons discussed
above, Patent Owner raises no other arguments with
respect to the limitations of these claims.
Having reviewed Petitioner’s arguments and the
evidenced cited in support, we agree with the reasoning
set forth in the Petition regarding claims 2–7, 11, 12, 15–18,
20, 21, 24, and 25, and determine that the record evidence
supports Petitioner’s contentions. Therefore, based on
the Petition’s analysis and the evidence relied on therein,
we find that a preponderance of the evidence shows that
Sourcefire teaches each limitation of claims 2–7, 11, 12,
15–18, 20, 21, 24, and 25.

207a
Appendix E
f.

Conclusion on Dependent Claims

For the reasons explained above, we find Petitioner
has shown by a preponderance of the evidence that
Sourcefire teaches each limitation of claims 2–7, 10–12,
14–21, 24, and 25. We find that Petitioner has not shown by
a preponderance of the evidence that Sourcefire teaches
each limitation of claims 8, 9, 13, 22, and 23.
5.

Secondary Considerations of Non-Obviousness

Before determining whether a claim is obvious in
light of the prior art, we consider any relevant evidence of
secondary considerations—i.e., objective indicia—of nonobviousness. See Graham, 383 U.S. at 17. Notwithstanding
what the teachings of the prior art would have suggested to
one of ordinary skill in the art at the time of the invention,
the totality of the evidence submitted, including objective
evidence of non-obviousness, may lead to a conclusion that
the challenged claims would not have been obvious to one
of ordinary skill. In re Piasecki, 745 F.2d 1468, 1471–72
(Fed. Cir. 1984). Patent Owner presents evidence of three
such considerations: (1) long-felt but unmet need/failure
of others, (2) industry praise, and (3) commercial success/
licensing. PO Resp. 58–67.
“In order to accord substantial weight to secondary
considerations in an obviousness analysis, the evidence
of secondary considerations must have a nexus to the
claims, i.e., there must be a legally and factually sufficient
connection between the evidence and the patented
invention.” Fox Factory, Inc. v. SRAM, LLC, 944 F.3d

208a
Appendix E
1366, 1373 (Fed. Cir. 2019) (internal quotations omitted).
A nexus is presumed when “the patentee shows that the
asserted objective evidence is tied to a specific product
and that product ‘embodies the claimed features, and is
coextensive with them.’” Id. (quoting Polaris Indus., Inc.
v. Arctic Cat, Inc., 882 F.3d 1056, 1072 (Fed. Cir. 2018)). If
the product is not coextensive with the claims at issue—
e.g., if the patented invention is only a component of the
product—the patentee is not entitled to a presumption of
nexus. See id. (citing Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988)).
a.

Long-Felt But Unmet Need and Failure of
Others

According to Patent Owner, “[t]he ’722 Patent satisfied
a long-felt need in the industry that others had failed to
solve—namely, how to operationalize threat intelligence
to proactively identify network threats.” PO Resp. 59.
Patent Owner presents evidence praising Patent Owner’s
“RuleGATE” product while identifying certain purported
challenges to “provid[ing] proactive network protection
that could scale to larger networks” and “operationalizing
threat intelligence.” Id. at 59–62. Further, Patent Owner
identifies evidence about purported advantages of its
products, such as “processing hundreds of millions of
indicators from thousands of feeds,” “better manag[ing]
traffic by leveraging [cyber threat intelligence (CTI)]
context with highly granular rules in the form of policies
that can be automatically enforced,” dynamic updating
of intelligence, real time reporting of results for “live
analytics,” “best-in-class performance [due to] the fact

209a
Appendix E
that the dynamic security policies implement rules on a
packet-by-packet basis.” Id.
Patent Owner’s arguments and evidence, however,
are insufficient to establish a nexus between the alleged
long-felt but unmet need, and the claimed invention. First,
no analysis is presented to demonstrate that any product,
including RuleGATE, is coextensive with any claim of
the ’722 Patent. Thus, Patent Owner is not entitled to a
presumption of nexus. See Fox Factory, 944 F.3d at 1373.
Patent Owner’s conclusory assertion that its “RuleGATE
product practices [the ’722 Patent and other patents]” is
insufficient and unpersuasive. See PO Sur-reply 25–26;
PO Resp. 62–63.
Second, insufficient analysis is presented to show that
the evidence of a purported long-felt but unmet need is
connected to the patented invention. The only mention of any
challenged claim is a conclusory statement that limitation
1[a] of claim 1 corresponds to “converting indicators to
rules that drive actions across a risk spectrum.” PO Resp.
62. Patent Owner does not explain how limitation 1[a],
or any aspect of any challenged claim, relates to a “risk
spectrum.” The paper from which Patent Owner derived
the reference to a “risk spectrum” (the “ESG Paper”)
indicates that “converting indicators to rules that drive
actions across a risk spectrum” refers to “logging, content
capture, mirroring, redirection, shielding, and advanced
threat detection.” Ex. 2006, 7.12 Patent Owner makes no
12. Petitioner argues that the ESG Paper is not objective
evidence of non-obviousness because it is a report commissioned and
paid for by Patent Owner. Pet. Reply 26–27. We decline to disregard
this evidence, or Dr. Orso’s testimony about it, entirely. We find,

210a
Appendix E
attempt to demonstrate that limitation 1[a], or any aspect(s)
of any challenged claim, relates to, for example, “content
capture” or “mirroring.” With respect to other “challenges”
reported in the ESG Paper—e.g., “[l]ack of automation”
and “the inability to use feeds ‘in a meaningful way to live
network traffic’” (PO Resp. 61)—Patent Owner provides
no analysis as to how the patented invention purportedly
meets those challenges.
Further, Patent Owner also does not explain how
the challenged claims relate to processing “hundreds of
millions of indicators,” or “leveraging CTI context with
highly granular rules in the form of policies that can be
automatically enforced,” or “dynamic security policies
[that] implement rules on a packet-by-packet basis.” PO
Resp. 62–63. Indeed, these seem clearly outside the scope
of the challenged claims. For example, claim 1 recites, at
most, a “plurality of network-threat indicators” (i.e., as
few as two indicators), not hundreds of millions.
Therefore, we conclude that a nexus was not proven
between the purported long-felt but unmet need(s)
identified by Patent Owner and the patented invention of
the ’722 Patent.
b.	Industry Praise
Patent Owner cites the ESG Paper (Ex. 2006) as
well as a Gartner article (Ex. 2007) and an American
Banker article (Ex. 2011) as evidence of industry praise.
PO Resp. 63–65. Similar to its long-felt need contentions,
however, that the nature and circumstances around the genesis of
the ESG Paper diminish the persuasive weight it should be accorded.

211a
Appendix E
however, Patent Owner does not provide sufficient analysis
or explanation to establish the requisite nexus. Patent
Owner again provides no analysis demonstrating that any
Centripetal product is coextensive with the challenged
claims, so no presumption of nexus is applied. See Fox
Factory, 944 F.3d at 1373. Additionally, the cited praise
of Centripetal products is not linked sufficiently to the
challenged claims, including because Patent Owner failed
to address lauded features with no relationship to the
claims.
For example, Patent Owner cites the ESG Paper
as praising the “high performance” of its product, its
ability to process “hundreds of millions of indicators
from thousands of feeds,” “synthesizing into a network
policy,” “complex filtering rule[s]” with “at-least a dozen
unique fields which had to be evaluated and applied bidirectionally and without state,” etc. Ex. 2006, 7. None
of these features appear to be in the challenged claims.
Patent Owner does not address whether they are part of
the claimed invention or, if not, their relative contribution
to the industry praise compared to any actual features of
the claimed invention.
Regarding the Gartner article, Patent Owner notes
that Gartner praises its product’s “ability to instantly
detect and prevent malicious network connections based
on millions of threat indicators at 10-gigabit speeds,”
“the largest number of third-party threat intelligence
service integrations,” and using “5 million indicators
simultaneously.” Ex. 2007, 5; see PO Resp. 64. Again,
insufficient analysis is presented to address how these
features relate to the challenged claims. Patent Owner’s

212a
Appendix E
reference to the American Banker article similarly suffers
from a lack of explanation. See PO Resp. 64–65.
The only nexus explanation provided is a conclusory
assertion that “the salutary benefits of [the praised
products] are made possible in large part by the ’722
Patent’s packet-filtering rules, which transform networkthreat indicators into actionable rules.” Id. at 65. Dr.
Orso’s testimony cited in support of this statement is
merely a near-verbatim copy of this conclusory statement
with no additional explanation. See Ex. 2002 ¶ 123; 37
C.F.R. § 42.65(a). As a result, we find that Patent Owner
has not established a sufficient nexus between the cited
industry praise and the invention of the challenged claims.
c.

Commercial Success and Licensing

Finally, Patent Owner contends that the commercial
success of its RuleGATE product as well as a license
to the ’722 Patent taken by Keysight Technologies are
compelling secondary considerations of non-obviousness.
PO Resp. 65–67. We disagree.
First, we note that the sole evidence cited for
the commercial success of the RuleGATE product, a
declaration by Mr. Jonathan Rogers of Centripetal, makes
no mention whatsoever of the ’722 Patent. See Ex. 2016.
Rather, the Rogers Declaration is testimony that was
submitted in a different inter partes review challenging
a different patent. See id. As such, there is no record
evidence supporting any nexus between the matters in
Mr. Rogers’ testimony on alleged commercial success and
the ’722 Patent.

213a
Appendix E
Second, as Patent Owner itself admits (PO Resp.
66), the Keysight license was a “worldwide, royaltybearing, non-transferable, irrevocable, non-terminable,
non-exclusive license to Centripetal’s worldwide patent
portfolio.” Ex. 2012, 88. No information is provided about
the relevant details of this license—e.g., how many patents
comprise the portfolio, the relative contributions of the
patents in the portfolio to the value of the license—such
that we could discern whether Keysight took the license
“out of recognition and acceptance of the subject matter
claimed” in the ’713 Patent. See In re GPAC Inc., 57 F.3d
1573, 1580 (Fed. Cir. 1995). In fact, the record evidence
indicates that this license was taken to settle litigation
(Ex. 2012, 88), which diminishes its probative value as an
indicator of non-obviousness. See GPAC, 57 F.3d at 1580.
As such, we find that Patent Owner has not provided
sufficient evidence to establish the requisite nexus
between the Keysight license and the ’722 Patent. See id.
6.

Conclusion as to Obviousness

As discussed above, Petitioner has shown by a
preponderance of the evidence that Sourcefire teaches
each limitation of claims 1–7, 10–12, 14–21, 24, and 25.
We further determine that Petitioner’s showing that the
claims are taught by Sourcefire is strong, particularly in
comparison to Patent Owner’s weak showing with respect
to the asserted secondary considerations of obviousness.
As discussed above, we find that Patent Owner has not
established the requisite nexus between the challenged
claims and any of the asserted secondary considerations.
As such, we are unable to accord them any substantial
weight. See Fox Factory, 944 F.3d at 1373. Therefore,

214a
Appendix E
in weighing the totality of the evidence of record and
the strength of the parties’ showings on the inquiries
underlying the question of obviousness, we conclude
that Petitioner has met its overall burden of proving by
a preponderance of the evidence that 1–7, 10–12, 14–21,
24, and 25 would have been obvious in view of Sourcefire.
Also as discussed above, we determine that Petitioner
has not shown that Sourcefire teaches each limitation
of claims 8, 9, 13, 22, and 23. Thus, we conclude that
Petitioner has not met its overall burden to prove the
unpatentability of these claims.
E. Motions to Exclude and Other Matters
1.	Petitioner’s Motion to Exclude (Paper 29, “Pet.
Mot.”)
Petitioner moves to exclude Exhibits 2003, 2005–2007,
2011–2013, and 2016. Pet. Mot. 2. Exhibits 2003 and 2005
did not form the basis for any aspect of this Decision. As
such, Petitioner’s Motion with respect to those exhibits
is moot.
For Exhibit 2016, the Rogers Declaration, Petitioner
asserts that it should be excluded under Rules 401, 402,
and 403 of the Federal Rules of Evidence. Pet. Mot.
10–11. We agree with Patent Owner that exclusion is
unwarranted. Paper 32, 5–7. We note that Patent Owner
relies on Exhibit 2016 to support its arguments for
commercial success, which specifically note the alleged
success of the RuleGATE product. PO Resp. 65. Although
the Rogers Declaration addresses a different patent than

215a
Appendix E
the ’722 Patent, its testimony regarding the RuleGATE
product and Centripetal’s customers generally meets the
threshold for relevance, and its purported shortcomings
as evidence go to its persuasive weight rather than its
admissibility. We also discern no risk of unfair prejudice.
Thus, Petitioner’s objections under Rules 401, 402, and
403 are denied.
Petitioner argues that Exhibits 2006, 2007, and
2011–2013 should be excluded under Rules 401, 402, 403,
901, and as hearsay (under Rule 802). Pet. Mot. 7–9. We
are not persuaded. Each of these exhibits is cited by
Patent Owner as evidence supporting its arguments
regarding secondary considerations of non-obviousness,
including as evidence of industry praise and the existence
of a relevant license. See PO Resp. 59–66. Although they
may not identify the ’722 Patent specifically (Pet. Mot. 7),
we determine that they meet the threshold for relevance
nonetheless, and we discern no risk of unfair prejudice,
confusion, or waste of time. Regarding authentication, we
note that the Declaration of Jeffrey H. Price (Ex. 2018)
provides evidence of the source of each of these exhibits,
and we find that this information along with the distinctive
characteristics of the exhibits themselves (including dates,
titles, publication names, etc.) provide the necessary basis
for authentication.13 With respect to Petitioner’s hearsay
objections, we conclude first that Exhibits 2007 and 2011
are not hearsay because they are not relied on for the truth
of the matters asserted. See Fed. R. Evid. 801(c). These
exhibits are cited only as evidence of industry praise; their
13. We further note that at least Exhibits 2007 and 2011 are
printed material purporting to be from news sources, which are
self-authenticating under Rule 902(6).

216a
Appendix E
relevance lies in that they include statements from the
industry allegedly praising Centripetal’s invention, not
in whether that praise is true or accurate. See PO Resp.
64–65. For the remaining exhibits, we deny Petitioner’s
hearsay objection under Rule 807 because we conclude that
the totality of the circumstances provides sufficient indicia
of trustworthiness—for example, these exhibits are
contemporaneous documents by third parties produced for
purposes that indicate their statements are likely reliable
(e.g., Keysight’s official Annual Report (Ex. 2012))—and
these exhibits generally are highly probative on the points
underlying Patent Owner’s secondary considerations
allegations (e.g., industry praise) compared to different
evidence reasonably available to Patent Owner.
For the above reasons, we are not persuaded that any
of these exhibits should be excluded and, thus, we deny
Petitioner’s Motion to Exclude.
2.	Patent Owner’s Motion to Exclude (Paper 28,
“PO Mot.”)
Patent Owner moves to exclude Exhibits 1038 and
1042. PO Mot. 1. Exhibit 1038 did not form the basis for
any aspect of this Decision. Thus, Patent Owner’s Motion
is moot as to that exhibit.
For Exhibit 1042 (the Baugher Declaration), Patent
Owner objects on the basis of Rule 403 and 37 C.F.R.
§ 42.61. Id. The crux of Patent Owner’s objections is that
the Baugher Declaration was submitted with Petitioner’s
Reply instead of the Petition, which Patent Owner
considers to be untimely. Id. at 1–4. According to Patent

217a
Appendix E
Owner, the timing of the Baugher Declaration’s submission
was unfairly prejudicial to Patent Owner, including
because Patent Owner was denied an opportunity to seek
additional discovery related to his testimony. Id.
As an initial matter, we note that Patent Owner’s
objections to the Baugher Declaration did not include
any objection based on Rule 403. See Paper 21, 3. Thus,
Patent Owner did not preserve a Rule 403 objection to the
Baugher Declaration, and we deny that objection at least
for that reason. See 37 C.F.R. § 42.64 (b)(1), (c).
We also agree with Petitioner, however, that the
Baugher Declaration was not unfairly prejudicial. See
Paper 31. As Petitioner explains (id. at 2–5), the Baugher
Declaration was submitted to address arguments
raised in the Patent Owner Response in compliance
with our rules. See 37 C.F.R. § 42.23(b) (“A reply may
only respond to arguments raised in the corresponding
opposition, patent owner preliminary response, or
patent owner response.”). Specifically, the Patent Owner
Response asserted that another declarant, Mr. Leone,
had insufficiently accounted for his testimony regarding
the amount of sales of Sourcefire products. See PO Resp.
6–7. Mr. Baugher’s testimony corroborated Mr. Leone’s
testimony and provided information regarding the source
for that testimony, which addressed issues raised by
Patent Owner. See Paper 31, 3.
Although the substance of Mr. Baugher’s testimony
was known to Petitioner at the time the Petition was filed
(see PO Mot. 3), that subject matter was presented with
the Petition in the form of Mr. Leone’s testimony. The

218a
Appendix E
Baugher Declaration did not introduce any new theory
of unpatentability, or any new factual issue regarding the
public accessibility of Sourcefire. The issue of whether
Sourcefire was disseminated as part of sales of Sourcefire
products, and the scope of those sales, was properly raised
in the Petition and supported by the Leone Declaration.
See Pet. 24 (citing Ex. 1005); cf. Intelligent Bio-Sys., Inc.
v. Illumina Cambridge Ltd., 821 F.3d 1359, 1369 (Fed.
Cir. 2016) (approving of the Board’s exclusion of new
arguments raised for the first time in a reply). Although
the Baugher Declaration provided additional evidence
relevant to those issues, it was appropriately provided to
address specific arguments and allegations in the Patent
Owner Response, as explained above. Thus, we determine
that the Baugher Declaration was not untimely filed.
Moreover, we note that Patent Owner had the
opportunity to depose Mr. Baugher, and did so. See Ex.
2017. Patent Owner also had the opportunity to address
Mr. Baugher’s testimony in its Sur-reply, and did so,
including by presenting testimony it elicited during Mr.
Baugher’s deposition. See PO Sur-reply 8–10. Thus, we
disagree that Patent Owner was unfairly prejudiced by
the timing of the Baugher Declaration.
Patent Owner also asserts that it was prevented from
obtaining discovery on purported “restrictions” on the
dissemination of Sourcefire that Mr. Baugher allegedly
disclosed at this deposition. PO Mot. 3–4. We note that this
issue was raised by Mr. Baugher’s deposition testimony
under questioning by Patent Owner, not the Baugher
Declaration. See id. Additionally, we note that Patent
Owner was previously aware of the issue of restrictions

219a
Appendix E
on dissemination and access, which Patent Owner itself
raised in its Response. See PO Resp. 3–5, 10. Patent Owner
did not, however, avail itself of an earlier opportunity
to seek discovery on that issue, declining to depose
Petitioner’s original declarant on public accessibility
issues, Mr. Leone. As a result, we conclude that the totality
of the circumstances indicates that Patent Owner was not
unfairly prejudiced.
For the above reasons, we are not persuaded that
any of the exhibits challenged by Patent Owner should
be excluded and, thus, we deny Patent Owner’s Motion
to Exclude.
3.	Patent Owner’s Request to File a Motion for
Supplemental Information
Just prior to the oral hearing, Patent Owner contacted
the Board to request authorization to file a motion to
submit supplemental information, which was considered
at the prehearing conference. See Ex. 1046, 4:3–7.
Specifically, Patent Owner sought to introduce evidence
of the allowance of a patent stemming from a continuation
of the application that led to the ’722 Patent. See id. at
5:23–6:9. We denied the request, principally because
the request came very late in the case and, thus, would
unfairly prejudice Petitioner as well as disrupt the parties’
and the Board’s preparations for the oral hearing and the
case schedule. See id. at 10:3–11:1, 11:23–12:13. Under
those circumstances, we were not persuaded that the
potential probative value of the proposed evidence—which
concerned a related but different patent with different

220a
Appendix E
claims14 —outweighed the potential prejudice to Petitioner
and disruption to the case. See id.
We note, however, that Patent Owner nonetheless
raised the proposed evidence during the oral hearing, our
ruling on its request notwithstanding. See Tr. 34:14–35:6.
We emphasize that the proposed evidence is not part
of the record of this case, and we do not consider any
arguments pertaining to such evidence. Further, we
expect all parties appearing before the Board to comply
with our rules, and all rulings made by the Board during
one of our proceedings.
CONCLUSION15
For the foregoing reasons, Petitioner has shown by
a preponderance of the evidence that certain challenged
claims of the ’722 Patent are unpatentable, as summarized
in the following table:
14. We note that the patent application in question was, at the
time, still unpublished and not publicly available. See id. at 5:14–19.
15. Should Patent Owner wish to pursue amendment of
the challenged claims in a reissue or reexamination proceeding
subsequent to the issuance of this decision, we draw Patent
Owner’s attention to the April 2019 Notice Regarding Options for
Amendments by Patent Owner Through Reissue or Reexamination
During a Pending AIA Trial Proceeding. See 84 Fed. Reg. 16,654
(Apr. 22, 2019). If Patent Owner chooses to file a reissue application
or a request for reexamination of the challenged patent, we remind
Patent Owner of its continuing obligation to notify the Board of any
such related matters in updated mandatory notices. See 37 C.F.R.
§ 42.8(a)(3), (b)(2).

221a
Appendix E
Claims

1–25

35
Reference(s)
U.S.C. §

103

Sourcefire

Overall
Outcome

Claims
Claims
Shown
Not
Unpaten- Shown
table
Unpatentable
1–7,
8, 9, 13,
10–12,
22, 23
14–21,
24, 25
1–7,
8, 9, 13,
10–12,
22, 23
14–21,
24, 25

ORDER
In consideration of the foregoing, it is hereby:
ORDERED that claims 1–7, 10–12, 14–21, 24, and 25
of the ’722 Patent are held unpatentable as obvious under
35 U.S.C. § 103 in view of Sourcefire;
FURTHER ORDERED that claims 8, 9, 13, 22, and 23
of the ’722 Patent are not held as obvious under 35 U.S.C.
§ 103 in view of Sourcefire;
FURTHER ORDERED that Petitioner’s Motion to
Exclude (Paper 29) is denied as set forth above;
FURTHER ORDERED that Patent Owner’s Motion
to Exclude (Paper 28) is denied as set forth above;

222a
Appendix E
FURTHER ORDERED that, because this is a final
written decision, parties to the proceeding seeking judicial
review of this Decision must comply with the notice and
service requirements of 37 C.F.R. § 90.2.
PETITIONER:
Patrick McPherson
Patrick Muldoon
Joseph Powers
Christopher Tyson
pdmcpherson@duanemorris.com
pcmuldoon@duanemorris.com
japowers@duanemorris.com
cjtyson@duanemorris.com
PATENT OWNER:
James Hannah
Jeffrey Price
Jonathan Caplan
Michael Lee
Bradley Wright
jhannah@kramerlevin.com
jprice@kramerlevin.com
mhlee@kramerlevin.com
bwright@bannerwitcoff.com

223a
Appendix
APPENDIX
F — 35FU.S.C. 102
35 U.S.C. 102 (PRE-AIA)
CONDITIONS FOR PATENTABILITY; NOVELTY
AND LOSS OF RIGHT TO PATENT.
[Editor Note: With the exception of subsection (g)*), not
applicable to any patent application subject to the first
inventor to file provisions of the AIA (see 35 U.S.C. 100
(note) ). See 35 U.S.C. 102 for the law otherwise applicable.]
A person shall be entitled to a patent unless —
• (a) the invention was known or used by others in
this country, or patented or described in a printed
publication in this or a foreign country, before the
invention thereof by the applicant for patent, or
• (b) the invention was patented or described in a
printed publication in this or a foreign country or in
public use or on sale in this country, more than one
year prior to the date of the application for patent
in the United States, or
• (c) he has abandoned the invention, or
• (d) the invention was first patented or caused to
be patented, or was the subject of an inventor’s
cer t i f ic at e , by t he appl ic a nt or h i s leg a l
representatives or assigns in a foreign country
prior to the date of the application for patent in this
country on an application for patent or inventor’s

224a
Appendix F
certificate filed more than twelve months before
the filing of the application in the United States, or
• (e) the invention was described in — (1) an
application for patent, published under section
122(b), by another filed in the United States
before the invention by the applicant for patent or
(2) a patent granted on an application for patent
by another filed in the United States before the
invention by the applicant for patent, except that
an international application filed under the treaty
defined in section 351(a) shall have the effects for
the purposes of this subsection of an application
filed in the United States only if the international
application designated the United States and was
published under Article 21(2) of such treaty in the
English language; or
• (f) he did not himself invent the subject matter
sought to be patented, or
• (g)(1) during the course of an interference conducted
under section 135 or section 291, another inventor
involved therein establishes, to the extent permitted
in section 104, that before such person’s invention
thereof the invention was made by such other inventor
and not abandoned, suppressed, or concealed, or (2)
before such person’s invention thereof, the invention
was made in this country by another inventor who
had not abandoned, suppressed, or concealed it.
In determining priority of invention under this
subsection, there shall be considered not only the
respective dates of conception and reduction to

225a
Appendix F
practice of the invention, but also the reasonable
diligence of one who was first to conceive and last to
reduce to practice, from a time prior to conception
by the other.
(Amended July 28, 1972, Public Law 92-358, sec. 2,
86 Stat. 501; Nov. 14, 1975, Public Law 94-131, sec. 5, 89
Stat. 691; subsection (e) amended Nov. 29, 1999, Public Law
106-113, sec. 1000(a)(9), 113 Stat. 1501A-565 (S. 1948 sec.
4505); subsection (g) amended Nov. 29, 1999, Public Law
106-113, sec. 1000(a)(9), 113 Stat. 1501A-590 (S. 1948 sec.
4806); subsection (e) amended Nov. 2, 2002, Public Law
107-273, sec. 13205, 116 Stat. 1903.)
(Public Law 112-29, sec. 14, 125 Stat. 284 (Sept. 16,
2011) provided that tax strategies are deemed to be within
the prior art (see AIA § 14).)
*NOTE: The provisions of 35 U.S.C. 102(g), as in
effect on March 15, 2013, shall apply to each claim of an
application for patent, and any patent issued thereon, for
which the first inventor to file provisions of the AIA apply
(see 35 U.S.C. 100 (note), if such application or patent
contains or contained at any time—
(A) a claim to an invention having an effective filing
date as defined in section 100(i) of title 35, United
States Code, that occurs before March 16, 2013;
or
(B) a specific reference under section 120, 121, or
365(c) of title 35, United States Code, to any
patent or application that contains or contained
at any time such a claim.

